<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-13]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF DEFENSE

                               __________

                              HEARING HELD

                            FEBRUARY 7, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                     U.S. GOVERNMENT PRINTING OFFICE
38-136 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK UDALL, Colorado                 ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN GILLIBRAND, New York         K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Andrew Hunter, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, February 7, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request from the Department of 
  Defense........................................................     1

Appendix:

Wednesday, February 7, 2007......................................    73
                              ----------                              

                      WEDNESDAY, FEBRUARY 7, 2007
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                     FROM THE DEPARTMENT OF DEFENSE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     4
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Gates, Hon. Robert M., Secretary, Department of Defense, 
  accompanied by; Gen. Peter Pace, Chairman of the Joint Chiefs 
  of Staff, U.S. Marine Corps, and Hon. Tina Jonas, the 
  Comptroller of the Department of Defense.......................     6

                                APPENDIX

Prepared Statements:

    Gates, Hon. Robert M.........................................    77
    Pace, Gen. Peter.............................................    88

Documents Submitted for the Record:

    Letter on the Estimated Cost of the President's Plan to 
      Increase the Number of Military Personnel Deployed to Iraq 
      submitted by the Congressional Budget Office dated February 
      1, 2007....................................................   106
    List of Recent Conflicts Involving the United States 
      Memorandum dated September 11, 2006 submitted by 
      Congressional Research Service.............................   103
    Spreadsheet on the Description and the Operational Experience 
      for the Iraqi Security Forces..............................   111

Questions and Answers Submitted for the Record:

    Mr. Andrews..................................................   127
    Mr. Courtney.................................................   133
    Ms. Giffords.................................................   133
    Mr. Hunter...................................................   125
    Mr. Larsen...................................................   128
    Mr. McHugh...................................................   125

    Mr. Meehan...................................................   126
    Ms. Shea-Porter..............................................   133
    Dr. Snyder...................................................   126
    Mr. Wilson...................................................   133
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                     FROM THE DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, February 7, 2007.
    The committee met, pursuant to call, at 9:35 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, the hearing will come 
to order.
    And let me take this opportunity to welcome Secretary of 
Defense Gates; the chairman of the Joint Chiefs of Staff, 
General Pace; the Honorable Ms. Jonas. And I appreciate your 
being with us very, very much.
    Let me make two comments at the outset.
    The first is a compliment. Mr. Secretary, you and the 
general got your written testimony to us not only in a timely 
fashion, but in written fashion, ahead of schedule. And if this 
were the proper place to give you an applause, just consider 
yourself having received applause for that, because we are 
setting a new trend, and urging that testimony be submitted to 
us 48 hours ahead of time.
    Normal witnesses are asked to confine their remarks to four 
minutes. That, of course, does not apply today because, you 
know, we are discussing a multi-billion dollar proposal coming 
from the Administration. So consequently, it will not, ladies 
and gentlemen, apply to you folks.
    Let me also mention that there are some members of this 
committee in past days that felt we were not receiving 
forthright testimony, that some of the answers were not direct 
answers or informative answers to the questions asked of 
Pentagon witnesses.
    I raise that because my recollection, Mr. Secretary, on a 
previous occasion, if my memory serves me correctly, you said 
something to the effect that you were not here to mislead 
anyone. And we know and hope that questions asked will be 
answered forthrightly and to the point. And, of course, there 
are some areas that must be answered in closed or classified 
session, of which we all understand and appreciate.
    So I mention that at the outset. And, Mr. Secretary, if you 
wish to comment on that, you certainly may.
    I also wish to mention that we have requested, and it 
appears it will come to pass, that there will be regular 
briefings, hopefully on a biweekly basis, here in this 
committee room under the auspices of the Armed Services 
Committee for the full House on the ongoing operations in the 
Middle East.
    This will be on a regular basis. This was done during the 
work-up to and during what we now refer to as Desert Shield and 
Desert Storm of 1990 and 1991. We hope to re-establish those 
regular biweekly briefings for the full House here in this 
room.
    So let me welcome, Mr. Secretary, you and General Pace for 
appearing before us.
    This is an enormous budget, with $480 billion in regular 
spending, an additional supplemental request for over $93 
billion to cover the cost of the war this fiscal year, and on 
top of that a $140 billion request to pay for the war in the 
coming fiscal year.
    Now it is time for Congress to play our constitutional 
role. As authorizers, it is our solemn duty to ensure that this 
budget is sufficient. At the same time, it must ensure our 
forces are properly postured to meet the complex security 
demands of this century, while protecting taxpayers' resources.
    Each year, I caution that while this process is familiar, 
we must not approach it as routine. This is a time of war. Wars 
test nerves, wars test will, and wars test wisdom.
    Our troops and the civilians who serve with them continue 
to do everything we ask of them and more. It is our job to make 
sure they have the training and the equipment they need to be 
successful.
    Let me make a few brief comments before we move on to our 
witnesses.
    And, first, I congratulate the Department on delivering a 
full year fiscal 2008 budget request to pay for the ongoing war 
in Iraq. For too long, we have funded the war piecemeal, 
through supplementals, which I feel obscured the total cost.
    To rectify that, last year we passed a provision to require 
that a funding request be delivered with the base budget for 
this and the following years. I would still prefer the war 
funding to be in the base budget, but this request is for the 
full amount, and I would say it does comply with the law.
    And today, our forces are engaged in two primary conflicts.
    I came back from a recent trip to Afghanistan optimistic, 
feeling our fight there is winnable. Long-term security and 
economic development depends on a government free of the 
Taliban and its violence. And we can end the scourge of the 
Taliban with their al Qaeda support if our commanders there 
have the right troops and the right numbers.
    We are doing our part. But I don't believe our North 
Atlantic Treaty Organization (NATO) partners yet are. And I am 
concerned about that, Mr. Secretary. They must meet their 
troops commitments and lift restrictions that they have placed 
on the troops that are currently in Afghanistan. They have 
committed to some 3,000 more and they haven't delivered on 
that.
    I welcome any comments you might have.
    Now, I wish I were as optimistic about Iraq as the 
President's proposed troop increase indicates. And I still have 
some serious question about what we are doing there and how 
effective the plan will be. And I continue to believe this so-
called surge is a change in tactics and that greater strategic 
questions remain unanswered.
    Each day we continue that fight is another day we increase 
the strategic risk to the United States that we may not have 
the right resources when our military is next called upon to 
deter or to respond to a conflict.
    Readiness for the future is the job of this committee, and 
I am concerned that a lot of our seed corn is being eaten in 
that conflict in Iraq.
    Strategic risk will not be eliminated at once, but 
resetting our equipment is a necessary start. Therefore, it is 
with some relief I note that $37 billion in the 2008 allocation 
is to reconstitute equipment lost or damaged. We cannot neglect 
the future.
    I am pleased to see some recognition of this in the base 
budget, including the funding, for instance, of eight new ships 
that are needed to retain our power projection capabilities and 
allow us to respond to a crisis anywhere in the world.
    This budget also helps ensure that our forces dominate the 
domains of air and space as well.
    We have a dual problem. One is preparing for force-on-force 
and deterring potential force-on-force conflicts and threats. 
And the other is the counterinsurgency that we are going to be 
engaged with in a long time.
    We used to know how to do that; we did it well. And then 
threw away that knowledge. And now, we are re-establishing the 
training and the education at a professional level on 
counterinsurgency.
    And I am gratified to see that the President finally agrees 
with my ten-year request to bolster the size of the ground 
forces. Funding the Army increased by 65,000; Marines, by 
27,000. This increase will ease the burden of constant 
deployments.
    Now, while this end-strength increase is good news, we must 
watch carefully how we achieve it over time. I am concerned 
that the Army recruit quality continues to decline, and I worry 
that we have not committed enough resources to recruit and 
retain our forces.
    Our military strength is based on our quality. We must be 
sure that we continue to pay them what they are worth and take 
care of their families.
    And, gentlemen, there is much to commend in the budget, and 
I look forward to working with the Department, as well as the 
fellow members of our committee.
    And I commend you, gentlemen, not only for getting the 
budget out with more detail than in the past, but for getting 
your statements to this hearing, as I mentioned, to us in a 
timely manner. That is unprecedented, and we thank you.
    A few housekeeping notes: Please note to do your best to 
summarize your testimony. However, you do not have the 
restriction. And without objection, your full testimony will be 
entered into the record.
    We do understand, Mr. Secretary, you have a four-hour time 
limit, and we wanted to save time for member questions. And the 
last time you were before us, some of our more junior members 
did not get a chance to ask their questions. Therefore, today 
we will--in consultation with Mr. Hunter, the ranking 
gentleman, we will go out of regular order and recognize those 
who did not get to ask questions of you first, and then, time 
permitting, we will come back to the top row. And I guess we 
can just say good luck to the middle row as we forge ahead. 
[Laughter.]
    The witness must leave at 1:30.
    So, without further ado, we thank you for being with us.
    Mr. Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman. And I want to join you 
in welcoming our guests.
    I have looked, and I know our members have looked, at the 
budget, Mr. Secretary, that you have put before us. And I think 
it is a good budget and that it strikes a balance between our 
focus on the immediate warfighting theaters and the 
requirements that are attendant to those theaters and what I 
would call the over-the-horizon programs that will maintain a 
strong defense for the future for this country, looking at 
threats that aren't immediate but nonetheless will manifest 
themselves at some point in the future.
    One other point that I thought was excellent with respect 
to this budget is that, on this committee over the years, we 
have done a Congressional Budget Office (CBO) analysis as to 
how many trucks, tanks, ships, planes we had to replace each 
year to maintain at a steady state, to maintain what we would 
call a modicum of modernization. That has always been, and has 
been for the last 5 or 6 years, close to $100 billion; today, 
somewhat over that.
    In the 1990's, we were funding that $90 billion-plus 
requirement at about $45 billion and up to about $55 billion, 
$60 billion, around the year 2000. We have taken that up now to 
about $75 billion in years past, and $80 billion was the top 
end.
    I noted that, in this budget, I believe--and Ms. Jonas, you 
may want to refer to it and describe it a little bit in your 
testimony--we are over, for the first time, the $100 billion. 
That is, we are meeting the mark of what CBO projected was the 
steady-state requirement for modernization to keep our forces 
modern. So I think that is an excellent aspect of this 
particular budget.
    Let me just make a couple of other comments.
    You have a substantial increase with respect to the Army 
and the Marine Corps, and I think that is an excellent move by 
the Administration.
    We have, on this committee, increased, in fact, the Army 
and the Marine Corps over the past 5 years: the Marines to 
180,000, the Army to 512,000 end-strength. You have substantial 
increases beyond that.
    And last year, we did what we called a committee defense 
review (CDR) that was intended to be a counterpart to the 
Quadrennial Defense Review (QDR). The problem we saw with the 
QDR at that time was that the QDR had become a budget-driven 
document. That is, it appeared to be a document in which the 
services tried to figure out how much money they were going to 
get, and then, instead of giving us what they thought was the 
requirement for the defense of this country in terms of force 
structure and modernization requirements, they tried to fit, in 
what they thought was going to be the budget box, their 
priority programs. So they had no increase in Army and Marine 
Corps.
    We came up in our CDR, which was a threat-driven document 
based on the real world and what we felt we needed to defend 
the country, substantial increases that are fairly close in 
total numbers to the numbers that you came up with in this 
budget and the succeeding budgets.
    I think the chairman has rightly pointed out that the 
genius in this increasing of the end-strength will be seen in 
how well we meet and how we match our recruiting tools and our 
retention tools with these end-strength goals. And it may, in 
fact, be somewhat of a challenge.
    But I think that that aspect of the budget is something 
that will accrue to our benefit. I see we have--you have got a 
65,000 increase in the Army, and it is 27,000 in the Marine 
Corps.
    We passed a continuing resolution last week, Mr. Secretary, 
that cut some $3.1 billion from what we call the Base 
Realignment and Closure (BRAC) accounts. Now, we got a letter 
from the Army that stated that this money was not padlocking-
the-gates money. It was money that was intended to bed-down 
units that are coming back to this country from other areas, 
intended to advance quality of life for the men and women who 
serve this country and for their families, and that this money 
needed to be restored, this $3.1 billion.
    I know we have got to work on that. And I know that these 
funds were fully authorized by the committee last year, by what 
I recall was a 60-1 vote. So I know that that is something that 
we must restore. And I would ask that you talk a little bit 
about that in your comments.
    Let me go to the issue of the day, Mr. Secretary, and that 
is the war in Iraq and the prospects for resolutions coming out 
of this body and the other body that will reflect Congress's 
position on this plan.
    This plan is already being carried out. And my 
understanding is that most of the elements of the 82nd Airborne 
have already gone over the line from Kuwait. They are in-
country. The plan is being moved forward. General Petraeus is 
working the plan right now.
    And, Mr. Secretary, I think it is time for this country to 
get behind a military plan that is already in the process of 
being executed.
    And I think it would be a major mistake for us to send a 
fractured message to the world, to our allies and our 
adversaries that the United States is heavily divided over the 
support of this mission. I don't think you can send a message 
that is going to raise the morale of the troops while at the 
same time sending a message that we don't support the mission.
    So I will personally oppose any resolution in this body or 
one coming over from the other body that would go against or 
somehow attempt to turn off this mission or in some way attempt 
to cripple it through amendments to the operations and 
maintenance (O&M) budget or supplemental appropriations.
    And let me just say, Mr. Secretary, that the plan--I looked 
at this plan which provides for the nine sectors in Baghdad to 
be manned by Iraqi brigades, two to three maneuver battalions 
in each sector, with an American back-up battalion in each 
sector.
    And my recommendation is--I am going to be submitting to 
you and to the President a plan that that could be a pattern 
for standing up and giving a combat rotation of 3 to 4 months 
for every one of the 129 Iraqi battalions that we have trained 
and equipped to date.
    And as you know, about half the provinces in Iraq are 
benign provinces where there is very little contact, very 
little combat going on.
    My recommendation is that we get all of the Iraqi 
battalions combat experienced. That matures a military unit 
better than a year of drill and ceremony on some remote tarmac 
or other training devices--getting them into the operation, 
getting them to work with the other battalions, reinforcing the 
chain of command and also strengthening that link between the 
Ministry of Defense and the combat leadership and battalions 
and brigades of the Iraqi forces. We need to make sure that 
these guys are going to come when called, when ordered.
    And I think it is absolutely appropriate for this country, 
having trained and equipped 129 battalions, to demand of the 
Iraqi leadership that they have a schedule for the Iraqi 
battalions all getting a stint of combat time and a tenure on 
the front lines in the contentious zones to acquire that 
battle-hardening that is going to be necessary if they are 
going to provide the security and safety for the country and 
for this free government.
    So I will be getting that to you here shortly. And I will 
look forward to discussing that with you.
    You have a tough job. You have big challenges. I think you 
now are a combat veteran, having gone through a week or two. 
Thank you for your service.
    And, General Pace and Ms. Jonas, I look forward to your 
statements also.
    Thank you, Mr. Chairman. And I look forward to the 
questions.
    The Chairman. I thank my friend from California.
    I want to compliment the members of the committee by doing 
a good job with the five-minute rule. It is in effect. When the 
gavel goes down, please observe it.
    We will go back to the previously announced order of 
questions. When the time comes, we will start with Mr. 
Marshall.
    Secretary Gates, and then General.

  STATEMENT OF HON. ROBERT M. GATES, SECRETARY, DEPARTMENT OF 
DEFENSE, ACCOMPANIED BY; GEN. PETER PACE, CHAIRMAN OF THE JOINT 
 CHIEFS OF STAFF, U.S. MARINE CORPS, AND HON. TINA JONAS, THE 
            COMPTROLLER OF THE DEPARTMENT OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman.
    Mr. Chairman, Congressman Hunter, members of the committee, 
first of all, I would like to tell you that my introductory 
comments, I think, will observe the five-minute rule, and then 
I will very quickly address the two issues that the chairman 
and Mr. Hunter have raised, and then be ready for your 
questions.
    First of all, I want to thank the committee for all you 
have done over the years to support our military. And I 
appreciate the opportunity to provide an overview of the way 
ahead at the Department of Defense through the budgets we are 
proposing this week: first, the President's fiscal year 2008 
defense budget, which includes the base budget request and the 
fiscal year 2008 global war on terror request; and second, the 
fiscal year 2007 emergency supplemental appropriation request 
to fund war-related costs for the remainder of this fiscal 
year.
    Joining me today is General Pete Pace, the chairman of the 
Joint Chiefs of Staff, and Tina Jonas, the comptroller of the 
Department of Defense.
    In summary, the budgets being requested by the President 
will make the strategic investments necessary to modernize and 
recapitalize key capabilities of the armed forces, sustain the 
all-volunteer military by reducing stress on the force and 
improving the quality of life for our troops and their 
families, improve readiness through additional training and 
maintenance and by resetting forces following their overseas 
deployment, and fund U.S. military operations in Iraq, 
Afghanistan, and elsewhere in the ongoing campaign against 
violent jihadist networks around the globe.
    I believe it is important to consider these budget requests 
in some historical context, as there has been, understandably, 
some sticker shock at their combined price tags: more than $700 
billion.
    But consider that at about 4 percent of America's gross 
domestic product, the amount of money the United States is 
projected to spend on defense this year is actually a smaller 
percentage of GDP than when I left government 14 years ago 
following the end of the Cold War, and a significantly smaller 
percentage than during previous times of conflict, such as 
Vietnam and Korea.
    Since 1993, with a defense budget that is a smaller 
relative share of our national wealth, the world has gotten 
more complicated and arguably more dangerous.
    In addition to fighting the global war on terror, we also 
face the danger posed by Iran and North Korea's nuclear 
ambitions and the threat they pose not only to their neighbors 
but globally, because of their record of proliferation, the 
uncertain paths of Russia and China, which are both pursuing 
sophisticated military modernization programs, and a range of 
other flash points and challenges.
    In this strategic environment, the resources we devote to 
defense should be at the level to adequately meet those 
challenges.
    Someone once said that experience is that marvelous thing 
that enables you to recognize a mistake when you make it again. 
Five times over the past 90 years, the United States has either 
slashed defense spending or disarmed outright in the mistaken 
belief that the nature of man or behavior of nations has 
changed, or that we would no longer need capable, well-funded 
military forces on hand to confront threats to our Nation's 
interests and security. Each time, we have paid a price.
    The costs of defending the Nation are high. The only thing 
costlier, ultimately, would be to fail to commit the resources 
necessary to defend our interests around the world and to fail 
to prepare for the inevitable threats of the future.
    Before closing, Mr. Chairman, I would like to bring to your 
attention something that is not in my submitted statement, but 
that was announced yesterday.
    The President has decided to stand up a new unified 
combatant command, Africa Command, to oversee security 
cooperation, building partnership capability, defense support 
to nonmilitary missions and, if directed, military operations 
on the African continent.
    This command will enable us to have a more effective and 
integrated approach than the current arrangement of dividing 
Africa between the European Command and Central Command, an 
outdated arrangement left over from the Cold War.
    This department will consult closely with the Congress and 
work with our European and African allies to implement this 
effort.
    Let me comment, briefly, on the comments posed by the 
chairman and Mr. Hunter.
    Taking Mr. Hunter's comments on the BRAC first, we had 
submitted a request for $5.8 billion for BRAC. $3.1 billion of 
that has been cut. This will make it impossible for us to meet 
the statutory requirement to complete BRAC on time.
    As Mr. Hunter indicated, most of this is for construction 
at the receiving end of forces that are being consolidated or 
moved. It includes housing as well as office space and so on.
    It also includes $300 million in housing allowances for our 
troops so that they don't have to pay for their housing.
    So addressing this cut is really not optional. We really 
need to work with you in figuring out a way to address this 
$3.1 billion cut. And whether that is through adding it to the 
fiscal year 2007 emergency supplemental or some other 
mechanism, we are happy to work with you. But it is a big 
problem for us.
    With respect to your comments on testimony, Mr. Chairman, I 
would just tell you that I have always felt very strongly about 
candid, forthright testimony to committees of the Congress. I 
believe that we have established that kind of a relationship in 
dealing with both the House and Senate Intelligence Committees 
and Appropriations Committees when I was in government before.
    It is my expectation that this committee and any other 
committee before which members of the Department of Defense 
appear will receive forthright, honest, candid and complete 
testimony; and where people don't know the full answer, that 
they provide it for the record in a timely way. And, further, 
that if they are asked a question that deals with classified 
matters, that instead of trying to waffle around the issue, 
they simply say it is a classified matter and offer to deal 
with it in a closed session or in writing.
    And, finally, I would just say that if at any time members 
of this committee are not satisfied with the forthrightness and 
candor of the answers that are being given, I hope you will let 
me know so we can remedy the situation.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Gates can be found in 
the Appendix on page 77.]
    The Chairman. Thank you very much.
    General Pace.
    General Pace. Mr. Chairman and members of the committee, it 
is a privilege to represent your armed forces in front of you 
today. And I appreciate the opportunity to continue our 
dialogue.
    I would like to also thank you and the Congress for 
providing to your armed forces the resources we need to do the 
missions that you have given to us.
    I also want to publicly thank our troops, who are just 
simply magnificent in everything that they do and the way that 
they do it; and their families, who sacrifice and serve this 
country as well as anyone who has ever worn the uniform.
    Also, to the employers of our guard and reserve, we know 
that we cannot do our jobs without the guard and reserve. And 
therefore, we appreciate the quality individuals and recognize 
that that quality individual who is working with us has left a 
gap in some business some place in the United States. So our 
employers are to be thanked, publicly, for their support of the 
guard and reserve.
    As you look around the globe, it is hard to see where, in 
the near term, our commitments will diminish. You take a lap 
around the globe--you can start anyplace, Afghanistan, Iran, 
Iraq, Syria, Lebanon, Yemen, Somalia, Sudan, Venezuela, 
Colombia, Philippines, Malaysia, Indonesia, North Korea, back 
around to Pakistan, and I probably missed a few--there is no 
dearth of challenges out there for our armed forces.
    And, therefore, the increase in troops that is being 
requested in this budget will make a large difference in our 
ability to be prepared for unforeseen contingencies.
    We would also like to be able to increase the number of 
mid-grade officers and enlisted. Those are the ones who are the 
ones who are primarily doing the work of training other armies, 
training other police forces. And they come from our standing 
units. And when we do that, we decrease the readiness of those 
units.
    So if we can look at the grade structure of our armed 
forces, as we look at increasing the overall size, we will 
empower the mid-grade officers and enlisted to be able to do 
all that we have asked of them to do.
    I also think there are three areas where we need, 
collectively as a government, to look at today's authorities 
and determine whether or not they still best serve the Nation 
as we move forward.
    One is in the way that we are authorized to help train our 
partners around the world.
    Two is the expeditionary nature of our other government 
agencies. We have wonderful, dedicated, patriotic Americans in 
all of the departments of our government, yet some of the rules 
and regulations that currently exist make it difficult for them 
to get out around the world and do the missions that we as a 
Nation need them to do. And because of that, your armed forces 
sometimes fill gaps that are better served with some other 
agency.
    And then, third, I would say our interagency effectiveness. 
I am not saying we need a Goldwater-Nichols Act for the 
interagency, but I do think that the Goldwater-Nichols Act, 
over the last 20 years, has empowered our military in a way 
that we could not otherwise have been empowered, and that we 
should at least take a look at each of the pieces of that 
legislation and see what might well serve the Nation, if 
applied to the interagency here in Washington and around the 
globe, and make the adjustments needed so that we can better 
take advantage of all of the elements of national power.
    Mr. Chairman, again, thank you for the opportunity. I look 
forward to questions.
    [The prepared statement of General Pace can be found in the 
Appendix on page 88.]
    The Chairman. Thank you very much.
    Before I call on Mr. Marshall, let me make reference--and, 
General, you mentioned the Goldwater-Nichols Act, which 
originated in this committee in the late 1982s and 1983s; 
actually, from the Subcommittee on Investigations.
    In creating that, you are not only representing those folks 
in uniform, you are the principal military advisor to the 
secretary and to the President. And there is a further 
provision, which I mentioned in a recent letter to you, that we 
in Congress have the right to request your professional opinion 
or advice. And we thank you for that.
    So we go to the questioning now.
    Mr. Marshall, five minutes.
    Mr. Marshall. Thank you, Mr. Chairman.
    Mr. Secretary, as recently as a couple of years ago, the 
Administration and all of its representatives before this 
committee, argued that it was not necessary to expand the size 
of our conventional forces.
    Zarqawi, in a letter that we intercepted, written in early 
2004, said that from al Qaeda's perspective anyway, the 
Americans are no problem for us. They are targets. Eventually, 
they will figure it out and withdraw to their bases.
    There are a number who argue that part of the challenge for 
us, and a tactical mistake that we have made, is a large 
conventional presence in Iraq, and that the structure of the 
force should be very different; that conventional forces are 
not really capable of dealing with circumstances like this.
    All of the national security challenges that you described 
as justifying an increase in the size of the force, are 
challenges that we were aware of 2 years ago, 5 years ago, 10 
years ago; those sorts of things.
    So it seems that the increased size of the force is 
directly associated with operations principally in Iraq, and 
yet there are those who argue that the way we have gone about 
this with a large conventional force doesn't make a whole lot 
of sense.
    Assume they are correct. Assume that one of the lessons 
learned here is that we have to have a largely differently 
structured engagement for these kinds of challenges.
    Does it make sense under those circumstances to spend an 
awful lot of resources in expanding the conventional force?
    Secretary Gates. Mr. Marshall, I think that the--well, 
first of all, even before I came to this job, I had two 
concerns about our soldiers. One was that the size of the Army 
and the Marine Corps was not big enough to accommodate the 
multiple missions that they had been given over the past 12 
years or so. And the second was that we had changed the role of 
the National Guard, and were we treating the National Guard 
right. And I have tried to address both of those issues in 
decisions that I have either made or recommended to the 
President.
    I think that we need the full range of military 
capabilities. We need both the ability for regular force-on-
force conflicts, because we don't know what is going to develop 
in places like Russia and China, in North Korea, in Iran and 
elsewhere.
    We clearly need larger special forces--and an increase in 
the special forces is provided for in this budget--to deal with 
situations such as we are encountering in Afghanistan and in 
various other--in the Philippines and various other places 
around the world. So I think that we need the full range of 
these capabilities.
    Another aspect of it is, beginning from the time we sent 
troops to Bosnia--and we have troops deployed in so many 
different places around the world--one of the results of that, 
plus the war in Iraq, is that our active force is now down to a 
year at home and then a year deployed.
    We would prefer that that be--in fact, our policy is that 
it be a year deployed and two years at home; the same way with 
the guard: a year deployed and five years at home.
    Because the forces are stretched so thinly in a variety of 
places, including especially Iraq, we have had to break that 
commitment. And it is more one-to-one now for the regular 
force.
    And so I think that, for those reasons, we need the full 
range of capabilities. And I think that the increase in the 
size of the Army and the Marine Corps for those reasons is 
justified.
    But if you are willing, I would be happy to let General 
Pace offer a comment or two.
    Mr. Marshall. I am happy to have General Pace, of course, 
comment.
    I guess I am asking you to assume--what I hear you saying, 
Mr. Secretary, is that you came to the job believing that our 
conventional forces were too small for the multiple threats 
that we face and that you are not suggesting it is appropriate 
to increase the force because we want to be able to replicate 
the model that we have chosen to use with regard to Iraq.
    You are suggesting that it goes well beyond that?
    Secretary Gates. Yes, sir.
    Mr. Marshall. General Pace.
    General Pace. Sir, last year at this time, I testified that 
I thought we did not need to increase the size of the force, 
based on what we projected as the commitment in Iraq coming 
down by the end of the year.
    As you know, that did not happen. And around July, General 
Casey came in and said that he was going to need to retain at 
least 15 brigades, and maybe go higher.
    That caused us to go into a very thorough analysis, so that 
by December of this year we were recommending an increase in 
the size of the armed forces so that we could maintain--sir?
    The Chairman. Did you finish your sentence?
    General Pace. I did not, sir.
    The Chairman. Well, finish the sentence. [Laughter.]
    General Pace. So that we could maintain the current 
commitment, sir, and have the opportunity to train our 
remaining forces in the full spectrum of operations that we 
then might need in all the countries that I mentioned before, 
sir.
    Mr. Marshall. General, you could go ahead and just add a 
lot of ``and''----
    [Laughter.]
    The Chairman. Thank you very much, Mr. Marshall.
    Mark Udall.
    Excuse me. Pardon me, pardon me. Mr. Davis, on the other 
side.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    I appreciate General Pace's comments on the interagency 
effectiveness issue. I have seen first-hand on the ground, not 
only in Afghanistan and Iraq but also in the service at another 
time, challenges that we had in Grenada, in Panama, in Somalia, 
in Haiti, in Bosnia, that didn't get quite as much media 
attention because of the intensity of it, and certainly what we 
have in Iraq and Afghanistan now.
    And particularly when you mentioned the expeditionary 
nature of the other agencies, I think the personnel policies 
are not equipped statutorily to even support the nature of the 
types of missions that we are fighting.
    To the chairman's point, I am grateful that we are seeing a 
return to the small wars doctrine that the Marine Corps 
pioneered at the turn of the last century. But I would like to 
direct my question to the secretary.
    For several years your predecessor and General Pace have 
repeatedly testified on the very urgent need for bold 
interagency reforms, often referred to as an interagency 
version of the Goldwater-Nichols process.
    Reportedly, this interagency reform is one of the 
Pentagon's top four priorities. And as you know, the project on 
national security reform under the sponsorship of the Center 
for the Study of the President is seeking to advance the needed 
interagency reforms.
    I understand that the Pentagon was such an enthusiastic 
supporter of this effort that on December 1st, Deputy Secretary 
England agreed to provide significant financial and personnel 
support to the project.
    My question is this: Is the Pentagon providing the support 
to the project on national security reform that Secretary 
England promised? And if not, why not?
    Secretary Gates. My understanding, Mr. Davis, is that we 
are willing in principle to be supportive of this. But Gordon 
and I have discussed this, and we think, first of all, since it 
involves the interagency process, that it would probably be 
useful to have the other agencies involved and, above all, the 
White House.
    And so, we have not made a final decision to support the 
project financially, until we are satisfied that moving forward 
is something that the White House, the National Security 
Council staff, the National Security Council advisor, and other 
principal advisors to the President, the Cabinet secretaries, 
are onboard.
    It doesn't make much sense for the Defense Department 
solely to support a study on the interagency process, to the 
tune of a couple of million dollars. If nobody else in the rest 
of the government is prepared to participate, it, sort of, 
identifies the problem from the beginning.
    Mr. Davis of Kentucky. Well, I think DOD is facing a 
difficult paradox. You are either going to become the mega-
institution, handling all foreign policy, and take away--I 
think you get into a constitutional question of making your 
major commanders proconsuls, doing everything, or 
constitutionally we would be better off doing this.
    Somebody is going to have to take the lead. I know, 
personally, the secretary of state has told me that she 
supports the types of reforms and structures. I brought this up 
with the President personally.
    But I am curious that a policy advisor would object to 
something that would make their jobs easier.
    Secretary Gates. Well, I certainly have a lot of admiration 
for Ambassador Abshire and the center. In principle, I am very 
supportive of the project. And if other elements of the 
government--I am not even saying that they have to contribute 
significant dollars, I just want to make sure that everybody 
agrees that this is a good thing to go forward with.
    Mr. Davis of Kentucky. I have not questioned one panelist 
or in private discussions that I have found anybody who objects 
to this. And many folks--former secretaries of defense, policy 
advisors--have gone on the record in support of this as well.
    And I guess my question is, who do we need to bring in to 
explain to us why they don't want to spend the paltry amount of 
money that would probably save a lot of lives and make the 
efficiency of the military greatly improved?
    Secretary Gates. Well, I would have to tell you that I do 
have a small objection to the Pentagon being used as 
government's piggy bank, and particularly for things that are 
not related necessarily or strictly to our military mission.
    The bottom line is I am prepared to support it. I am 
prepared to provide the money for it. I want to make sure that 
the White House and everybody is on board for moving forward. I 
will do that.
    Mr. Davis of Kentucky. Who is the person at the White House 
that objects to this?
    Secretary Gates. I will make sure that the appropriate 
people are contacted.
    Mr. Davis of Kentucky. Hopefully you and I will have a 
chance to talk about this afterward.
    Right now, what I am seeing are numerous highly qualified 
combat arms officers who are running agricultural programs, 
trying to implement a banking system.
    You know, it is well-known that the reason that the Iraqi 
troops leave their units and go absent without leave (AWOL) is 
because they are paid in cash and they have to go home and take 
that money home.
    And this is, I think, significantly hampering our 
operational capability: a thousand small steps that would save, 
I think, billions of dollars at the end of the day in process 
improvements to the entire national security apparatus.
    And so, my encouragement to you. And I will support you. I 
think that this committee would support you in any way possible 
to make sure that we help you to overcome any potential 
objections.
    Personally, I think this would not only save lives, but a 
heck of a lot of money that could be reinvested in professional 
development or retention of our soldiers.
    Secretary Gates. Mr. Davis, all I can tell you is I spent 
nine years on the National Security Council staff under four 
Presidents. And if anybody understands the need for a better 
interagency process, I don't know who it would be.
    Mr. Davis of Kentucky. I am not objecting to your----
    Secretary Gates. No, I understand the need.
    Mr. Davis of Kentucky. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. We all remember the four years it took to 
create what we call Goldwater-Nichols. And an interagency 
parallel to that is, of course, a monumental task. But this 
committee is not unmindful of that challenge.
    But I appreciate your comments that you don't want to be 
the piggy bank for the entire effort, and we intend to inquire 
into that subject.
    Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    Good morning, General.
    Good morning, Secretary Gates.
    Let me start with the budget, and then I would like to turn 
to Iraq, since it is the subject on everybody's minds.
    Thanks for the attention in the budget to Colorado. You 
know it is the home of Space Command and NORAD, Northern 
Command, and soon the 4th Infantry Division (I.D.) is going to 
move to Colorado. So thank you for paying attention to the 
needs of the communities in Colorado.
    I also wanted to thank you for responding to the calls from 
the Hill for an increase in the end-strength for the Army. I 
know the Marine Corps has been added to the list.
    Congressman Marshall raised some good points about the need 
for a diverse focus and expanding the various doctrines that 
apply to all the threats that we face.
    And, of course, that brings us to the question of the 
special forces and how we increase their numbers. And it is a 
challenge, because it is about training people and bringing 
them up to speed; it is just not about equipment.
    But in that spirit, let me turn to the situation in Iraq. I 
think it is clear that all of us want to succeed. The President 
acknowledged that fact in a number of situations last week, 
including to the Democratic gathering down in Williamsburg.
    But there is a difference of opinion about how to proceed. 
And I think many of us differ with the President--Republicans 
and Democrats--because we believe the surge is more of the 
same. And we also think the American public spoke in November.
    And in a democracy, there is always tension between 
immediate passions and long-term strategic needs. But I have to 
tell you, I think in this case the American public both have 
the wisdom and the passion, and I think their wisdom is that we 
can't stand in the middle of a civil war.
    We can work to stabilize Iraq. I think that is the 
definition of success for many of us.
    And I am very interested in whether, Mr. Secretary, there 
is planning going on to prepare for potential contingencies.
    There have been a number of, I think, excellent pieces 
written and ideas circulated dealing with the question of 
whether we partition Iraq. There have been increasing 
discussions about the rise of a Shiite strongman, for example, 
or in the worst case, perhaps, some sort of anarchic 
fragmentation of power in the region that we call Iraq.
    Could you comment on planning that you may or may not have 
under way, Mr. Secretary? Particularly given that I think we 
all acknowledge that we poorly planned to win the peace after 
the initial invasion of Iraq.
    Secretary Gates. Mr. Udall, I would tell you, first of all, 
that we are certainly hoping that the Baghdad security plan 
will be successful. We are resourcing it to be successful. We 
are sending the troops forward as General Petraeus has asked, 
and as the Joint Chiefs have recommended.
    That said, I think that it would be irresponsible of me not 
to be looking at alternatives, should these expectations and 
hopes not prove to be fulfilled.
    And so, without getting into any details, I will simply say 
to you that I have asked that we begin to look at other 
contingencies and other alternatives.
    Mr. Udall. I am heartened to hear you share that with the 
committee, Mr. Secretary. And I know it is a delicate balance 
because, of course, in your position, you want to direct full 
support to the Iraqi government and to the men and women on the 
ground who are there today doing the marvelous work that 
General Pace outlined.
    General Pace, if I might, I would like to just ask you a 
question. One of my concerns has been that the 
counterinsurgency doctrine, when I study it, doesn't 
necessarily apply to a civil war situation.
    And I wonder if we haven't put General Petraeus in a 
difficult situation in regard to what we have asked him to do, 
when in fact we really are, if not in the middle of a civil 
war, in the middle of five very complicated wars, based on some 
of the experts' analysis of what is happening in Iraq.
    General Pace. Sir, we most definitely have given General 
Petraeus a very demanding mission and task. He picks it up from 
General Casey.
    And whether you apply a bumper sticker to the--whatever 
bumper sticker might be applied to the situation in Iraq, 
whether you argue for or against the words ``civil war,'' the 
fact of the matter is that there is a major problem right now 
that needs to be fixed.
    The Iraqi army and the Iraqi police are loyal to the 
central government. They are taking orders from the central 
government. So from my perspective, we are not in a civil war.
    But I think just having a debate about that particular word 
is not as important as where are we, where should we be, and 
how do we get from where we are to where we need to be?
    And that is the mission that we have been working on for 
the last four or five months. It is what General Casey and his 
team developed the response to, and it is what we have asked 
General Petraeus to take to fruition.
    Mr. Udall. I see my time is about to expire.
    Mr. Secretary, let me just also acknowledge the 
announcement today of the setting up of a separate African 
Command. Given the conversations many of us had with General 
Jones and others in the military leadership in the Pentagon, 
and the threats and the opportunities in Africa, I think that 
is an enormously important step, and that you are to be 
commended.
    Thank you for being here today.
    The Chairman. Thank you.
    The gentleman from New Jersey, Mr. Saxton.
    Mr. Saxton. Thank you very much, Mr. Chairman.
    General Pace, in your opening statement, you mentioned a 
long list of places around the world where U.S. troops--U.S. 
military personnel are deployed. And as I listened to that 
list, I thought of the nature of warfare as it changes, as it 
has evolved over the years, both in the type of conflict that 
we have fought and the intensity of the conflicts that we have 
fought throughout history, each conflict being different than 
the one before it.
    And so, I am wondering if you would just use my time, if 
you will, to discuss briefly with the committee, the nature and 
intensity of the threats that we face in the various regions of 
the world that you mentioned in your opening statement.
    General Pace. Sir, I thank you.
    General Krulak, who was the commandant of the Marine Corps 
several years ago, used the phrase, ``the three-block war,'' 
meaning in one block you could be doing peacekeeping, the next 
block doing peacemaking, and the next block being in full 
combat. And that pretty much applies to the globe as well as 
the streets of any particular city in Baghdad, for example.
    We have the opportunity on the low end, in a peacekeeping 
area, to impact our friends and partners right now who do not 
have the capacity to defend themselves or to provide the kinds 
of governance that are required.
    It is in that opportunity that the other elements of our 
government being able to deploy, being able to help those 
countries, provide for their citizens before they devolve into 
a situation where their citizens turn to terrorists or 
terrorist acts--that is opportunity number one.
    Opportunity number two is the peacemaking part. Arguably, 
places like Bosnia and Kosovo were originally in that capacity 
and it is where you must go in with military force, preferably 
coalition, and impose security so that good governance can take 
place.
    And then you always have the conventional type of conflict. 
And without predicting where, certainly the Korean Peninsula is 
still a place where conventional war could break out. We did 
not expect in 2001 to have to conduct conventional operations 
in Afghanistan, but we did.
    There are other countries out there that are gaining 
capacity. And when you look out at threats from a military 
perspective, you look at two parts: one, capacity, and the 
other is intent.
    We can gauge capacity. So we can watch, for example, China 
increasing its military capacity in very substantial ways. 
Today, I do not believe that they have the intent to go to war 
with us.
    But we need to be watching both capacity and potential 
intent across the globe to see who our potential peer 
competitors would be in the future and to make sure we stay 
ahead of their capacities.
    So in that entire spectrum, we need our armed forces to be 
prepared. And it is that basis that the chiefs have done our 
analysis of our readiness to conduct the national military 
strategy of the United States over the coming months and years. 
And it is based on that that we have made our classified 
analysis that was sent to Congress about two days ago that 
articulates where we believe we are and how we believe we 
should proceed to take care of some of the problems we see that 
are not yet fully taken care of.
    Mr. Saxton. Mr. Chairman, thank you very much.
    Thank you, General Pace.
    The Chairman. I thank the gentleman.
    Brad Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    I would like to echo the support for our troops, but also 
let you know that I live in southern Indiana. Crane Naval 
Warfare Center is in my district. And the people back home that 
work very hard on research and development, thousands are also 
patriots and working very hard to keep our troops safe and 
alive and doing their job. And so I think we owe them a lot of 
gratitude and thanks also.
    That being said, a couple of questions.
    Secretary Gates, yesterday I was reviewing some of the 
testimony between you and Senator Bayh on the other side. And 
he was asking about Iraq. And I want to quote you--we were 
talking about if the Iraqis fail to meet their commitments.
    And you said, ``First, obviously, we are going to try and 
persuade them to do what they promised to do. But then there is 
always the potential of withholding assistance or of changing 
our approach over there in terms of how we interact with that 
government. The success of this strategy is dependent entirely 
on the Iraqis' willingness to fulfill their commitments.''
    I don't want military secrets, but are the commitments and 
the benchmarks--have you set those yet? And if so, I would like 
to know if you can tell me what kind of assistance we might 
withhold, whether that is dollars, whether that is troops.
    And then has that been clearly laid out to the Iraqi 
government, what those commitments and withholding might be?
    Secretary Gates. First of all, Mr. Ellsworth, I think that 
we are in the process of developing what I refer to as a matrix 
or a checklist of our expectations of the Iraqi government and 
the Iraqi military. And some of those are items that we will be 
able to know fairly soon, within a couple of months, whether in 
fact they are meeting the commitments that they have made.
    And those, in particular, fall into the military arena, 
such as are there brigades showing up on time, what is the 
level of manning of the brigades that are showing up, are they 
interfering in operations depending on which sectarian group 
may be involved, are they allowing operations to take place in 
all neighborhoods, and so on.
    So some of those, I think, we will be able to have a read 
within a couple of months. I think that we have to give it a 
fair shot.
    And then there are those that have a little longer 
timeline: Are they committing part of the $10 billion? Are they 
actually spending part of the $10 billion that they have 
committed on economic reconstruction and development? In the 
political arena, are they addressing issues such as the 
hydrocarbon law and provincial elections and those kinds of 
things? And those play out over a little longer period of time.
    And what I have said--and it really fits in with the 
chairman's comment earlier about our readiness to provide 
briefings periodically here on the Hill--I think that part of 
an honest dialogue between ourselves and the Congress is to 
include in those briefings our reading of how we think they are 
doing, based on this checklist or this matrix.
    And for my part, I am not entirely in charge of the 
government; in fact, I may not even be entirely in charge of 
the Pentagon. But I think that, all kidding aside, that my 
recommendation would be that we share this information with the 
Congress. We are all in this together and I think an honest 
evaluation of how the Iraqis are doing is very important.
    I think that the Iraqis have a very good understanding, at 
this point, that their participation in this role and their 
role in this activity is critical to its success, and that if 
they do not fulfill their commitments, that the United States, 
as you quoted me as saying, is going to have to look at other 
alternatives and consequences.
    And as General Petraeus said in an exchange with Senator 
Levin during his confirmation hearing, that not only could 
include withholding financial assistance and other kinds of 
things, but also withholding forces.
    Mr. Ellsworth. Thank you.
    I will try to get this one in. Moving to the budget a bit, 
the request for fiscal year 2008, the $141.7 billion, was $20 
billion less than the 2007. And with the surge and equipment, 
can you explain how we came to that we can ask for $20 billion 
less in 2008 than 2007? That was my question.
    The Chairman. The gentleman from New York, Mr. McHugh.
    Mr. McHugh. Thank you very much, Mr. Chairman.
    Gentlemen, welcome. As always, thank you for what you do.
    Mr. Secretary, I appreciate your comments about your 
interest in providing forthright, candid, honest testimony.
    And I know that our full committee chairman's comments 
about General Pace's structure under Goldwater-Nichols and the 
opportunity we have to ask for the advice of the chairman of 
the Joint Chiefs.
    Gentlemen, I would like your honest, forthright, candid 
advice to this committee, as we are beginning, as the Senate is 
now, to consider nonbinding resolutions that express concerns 
and lack of support for the surge mission, how that might be 
received by the troops in the field.
    General Pace. Sir, I will start. There is no doubt in my 
mind that the dialogue here in Washington strengthens our 
democracy, period.
    There is also no doubt in my mind that, just like we look 
out to our potential enemies to see division in their ranks and 
take comfort from division in their ranks, that others who 
don't have a clue how democracy works, who are our enemies, 
would seek to take comfort from their misunderstanding of the 
dialogue in this country.
    From the standpoint of the troops, I believe that they 
understand how our legislature works and that they understand 
that there is going to be this kind of debate.
    But they are going to be looking to see whether or not they 
are supported in the realm of mission given and resources 
provided. As long as this Congress continues to do what it has 
done, which is to provide the resources for the mission, the 
dialogue will be the dialogue, and the troops will feel 
supported.
    The other very important part that is very different than 
it was during Vietnam is that, despite our own citizens' 
beliefs for or against, when our troops come home, their fellow 
citizens welcome them home and thank them for their service.
    So those two things--the belief that our fellow citizens 
appreciate what we do, even if they don't agree with what we 
have been asked to do, and Congress's continuing funding--are 
the two things that I believe we look to as military folks to 
know that we are being supported.
    Mr. McHugh. Mr. Secretary.
    Secretary Gates. One thing that I would add to that is that 
I think that--you know, I have no documentation for this, but I 
have made two trips to the field, to Afghanistan and Iraq, in 
my first six weeks in office. And I would tell you that I think 
that our troops do understand that everybody involved in this 
debate is looking to do the right thing for our country and for 
our troops, and that everybody is looking for the best way to 
avoid an outcome that leaves Iraq in chaos.
    And I think they are sophisticated enough to understand 
that that is what the debate is really about. It is about the 
path forward in Iraq.
    We are where we are. There is relatively little agreement 
about the consequences should we leave precipitously or should 
we leave Iraq in chaos. And the question is: What is the best 
path forward for America?
    And I think they understand that that debate is being 
carried on by patriotic people who care about them and who care 
about their mission. So that is how I see it.
    I think, you know, as General Pace indicated, it is a 
truism from the beginning of time and the time the first 
Neanderthal picked up a club, you try to see whether your 
enemies are divided or not.
    All I would say is that history is littered with examples 
of people who underestimated robust debate in Washington, D.C., 
for weakness on the part of America. And I think a lot of 
people understand that as well.
    Mr. McHugh. Thank you, gentlemen.
    I am going to use my remaining time to make a statement 
with respect to the actual budget proposal. I don't know if the 
chairman of the Personnel Subcommittee, my chairman, will have 
a chance to get to it, so I will submit it for the record for a 
response.
    But I note you have imputed into your budget about $2.1 
billion in savings that are going to be predicated upon 
supposedly the task force on military health care that is 
deliberating now.
    To my knowledge, yesterday was the first day they were 
informed that they were expected to have those savings. So I 
would be interested to hear your response on those in writing.
    Thank you, gentlemen.
    Thank you, Mr. Chairman.
    [The information referred to can be found in the Appendix 
beginning on page 125.]
    The Chairman. I thank the gentleman.
    The gentlelady from Kansas, Nancy Boyda.
    Mrs. Boyda. Thank you, Chairman Skelton.
    Again, I have the honor of representing Fort Riley and Fort 
Leavenworth. And it is an honor. During my campaign, I had a 
great deal of support--we have a lot of retired people, retired 
military in Leavenworth; it is a great place to retire--an 
inordinate amount of support came out.
    I never asked their politics. I still to this day don't 
know their politics--many enlisted, many officers, right on up 
to the general level. And I came to understand that their main 
concern and their main support for me, although many things 
went unstated, was their deep, deep love for this military that 
they had spent their lives putting together and their deep 
concern that it was heading in a direction that would, in fact, 
alter our ability to be ready.
    So my question comes back to, kind of, a question that I 
have been having here, and that has to do with readiness.
    Let me read this: Recently, the chief of staff of the Army, 
General Schoomaker, appeared before this committee to discuss 
readiness issues. During that hearing, the general indicated 
that the problems with the Army readiness that he had talked 
about last summer had not improved.
    I understand that combat units not deployed to Iraq are 
experiencing shortages of equipment which are affecting 
training and readiness, certainly at Fort Riley.
    These shortfalls translate into a reduced capability for 
our Army to deploy to a new crisis. And I, like others, am 
concerned that this presents a strategic risk for our country.
    To borrow Mr. Skelton's question: General or Secretary 
Gates, are you comfortable with the readiness posture of Army 
units in the continental United States?
    General Pace. No, ma'am, I am not. There are two things 
that need to be focused on.
    One is equipment. As you know, about 40 percent of our 
equipment is either currently in combat zone or being repaired. 
That leaves the units that are home with less than a full 
complement of equipment. And it means that in some cases, where 
we have our best vehicles, like the manufactured up-armored 
Humvees that are all forward-deployed, that the troops who are 
training to go train in normal Humvees instead of up-armored 
Humvees. You can overcome that kind of training.
    But I am satisfied with respect to the budget that if 
Congress approves the budget as submitted, that the money that 
is in both the supplementals and in the base budget will, in 
fact, address the equipment part of the readiness.
    The other piece is time to train. And that is, with one 
year out and one year back, during the time that they are back, 
after they take a little bit of leave and get to know their 
family, the troops are being retrained for the mission to go 
back into Iraq and Afghanistan.
    And instead of having the two years at home that we would 
like them to have and have that time available to train to both 
the mission they are going to go to, but also the unexpected 
missions of combined arms operations and the like, we are not 
able to train them fully to the missions that they may have to 
go to in addition to being able to train them for the mission 
they are going to.
    So when you say, am I comfortable, no, ma'am, I am not 
comfortable.
    Mrs. Boyda. I understand, which gets, then, back to the 
question of this escalation that we are heading into and what 
are the long-term and, perhaps, the short-term consequences of 
that. It is getting back into that area as well.
    And when we talked a little earlier about deploying 
reservists and about our Combat Support Service (CSS) units, 
the answer that I received there was: When we put these 21,000 
troops, again, on the field, that we would not expect to have 
to have additional Combat Support Service units.
    And I just, again, ask the question: Will more combat 
support units be necessary?
    It certainly seems that they will be necessary for medical, 
for logistics, for all of the upper tier that we have to 
support them.
    And I would appreciate a little bit more of a direct answer 
on, with the 21,000 troops, we are still expected to need more 
combat support?
    General Pace. Ma'am, we will need a little bit more combat 
support, probably in the 10 percent to 15 percent range, 2,000 
to 2,500, 3,000 additional troops. Those 21,000 will fall in on 
a vast infrastructure that, for the most part, will be able to 
absorb the extra capacity that is required.
    The brigades themselves, when they deploy, have, integral 
to them, combat support and combat service support. But there 
are things like unarmed aerial vehicles, military police, some 
maintenance that will require to be plussed up.
    The estimate, right now, is that that will be in about the 
2,000 to 2,500 range.
    Mrs. Boyda. All right. Thank you so much.
    General Pace. Yes, ma'am.
    The Chairman. Mr. Bartlett.
    Mr. Bartlett. Thank you. Recognizing that many hearings end 
before our junior members have a chance to ask their questions, 
unless I have a question that I think might change the course 
of history, I usually yield my time to a junior member. 
[Laughter.]
    It is my privilege today to yield my time to our most 
junior member, Mr. Conaway, who is a very faithful attendee at 
these hearings.
    Mr. Conaway. Well, I thank my colleague for----
    The Chairman. Let me interrupt right now. I want to ask 
those who are standing in the front of other people that they 
please be seated so that the people behind you can see as well 
as listen to the proceedings. Thank you very much. Thank you.
    I appreciate it. Thank you so much. Thank you. Thank you 
very much.
    Okay, now, please proceed.
    Mr. Conaway. Thank you, Mr. Chairman. And I appreciate my 
good colleague setting the bar at a world-changing question 
level for me.
    Most of the questioning today will focus on the war and the 
battle that we are currently fighting. I want to draw some 
attention to the more mundane.
    Given my professional background, I have a keen 
appreciation for good financial statements and good financial 
reporting. And I would like Secretary Gates and, maybe, Ms. 
Jonas to speak to us today about how we are going to convert 
$481.4 billion into the various missions that we want.
    I mean, that is a staggering amount of money in any scale. 
I dare say that most Americans never even say that much money, 
let along try to think about it.
    I was on a plane last night, coming back from Texas, with a 
young man who is recovering from his injuries sustained when 
his Humvee was blown up under him in September and he was 
ejected out the turret. This young man wants back in the fight. 
He wants to get his body healed and get back at it.
    And so what I want to know is, you know, we have got $116 
billion, $164 billion for O&M, making sure that not only do 
have the big picture, but that we are converting those dollars 
into whatever that young man and his family needs, and all the 
others like him, who are in this service, who General Pace 
talked about, are so magnificent. And they really are.
    Your commitment, as a new secretary, to getting the DOD to 
a point where the financial statements are auditable--maybe not 
where the point that you and Ms. Jonas sign them with the same 
risks that a chief executive officer (CEO) of a major 
corporations signs financial statements, but at least a 
direction so that we know that the $481 billion is being spent 
the way you intended and the way Congress intended.
    So if you could talk to us about your commitment to the 
financial reporting of DOD.
    Secretary Gates. Let me offer a couple of general thoughts 
and then ask Ms. Jonas to comment.
    We have talked a lot about the men and women in uniform. 
And we certainly all applaud their service. There are also a 
very large number of civilians in the Department of Defense who 
dedicate their lives to doing exactly what you have just 
suggested, and that is how do we get the right things in the 
right hands of the right people at the right time.
    And there will always be a newspaper story about where we 
fell down on the job. When you have the world's largest and 
most complex enterprise, that is inevitably going to happen.
    But there are people who spend very long days trying to 
make sure that--that they do everything they can to prevent 
waste, fraud and abuse, but more importantly--and to your 
point--to make sure that the right things get bought and put in 
the hands of the people who can use them in the best possible 
way.
    I am committed to that. I served on some corporate boards 
before coming here. I am glad I don't have to sign a financial 
statement for the Department of Defense. But I do have to sign 
one for the comptroller of the currency about how much we 
spend, and I am not looking forward to that either, because the 
number is going to be a lot bigger than when I was Director of 
Central Intelligence (DCI).
    But I think that what so many of these civilians, as well 
as some of our senior--as well as our senior military 
leadership who are assigned to the Pentagon, really feel the 
personal responsibility is that every day they are not just 
dealing with numbers, they are not just dealing with contracts 
and so on, they are dealing with the tools that will be used by 
our men and women in uniform. And I think that there is a moral 
commitment on their part in that respect that may be missing in 
a lot of businesses.
    And I think they really devote their all and I commit to 
devoting my all to making what you suggest happen.
    Ms. Jonas. Mr. Conaway, thank you for the question.
    As you may know, we are working very hard. We have a 
comprehensive, department-wide program called the Financial 
Improvement and Audit Readiness Program.
    And we are taking the balance sheet of the Department. And 
we have, so far, been able to get a clean opinion on certain 
line items in our assets. We have got about 15 percent of our 
assets, about $215 billion, that are auditable; and about $967 
billion of our liability, so about 49 percent.
    So we are making progress. And one thing that this 
committee has helped with, and others, is getting additional 
CPAs for the department. So we appreciate that. That has been 
an enormous help.
    Mr. Conaway. Well, I appreciate the commitment from the top 
because that filters all the way down to whoever is responsible 
for taking care of that young man last night. And I know the 
commitment is there, but I want to make sure that you hear it, 
while we talk about all the other things that go on.
    And I also appreciate the service of all the civilians of 
the DOD. I know each one of them come to work every day, 
committed to doing the best job they can.
    And none of this benefit from those occasional stories in 
the newspaper about the $600 hammer or whatever it is that 
might occasionally get--I thank my colleague, Mr. Bartlett, for 
letting me have this time.
    The Chairman. I thank the gentleman.
    The gentleman from Pennsylvania, Patrick Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    Ms. Jonas and General and Mr. Secretary, thank you for 
being here today. We do appreciate it.
    Mr. Secretary, I know you left the last time before the 
rookies here in the front row got to ask you some questions.
    And before I start, I just wanted to let you know I am 
actually an Iraq war veteran. I was part of the 2nd Brigade of 
the 82nd Airborne Division.
    You fast-forward--you know, you go back four years ago, we 
were part of the invasion force over there. And I want you to 
know that the best company commander that we had in Baghdad was 
a Captain Tyson Vogel, who was a Texas A&M graduate. So you 
should be really proud of that institution, sir.
    I know a lot of us are talking about the budget, and I 
think it is important that we talk about the President's 
proposed escalation of troops, which has begun actually by my 
unit that is already on the ground in Al Rasheed, Baghdad, 
right now.
    But you look back four years ago, Mr. Secretary, and 
General Petraeus back then said during the initial march into 
Baghdad, ``Tell me how this ends.''
    So I pose the same question that he asked to you, Mr. 
Secretary, today: Tell me how this ends in Iraq.
    Secretary Gates. Well, sir, my hope is that it will--well, 
first of all, I think that things don't come to an abrupt end.
    But I think what we hope will happen is that over the 
course of the coming months we will see the government in 
Baghdad be successful and beginning in lowering the level of 
violence in Baghdad, that they will, in fact, carry out and 
enact the legislation with respect to national reconciliation, 
and that they will, in fact, spend the money on economic 
reconstruction that they have pledged.
    In that event, it seems to me that if that were to all 
develop over the course of the next months, that in the latter 
part of this year we could begin drawing down American troops 
in Iraq.
    That is essentially the best-case story. And that is our 
hope. That is what we are trying to effect with what we are 
doing. And as I mentioned to an earlier questioner, I don't 
think that I would be responsible in basing my thinking about 
the future purely on my hopes.
    And so I think I have a responsibility to look at what some 
of the alternatives are, and at the appropriate time share 
those with others in the government.
    Mr. Murphy. I think that what everyone--and I don't want to 
speak for everyone here, but we are all trying to wrap our arms 
around what is going on over there. And I think it is hard when 
we sit here, and, you know, the American public, if you asked 
them about the surge, they would say, 21,000 troops.
    But, you know, you look at what Ms. Boyda just said, and 
all of us know that there are going to be some elements, a 
couple thousand, at least a few thousand, of several combat 
support troops that are needed.
    So really it is not 21,000; it is probably 28,000, 29,000, 
at least, when we look over there.
    But, you know, in the Stars and Stripes newspaper, which, 
you know, they get over there, I know the one headline was 
``Top Generals Tell Congress Surge Won't End Soon.'' And so, 
you know, when you mentioned the hopes and dreams, you don't 
want to base everything on that.
    But you look at, okay, we do secure Baghdad; say that does 
work out. But then, what is next? I mean, what is after that? 
Is it Tikrit? Is it Kirkuk? Mosul? I mean, are there other 
surges planned in Iraq that will obviously take more than just 
a few months?
    Audience Member. Americans want a peace plan. Stop the 
fighting----
    Secretary Gates. There is clearly no----
    Audience Member. Americans want peace.
    Secretary Gates. There is clearly no intention----
    The Chairman. The chair notes there is a disturbance in the 
committee proceedings. The committee will be in order.
    I formally request that those in the audience causing any 
disruption cease, never to resume it.
    Please proceed.
    Secretary Gates. I am not aware of any indication of surges 
being planned anywhere else in Iraq. The hope is that by 
lowering the level of violence in Baghdad, we will, in effect, 
the Iraqis, because they are in the lead on this with our 
support, by lowering that violence will create the political 
space in which some of these other activities, the political 
and the economic can take place.
    The assumption is that you can't be successful in Iraq if 
Baghdad is out of control. On the other hand, if you get 
Baghdad under control, and especially if the Iraqis play the 
role that they must in making that happen, then their own 
capabilities to be able to deal with the situation in some of 
these other towns will be significantly enhanced.
    Mr. Murphy. Thank you, Mr. Secretary. Appreciate it.
    Thank you.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Secretary, I listened carefully to your exchange 
earlier with Mr. Davis about the interagency process. And I 
hesitate to go over the same ground--except since in early days 
of our involvement in Iraq and Afghanistan, I have personally 
heard frustration from the Pentagon, from the commanders on the 
ground, from ordinary soldiers and Marines that we were not 
bringing the full array of national assets to bear in those 
struggles for a variety of reasons, a number of which General 
Pace mentioned in his opening statement.
    And I am concerned, as I suspect others are, that not only 
does it hurt the military--because we are asking them to do 
everything, but that there is no way we can be successful in 
the long term in what we are calling the global war against 
terrorism without bringing the full array of national power.
    I understand it is not just a DOD issue. But on the other 
hand, if you don't cry ``Uncle,'' and say, ``This has to 
fixed''--it is, obviously, not going to be fixed in this 
Administration; it is going to be a longer-term thing. But if 
you and others don't say, ``This is imperative to be fixed,'' 
then it is not going to get the attention it needs.
    And it is not only in the Administration, but in Congress. 
I mean, we are, at least, a good part of the problem.
    And as a subset of that, I want to ask you both, 
essentially: Are you satisfied with our government planning and 
strategy in the wider global war against terrorists?
    And I should say that I am one of those crossover members 
on the Intelligence Committee. I have some understanding of 
what happens at National Counterterrorism Center. Chairman 
Smith and I have recently been to Tampa and talked to Special 
Operations Command (SOCOM) and have some understanding about 
what they do.
    But what I really would like from each of you is: Are you 
satisfied that at least at a planning level, our government is 
able to lay out the strategy for the long-term in how we defeat 
or succeed in this global war against terrorists?
    Secretary Gates. I can only give you a preliminary view at 
this point because I am so new. But I will tell you that first 
of all, I am significantly impressed by the difference and the 
level of coordination and the level of collaboration in the 
government, relating to the war on terrorism, compared to what 
I saw in the government dealing with the Soviet Union and 
various world problems at the time I left in 1993.
    So there has been significant progress. A week ago last 
Monday, I was at NORTHCOM, Northern Command, and went through 
with them their planning, in coordination with a variety of 
other elements of government in dealing with a variety of 
domestic challenges; everything from hurricanes to avian flu 
and everything else.
    And the presence in those commands of representatives from 
other parts of the government was impressive. The level of 
planning and integrated planning that I saw there and the input 
of other departments was impressive.
    I have seen the same thing--I met with the leadership of 
the Department of Homeland Security and the degree of 
coordination that has gotten under way there. Is it perfect? 
Absolutely not. But it seems to me it is better than I expected 
it would be.
    So I would say that the whole thing is a work in progress, 
but I would say also that there has been significant progress 
over the last several years.
    I think that this whole concept of doing something in terms 
of whether it is a civil reserve corps, such as the President 
has called for, or some other changes, has a lot of promise.
    And I think actually the interest of the Congress that I 
have seen in both houses and the interest on the part of the 
President maybe does give us an opportunity to try and do 
something to fix this problem structurally so that five years 
from now we don't have challenges in standing up provincial 
reconstruction teams and things like that.
    General.
    General Pace. Sir, with the nine seconds left, we have had 
significant progress, but we do need better understanding. We 
need to have individuals, in uniform and out, who have had a 
chance to serve in other agencies, who have been able to get 
the understanding of what is possible.
    The current system is being used, I believe, as effectively 
as possible, but I think the current system is not the system 
we need to get to the future.
    The Chairman. Thank you.
    The gentlelady from New Hampshire, Carol Shea-Porter.
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    And thank you for being here.
    I want to tell all of you that I truly love the military. I 
was a military spouse. My husband was born in Heidelberg, 
Germany. His mother served DOD schools for 30 years and his 
father served the Army.
    That really has nothing to do with the discussion that we 
are having today. I think that we all understand that we love 
our country.
    However, polls are showing that the majority of the 
American people do not understand what our mission is anymore 
and would like us to leave.
    And so I do not think that the message is fractured in this 
country. I think it is actually pretty clear with the people.
    Now, soldiers need to know that we support the mission. But 
they also need to know if this mission is in the best interests 
of the United States of America. And so, I think that is what 
we have to understand when we talk about this.
    We are talking about a great deal of money and a great deal 
of resources here. This reduces other needs for our country, 
such as shipbuilding. I am concerned about the nuclear navy 
that China is building. I am concerned about other areas in the 
world, some of which you mentioned, that are under strain and 
we could fall into conflict with them.
    So I am addressing this strictly as what is best for our 
country. And I wanted to talk a minute about Iraq.
    After we have spent four years in Iraq, I heard you, 
Secretary Gates, say that one of the questions we are going to 
have to ask the Iraqis is are the brigades showing up on time?
    Now, four years later, after listening, over and over 
again, about how we had trained this Iraqi military and how we 
have everybody in order and we had the support, that is such an 
elementary question, that I just have to ask you: Why is that a 
question now? And if we have to worry about them showing up on 
time, what makes you think that we have any chance of having 
this escalation succeed and that we will get the political 
support there?
    Secretary Gates. Well, first of all, I think it is 
important to appreciate that we and the Iraqis have been in the 
process of creating an army from scratch. And if you look back 
earlier in our history, there were more than a few instances 
when units didn't show up.
    The key here is the discipline of the soldiers, the 
training of the soldiers and the quality of their leadership.
    And I merely use that as an example of the checklist that 
we will be using in terms of whether they are fulfilling their 
commitments.
    So far, so good: The brigades that were told to show up 
have shown up. One brigade showed up, had 55 percent or 60 
percent of its people. I said last Friday in a press conference 
that wasn't good enough. General Casey tells me that 25 percent 
of those people were on leave, to take their pay back to their 
families.
    So the point is, we have created something with the Iraqis 
here that has not existed before in Iraq. And we need to 
evaluate it as we go along, to see if they are fulfilling their 
commitments.
    That was really the only point about mentioning the 
brigade.
    Ms. Shea-Porter. I understand that. But we are talking four 
years later. And that seems like a basic building block that we 
could have, after all this money, have achieved that. I suspect 
that we have not won the hearts and minds of the Iraqi people. 
Sixty-one percent of them said it was okay to kill an American. 
This is a pretty critical issue here. We have not won the peace 
there.
    And I would like to suggest that the mission creep has been 
very, very upsetting to not only the American people, but also 
to the military and to the people in Iraq, who, by majority 
poll, say they would like us to leave, and that we are now 
looking at the Shia-Sunni conflict which has a lot of trauma 
for the people there.
    And I also want to ask you--and I asked last week of 
another general--what percentage of the uprising and the 
trouble in Baghdad and in Iraq is actually caused by outside 
forces like al Qaeda? And what percentage is caused by the 
Shia-Sunni conflict or other internal problems like criminals?
    Secretary Gates. Very quickly, I think there are four wars 
going on in Iraq right now: Shia-on-Shia in the south, 
sectarian violence principally in Baghdad, a Baathist 
insurgency and al Qaeda in Iraq. There are some foreign 
fighters, but they are not the principal source of the problem.
    Al Qaeda in Iraq may not commit the majority of major 
attacks, but they and the insurgents commit the majority of the 
biggest attacks. They were the ones that were responsible for 
the Samarra Mosque bombing and so on. And so they stoke this 
violence.
    There is a method behind all of this. It isn't just random 
people going out in gangs of people going out and shooting each 
other. There is a strategy here. And it is to stoke this 
sectarian violence so that this entire effort does fail. And 
that is caused principally by al Qaeda and by the insurgency.
    Ms. Shea-Porter. But what percentage would you say is al 
Qaeda in Iraq and in Baghdad?
    Secretary Gates. In terms of a specific percentage, I would 
have to get that----
    [The information referred to can be found in the Appendix 
beginning on page 133.]
    Ms. Shea-Porter. Okay. I have heard three to seven percent.
    And the reason I am asking these questions is because I am 
concerned about Afghanistan. I have been listening and hearing 
some testimony on Afghanistan where we are losing that battle 
and that fight. We went there because that is where the root of 
terrorism was.
    Thank you.
    The Chairman. Mr. Jones from North Carolina.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, Mr. Gates, I want to say welcome. I do believe that 
you bring something that the former defense secretary did not 
bring to this committee and that is honesty and integrity. And 
I want to thank you for that, sir.
    Recently, Paul Pillar, who spent 31 years in the CIA, wrote 
an editorial for The Washington Post. And it says, ``What to 
Ask Before the Next War.'' Subtitle: ``Do Not Let the People 
Who Brought Us Iraq Define the Question.''
    While the previous secretary of defense had established the 
OSI, the Office of Strategic Influence, and the purpose was 
that this Office of Strategic Influence was to advise him on 
the justification, based on the intelligence, that would get us 
into Iraq.
    This is the statement after the media exposed this office, 
and I quote the former secretary: ``And then there was this 
Office of Strategic Influence. You may recall that. And oh my 
goodness, gracious, isn't that terrible? Henny Penny, the sky 
is going to fall. I went down the next day and said, 'Fine, if 
you want to salvage this thing, I will give you the corpse. 
There is the name. You can have the name, but I am going to 
keep doing every single thing that needs to be done,' and I 
have.''
    Before I get to the question--and again, I complimented you 
and I trust you--but I found out after we went into Iraq that 
certain entities, primarily Douglas Feith and people like this, 
since the 1990's, wanted this country to go in and remove 
Saddam Hussein, who was an evil man, no question about it. But 
I found out that the intelligence--and it had been pretty much 
verified--had been manipulated as it came to Members of 
Congress to sell us on going to war.
    I started writing every family in America that lost a loved 
one. I don't tell you this to impress you. I am saddened. Every 
Saturday I go home, I spend three and four hours in the office. 
Counting extended families, I have sent over 6,000 letters to 
families in this country.
    It happens to be a two-page letter that on the second page 
is a quote I found that Roosevelt--President Roosevelt sent to 
families in World War II. So it requires me to sign two pages. 
So I have signed, total pages, 6,000 letters and over 12,000 
pages in 3 years.
    Because I don't have the military background--and I realize 
we must have a strong military to defend this country and the 
freedom that we enjoy. But there is something I found out from 
Rudyard Kipling about two years ago. He was very pro-war in 
England until his son was killed. And his writings from the 
``Epitaph of War''--and this applies to me, sir, not to you. 
Kipling says, ``If any questioned why we died, tell them 
`Because our fathers lied.' ''
    And I keep hearing this drumbeat, ``Iran, Iran, Iran.'' I 
want to say, sir, to you, that I hope that you will say to this 
Congress, to this Administration that there is a Constitution, 
and the Constitution demands that we, the Congress, send our 
men and women to die for this country.
    And I will never vote for any resolution, Democrat or 
Republican, as long as I am here, that does not come to this 
Congress and ask for a declaration of war. Because we have 
abdicated our constitutional responsibilities.
    [Applause.]
    And this failed policy in Iraq, it breaks my heart.
    So, sir, I don't really have a question but this: Thank you 
and General Pace for what you said about debate and dissent. We 
will support the troops because that allows us the freedom to 
debate here in Congress the policy.
    Sir, I wish you well. I wish our men and women well. And I 
ask God to continue to bless America.
    Thank you.
    The Chairman. Thank the gentleman.
    Joe Courtney from Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman.
    And I want to thank the witnesses for their testimony.
    Mr. Skelton, at the outset, stated what the mission of this 
committee is, which is readiness is the job of this committee, 
and we cannot neglect the future.
    And having before us a budget of $716 billion, it is hard 
to imagine that there is any contingency that is not protected 
or covered by a sum of that magnitude. But I want to ask some 
questions about the fact that the shipbuilding component of 
this budget is still, I think, a concern.
    General, you briefly alluded to the fact that the Chinese 
navy is building up its size. In fact, they are building two-
and-a-half submarines a year at the present clip that they are 
on.
    This budget that we have before us still maintains a one-
submarine-a-year building schedule. Based on the projections 
that us up in Groton, Connecticut, know, that actually is going 
to result in a submarine fleet from 2020 to 2033 of less than 
48 submarines. And it really is just a question of simple math 
to understand that the size of our fleet is going to be 
significantly smaller than the Chinese navy.
    And to me the fact that in the context of a budget this big 
we are watching the decline of the size of our Navy fleet to me 
is almost emblematic about how this war is not only affecting 
domestic priorities, but also eating the seed corn, as Mr. 
Skelton said in his opening comments.
    So I would just like to ask you to please comment maybe a 
little bit more about what you see happening in the Pacific 
right now in terms of our long-term strategic needs and the 
what I would describe as disturbing decline of the size of our 
Navy fleet.
    General Pace. Sir, the budget, I think, has--no, I don't 
think, I know has eight ships in it, to include one submarine. 
As you point out, thanks to the great folks in Groton, 
Connecticut, they are the finest in the world, and that is why 
we are able to have great comfort in our quality over other 
people's numbers.
    But as you have also inferred, there is a quality to 
quantity all of its own. And we are watching very carefully the 
size of the submarine fleet over time, and the Navy does have a 
plan in future years to ask for more than one sub.
    There is a date for that. I don't have it in my head. We 
can get that for you.
    Mr. Courtney. I can tell you.
    General Pace. Sir.
    Mr. Courtney. 2012.
    General Pace. Thank you, sir.
    Mr. Courtney. And that is actually a question I would like 
maybe you just to follow up in writing, just to verify if that 
is still the plan.
    General Pace. I will, sir.
    [The information referred to can be found in the Appendix 
beginning on page 133.]
    Second, again, without regard to intent--because I do not 
believe that China intends in the near future to be going to 
war with the United States, we still need to watch what they 
are doing. Their recent anti-satellite test is of great 
concern.
    The building of an aircraft carrier, their submarine 
operations out of what are normally their operating areas, and 
things like that, are things that we should properly pay 
attention to, assess our ability to respond should their intent 
change, and ensure that in our budgets we request the resources 
needed to ensure that we can prevail.
    This budget ensures that we can continue to prevail against 
the foreseeable challenges over the next four to five years 
that we see. But we do have to pay close attention while we are 
focused on the global war on terror that we not let a potential 
conventional threat rise that we did not foresee or prepare 
for.
    And that is why the budget is balanced. And that is why the 
number is, as you pointed out, large, so that we can ensure 
that we are ready for the full spectrum of operations--those 
that we are involved in and those that we may need to become 
involved in, regardless of the adversary.
    Mr. Courtney. I would just like to add, though, that this 
building schedule is cutting into the workforce in Groton. I 
mean, if we maintain the one sub a year through 2012, we are 
going to continue to see a workforce that is getting older and 
smaller.
    And I certainly intend to work very hard with the Navy to 
try and see if there are ways that we can accelerate that 
production so we don't--not only, I think, have an impact on 
the size of our fleet, but also damage this very specialized 
workforce that cannot be just sort of replaced with the snap of 
the fingers.
    The Chairman. I thank the gentleman.
    The gentleman from North Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    Gentlemen, Secretary Gates, thanks for coming, General 
Pace.
    A couple of quick things, questions. I was at Fort Bragg 
Sunday night, had dinner with a number of troops, their wives, 
their children.
    Terribly destructive to see this Congress divided about 
where we are going. We did the right thing. But every Marine is 
a rifleman. Every Marine can't be the chairman of the Joint 
Chiefs. It hurts the people in the field to see this, the 
division.
    On the other side of the Hill, there is a certain senator 
from New York who is waiting to use the momentum that he thinks 
is going to develop from this resolution debate to de-fund the 
troops. We don't need to do that.
    In a moment, I would like for you to answer the question--
it is somewhat hypothetical--what is the cost of losing? What 
are the consequences?
    These are the questions that ought to be included in this 
debate: the cost of losing; the future of this country. Based 
on our past, we can't afford to lose.
    Someone asked, what does the end look like? Well, to me, it 
looks like victory. It looks like a military, diplomatic, 
intelligence, and security of the national interests--a 
victory. That is what it looks like.
    And, again, one thing the troops appreciate is the ability 
of people to come to Washington and express themselves. It is 
very healthy. It is good, and they like to see that.
    But this Congress made a decision to go to war to remove a 
brutal dictator that killed hundreds of thousands of people. 
And given additional weapons, well, who knows.
    But anyway, again, I hope you all will be a little less 
politically correct, maybe--and that is my opinion--and a 
little bit stronger in terms of where is this debate going to 
go and are we going to literally, by maintaining the funding, 
keep this up and let the troops win this victory which they are 
winning.
    Question on the budget: You brought forth a budget that 
restores some horrible cuts that were inflicted upon the 
military by a recent continuing resolution (C.R.) I speak 
colloquially because Fort Bragg is of special interest to Pope 
Air Force Base. We lost child-care centers. We lost schools. We 
lost counseling for soldiers and families. There are footings 
for barracks that are badly needed for an additional 92,000 
troops--not, of course, all of which are going there.
    But these buildings are going to be unavailable to serve 
the troops that both sides of the aisle say we want to have.
    So speak to me about the budget that is coming up, but also 
in terms of the impact and how we repair the damage that has 
been done by this C.R.
    And everybody has priorities. We are spending the people's 
money, not our own. That C.R. does not fund the families or the 
actual military members. How are we going to get over that 
crisis? How are we going to address it in the upcoming budget? 
And what is the cost of losing the war against terrorists?
    And, again, thank you. Thank you for the men and women that 
you represent.
    Secretary Gates. You want to talk about BRAC?
    General Pace. Sir, with regard to BRAC, the $3.1 billion, I 
hope that Congress can find the proper mechanism to restore it 
now. As the secretary pointed out, if you do not, we simply 
cannot meet the mandate you have given us to complete the BRAC 
alignment in the timeline that is required by law. So that is a 
fact.
    Number two, there are families impacted by this very 
directly. The Army's plan, for example, to restructure, as they 
grow, is based on being able to get the BRAC work done on a 
timeline that has been laid out for several years expecting to 
do it on the timeline that Congress told us to do it.
    If we don't get the funding to do what Congress told us to 
do, we are not going to be able to recover from that inside the 
law. So there are enormous impacts on the ability of the armed 
forces to manage the families, to provide quality of life for 
the families, and to do what the Congress has told us to do.
    Secretary Gates. On losing, in 30 seconds, I think that 
the--frankly, my perception of the debate is that what people 
are debating is how do we proceed from here in a way that 
avoids leaving Iraq in chaos, and the general belief that that 
would be a very bad thing for the United States and for our 
friends in the region. I think it would be a huge strategic 
setback.
    Mr. Hayes. Thank you. Stand firm for full funding and then 
some.
    The Chairman. Before I call on the gentleman from Georgia, 
let me say I appreciate Mr. Courtney's reference to future 
readiness and the unpredictability of the need for American 
forces in the days ahead.
    I have been blessed to be in Congress now over 30 years, 
and since 1977 there have been 12 military conflicts involving 
our country. And at my request, the Congressional Research 
Service listed them. And at this time, without objection, I 
will place the list that CRS provided me in September of last 
year.
    [The information referred to can be found in the Appendix 
on page 103.]
    The Chairman. Mr. Johnson from Georgia.
    Mr. Johnson. Thank you, Mr. Chairman.
    Secretary Gates, today, to summarize your statements to 
this committee, you thanked the troops and their families and 
their employers, and you noted that significant challenges 
needed to be met around the globe by our armed forces.
    And, excuse me, I am sorry, General Pace, you mentioned 
those things.
    You mentioned about the significant challenges that we 
face, and you also pointed out three areas that need to be 
addressed: interagency cooperation; rules and regulations, red 
tape need to be removed; and we need to have lighter rules as 
far as our authority to train people--our partners.
    And, Secretary Gates, you spoke on the fact that this is a 
smaller percentage of the budget that we are spending now for 
defense-related purposes than at the end of the Cold War. So it 
is really not that much money that you are asking for.
    And, of course, you are here to talk about the President's 
budget. His base proposal is for $481.1 billion in 
discretionary spending. That doesn't include that $70 billion 
in bridge funding for the fiscal year 2007 year for the war in 
Iraq and the war in Afghanistan, nor does it include the $93.4 
billion supplement that is being asked for.
    And so, we have got all of these facts and figures. We have 
got you all's comments today to us. And it seems like we are 
avoiding the central issue, which is our involvement in this 
unwinnable war in Iraq.
    And I don't want to get lost in the weeds. And I know that 
the American public expect results from this new Congress. And 
we are going to be very responsible as we look at your budget 
needs, because we know we do need a strong military. But we 
have a house that is burning, and we are putting gasoline on it 
by sending more troops to Iraq, when what we need to be doing 
is trying to put out that fire.
    And I think that is what the American people want to hear.
    Secretary Gates, I know that people are concerned about the 
two aircraft carriers that have been deployed over to the 
Persian Gulf that make a war with Iran more imminent. And I 
would like for you to comment about that.
    And then, General Pace, last time you were here, I asked 
you how much will this new deployment of the 22,000 troops--how 
much will it cost us? And you said $5.8 billion. And I want to 
know whether or not you still agree with that. And, if so, 
where did you get that figure from? If not, then how did--how 
do you account for this $5.8 billion figure?
    Secretary Gates. Very quickly--well, first of all, two 
points.
    Just to your comment about, sort of, indicating that we had 
somehow communicated the message that all of these different 
budgets didn't represent much money, the truth is they 
represent a staggering amount of money. And we understand that.
    In terms of the two carrier battle groups, we have 
consistently maintained one carrier battle group in that area.
    We have sent a second carrier battle group in substantial 
measure as a gesture of support to our friends and allies in 
the area who were becoming very worried about Iran's 
aggressiveness.
    I would tell you that there are no plans for any conflict 
with Iran. I think we are being cautious in that respect.
    Mr. Johnson. Well, it is a pretty small area to confine two 
aircraft carriers.
    Secretary Gates. The second carrier group is not in the 
Persian Gulf.
    Mr. Johnson. Okay. Well, just to have one over there is 
pretty menacing to people here in this country who think that 
we are headed toward military aggression against Iran.
    And I want to ask you, Secretary Gates, has there been any 
thought to withdrawing our combat troops away from patrolling 
the streets of Baghdad back to their bases, and then simply 
assisting the Iraqis as we help to train their forces and as 
they--thank you, Mr. Chairman.
    The Chairman. Before I call on Mr. Cole, I note that the 
witnesses turn to pumpkins at 1:30, am I correct?
    Secretary Gates. Yes, sir.
    The Chairman. I would suggest we have a five-minute break 
right now and then in five minutes everyone resume their seats 
and we will call on Mr. Cole.
    Mr. Johnson, thank you.
    [Recess.]
    The Chairman. The committee will resume.
    The gentleman from Oklahoma, Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman.
    I want to thank you personally for recognizing people my 
age need coffee to stay awake and bathroom breaks to stay 
focused. [Laughter.]
    So I am very grateful.
    If I could, Mr. Secretary, first, I want to thank you for 
an observation you made in your opening comment which I think 
we do well to reflect upon, which is why we are spending an 
enormous amount of money. It is a historically rather small 
fraction of our national wealth, and we are asking an awful lot 
out of you and your colleagues with the resources we give you, 
even though they are considerable.
    I particularly want to pick up where Mr. Hayes was focused 
on: the consequences of this $3.1 billion that we cut out of 
the C.R. and what will happen if that money is not replaced 
along the way.
    And I would like you to talk about it not just in terms of 
timelines and statutory requirements, as important as those 
are--and I would invite your comments to, General Pace--but 
what this is going to mean for soldiers and sailors and Marines 
and their families.
    I was raised by a career non-com and I remember--my first 
memory was when we were in Scott Air Force Base and there was a 
shortage of base housing, and we lived in a converted chicken 
coop. And I remember my mom saying, ``At least the guy only 
charges what a converted chicken coop was worth.'' But that is 
where we lived.
    And these things have real-life consequences for the people 
that we ask to do the very tough and dangerous jobs.
    So if that money is not replaced, how is this going to 
impact soldiers and their families?
    Secretary Gates. If it is okay with you, Mr. Cole, maybe I 
could ask Ms. Jonas to talk about the specifics in that $3.1 
billion.
    I think we have, kind of, a general view, but I think she 
has some----
    Mr. Cole. That would be helpful. Thank you.
    Ms. Jonas. Mr. Cole, specifically, many bases--many of the 
bases, for example, in Texas will be affected. We have about, I 
believe, $300 million in the basic allowance for housing that 
will be important. Many military families will be sorely 
disappointed by that. The Administration has had a commitment 
to no out-of-pocket costs for our military, and so that will 
have a clear impact and a very near-term impact.
    Mr. Cole. So they would literally have less to spend on 
their own families, out of their own pocket.
    Ms. Jonas. That is exactly right, sir.
    And, again, as I think the secretary suggested earlier, 
many of these forces that will be coming home will be coming 
home to housing less than we expected to give them. And so it 
is very important for us--we tend to talk mostly about the 
numbers here, but it does have a personal impact on the service 
members and their families.
    Mr. Cole. Thank you.
    Time is limited, I know. Let me move to another point.
    I was very pleased to see the request for additional monies 
for the Future Combat System. And I know there has been, 
certainly, some problems with that system, but I am absolutely 
convinced that maintaining it and moving ahead is really going 
to be critical for the Army in the years ahead.
    And I am very worried that that is going to be the target, 
frankly, if we come up short of the Administration budget 
request.
    Can you tell me how critical that is, going forward, 
General Pace?
    General Pace. Sir, it is critical to the future capacities 
of the United States Army. And what is most encouraging about 
the way the Army has laid out the plan is that they are not 
trying to get from one level to another level in one large 
step.
    As they produce the increases in capacity, they will spin 
off each of those into the current force. So rather than being 
a step from one level to another over a five- or ten-year 
period, we will be able, during that entire period, to increase 
the entire level of the capacity of the entire Army.
    So, absent the funding for that, we not only lose where we 
want to be ten years from now, but we also lose the opportunity 
to increase today's capacity.
    Mr. Cole. I know we are well behind other countries in 
terms of the field artillery system, for instance, that we have 
now. The Paladin system is great system, but it has seen its 
best days. So I would urge you to fight very hard for that.
    Let me make one last observation, request. I also noted in 
the budget, with considerable satisfaction, that you are 
looking at finally replacing KC-135s, or beginning that 
process.
    Now, we get to fix those at Tinker Air Force Base. But my 
dad was in the service in the late 1950's, when they bought 
those planes. He worked on them. He did 20 years at Tinker Air 
Force Base, where he worked on them. He died in 2000, and those 
planes are still coming through.
    So we have got a great civilian workforce there, but they 
can't indefinitely maintain airframes that are--you know, it is 
unbelievable to me what they are able to accomplish.
    But it is going to be pretty critical that that program to 
get us a new tanker fleet move ahead.
    Secretary Gates. Yes, sir.
    Mr. Cole. Thank you very much. And thank you for your 
service. I am very, very grateful for it. I know everybody on 
this committee is.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentlelady from New York, Ms. Gillibrand.
    Mrs. Gillibrand. Thank you all for participating in today's 
hearing.
    And thank you, Mr. Chairman.
    Upstate New York is very grateful for the service of the 
men and women in the armed forces. And I am very grateful for 
your leadership.
    Secretary Gates, I didn't have the opportunity to ask you a 
question last time you were here and I wanted to ask you 
specifically about the President's State of the Union address, 
where he said that certain economic and political things needed 
to take place.
    And in your testimony earlier, you both said that this 
current military plan did not have any hope of success if there 
wasn't significant progress on the political and economic. And 
the President refers to a few things, of oil revenues and 
reconstruction contracts.
    I would like your view about this budget. Are funds being 
committed to how progress on the political and economic sense--
many people agree that this cannot be won militarily.
    Secretary Gates. And I agree with that, ma'am. This has to 
be won politically at the end of the day.
    I think in this budget, the only money that we are asking 
for that relates to either political or economic reconstruction 
is the commander's emergency reconstruction program.
    The bulk of the money that we are looking at for economic 
reconstruction is the $10 billion that the Iraqi government has 
pledged to spend of its own money.
    The economic part of this is critical because the strategy 
is clear, build, and hold. In previous operations, we have done 
the clear, we have done the hold for a while, and then moved 
on. And the analogy that I have used is that it is like the 
tide coming in and going out. We have sent our troops in, we 
have lost some lives, the troops come out, and you can never 
tell we were there.
    So the Iraqi forces plus-up in Baghdad, our own, is to 
expend or prolong the hold period to provide the window for 
build. And the build is the part where immediately after the 
area is cleared, we have money to put in people's pockets for 
jobs to pick up trash or hook up sewage or something like that.
    But then the Iraqi government and others have to come in 
behind that in terms of creating longer-term jobs that give 
these people a stake in protecting their own neighborhoods.
    So when General Pace talks about the three legs of the 
stool, this economic reconstruction and development part is 
really critical.
    Mrs. Gillibrand. And how much is the commander 
reconstruction program?
    Secretary Gates. I think--go ahead.
    Ms. Jonas. What we have in the 2007 supplemental is about 
$500 million. And we are asking for another billion in the 2008 
global war on terror piece, which is available for this 
committee to review.
    Secretary Gates. Everybody seems to agree that these 
Commander's Emergency Response Program (CERP) funds are about 
the most effective funds that we can spend, because the 
commanders can allocate them immediately based on the situation 
on the ground. And I think General Petraeus is, above all, one 
of the foremost advocates of this.
    Mrs. Gillibrand. At the beginning of the war, Congress was 
told that the Iraqi oil revenues would pay for the 
reconstruction. And the Department of State says that Iraq has 
earned over $31 billion in oil revenues. And we have provided 
over $30 billion for Iraq reconstruction. And the budget 
request an additional $14.4 billion to train and equip Iraqi 
Security Forces.
    The special inspector general for Iraq reconstruction 
reported that the Iraqi government budgeted $14 billion for 
infrastructure and security over the next 3 years, but spent 
only a fraction of these funds.
    As of August 2006, the Iraqi minister of defense had only 
spent 24 percent of his budget. And the State Department 
reported that in all of 2006, Iraq spent only 20 percent of its 
$6 billion capital budget.
    How are we going to assure that these oil revenues are 
being used for reconstruction and to limit the amount of fraud 
and corruption that is currently--with regard to the oil 
revenues?
    Secretary Gates. Well, in terms of how the Iraqis spend 
their own money, we will be, I think, in a position--the whole 
idea is for this money to be used in the areas that we have 
just cleared. And so I think we will be able to see whether 
they are, in fact, allocating that money as they have promised.
    And my hope is that there is always a tendency on the part 
of government to fund big projects, and what really this money 
needs to be used for, in my opinion, is to fund small projects, 
to get shopowners to be able to reopen their shops and small 
factories and things like that.
    And I think we will just have to watch it and make sure. It 
is their money, this $10 billion that I spoke about.
    One of the reasons that I, in my confirmation hearing, 
strongly supported keeping Stuart Bowen's special inspector 
general role and, in fact, met with him last week, was because 
I think that the kind of work he has been doing is so 
important.
    The Chairman. Mr. Kline from Minnesota.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen and lady, for being here. It is always 
a pleasure to see you.
    General Pace, a nostalgia moment: I was talking to some of 
our colleagues from some years ago about those delightful hours 
we were spending in early 1993 in Mogadishu. Now, there was a 
MILCON problem.
    I am concerned about this $3.1 billion. I am not going to 
dwell on that, because I think it is brought out. But really we 
will be interested as we go forward in seeing, as we try to 
make up for that error--we will do what we can, but you may be 
looking for some reprogramming or something, and I am 
interested in knowing how you are going to do that.
    You simply can't have a $300 million whack out of family 
housing, for example. That impact on those troops is clearly 
unacceptable.
    In the larger sense, this is the budget, and it is, kind 
of, a combined budget. You have got a baseline and supplemental 
and so forth.
    And as I was mentioning to General Conway this morning, the 
Army and the Marine Corps particularly are trying to reset a 
force while they are fighting the force and trying to grow the 
force all at the same time.
    And now we have compounded the problem by impacting the 
infrastructure--the housing and military construction that they 
are going to need as part of all that.
    I think that it is still a little bit confusing to me the 
differences between how the Army is approaching reset and 
modernization, how the Marine Corps is. And I am very 
uncomfortable that it seems to me you haven't asked for enough 
and we haven't provided enough resources to do all of those 
things: reset, fight, grow, and move forces around.
    Are you comfortable, Mr. Secretary, that between the way 
the Army has approached this and the Marine Corps has 
approached this, that you in OSD--that you feel like you have 
got all of those pieces captured in this budget request?
    Secretary Gates. I think so. And I will invite General Pace 
to make a comment.
    But I would note that if you include the enacted fiscal 
year 2007 appropriation, the fiscal year 2007 emergency 
supplemental and the fiscal year 2008 global war on terror 
request, those three elements together provide for the services 
about $77 billion for reset, reconstitution.
    And if you add approximately $8 billion that is 
specifically identified in those three elements for the 
National Guard, it is about $85 billion.
    So it seems to me that while there has been a lag, that 
given what the Congress has already given us in fiscal year 
2007 and what we have proposed in these additional budgets, 
give us probably--give us the resources that we need for at 
least the equipment side of the reset.
    Mr. Kline. Okay.
    Before General Pace, if he wants to say something, the 
example I might use and I have used before in this hearing is 
we are losing helicopters. The Marine Corps just lost another 
one shot down, CH-46--or came down. I guess the investigation 
is not complete. And so we are losing lift.
    We have a replacement aircraft, the MV-22, that is coming 
along. So that is modernization, but it is also reset.
    I am worried that a year from now or 18 months from now, we 
will have worn out or lost through combat action enough 
equipment that the modernization replacement won't have caught 
up.
    And so I guess what I am really asking is--are you 
satisfied that you are--in the case of the MV-22, in 
particular, but that is just an example--stepping up that 
modernization, that procurement that allows the reset? Because 
it is not just enough to replace a broken piece of equipment 
with another piece of equipment.
    And I see my time is up, so any answer you may want to 
provide.
    General Pace. Yes, sir. First of all, you are right. We are 
replacing the combat losses with their stepped-up replacements. 
So if we lose a CH-46 helicopter, the money gets allocated to 
the Osprey replacement vehicle.
    I need to get with you, though, sir, off-line to get a 
little more detail. Because the rules that have been given to 
build the Army and the Marine Corp were identical from the 
deputy secretary of defense when he told them how to budget. So 
if there is a difference there, I just need to understand it, 
sir, and get back to you on why.
    Mr. Kline. Okay, fair enough. And--I am sorry, Ms. Jonas.
    Ms. Jonas. I was just going to--if I could add, we do have 
some CV-22s and some MV-22s in the request.
    Mr. Kline. I saw that. And I am glad to see that.
    Again, I am just worried that we are losing capability here 
as the older aircraft are destroyed or lost or we are not 
getting the more moderate replacement.
    And I yield back.
    The Chairman. That does raise the issue I mentioned to you 
gentlemen earlier, where F-16s are attempting to be replaced by 
an airplane that just flew for the first time about a week ago, 
the Joint Strike Fighter. Of course, we can get into that 
later, but that does seem to be a bridge too far at the moment.
    The gentleman from Pennsylvania, Joe Sestak.
    Mr. Sestak. Thanks, Mr. Secretary.
    And, General Pace, thanks for your comment upon how the 
troops might look at the debate back here.
    After 31 years in the military, I, kind of, always was 
bemused by those that--when they say ``Debate about what you 
are doing with this national treasure of ours is not supporting 
the troops,'' I always wanted to know if they really were 
thinking through the best use of our military back here when I 
was overseas. So I appreciate your comments.
    General, as I watched the QDR and the great work that you 
did in it, overseen by you, you did a lot of--undergirded by a 
lot of great analytical work on the Joint Staff, particularly 
J-8, what were the three or--I think it was three major 
contingencies you planned for in that QDR? The three regional--
I think you mentioned two of them already.
    General Pace. Sir, I know the answer. I am trying to think 
if I can say it publicly. I think I can.
    Mr. Sestak. Yes, sir.
    General Pace. We looked at the possibility of renewed 
conflict in Korea; we looked at the possibility of one other 
potential event in Pacific region, which I would prefer not to 
say publicly; and we looked at the possibility of one 
additional event in the Iraq region, using the plans that are 
on the shelf----
    Mr. Sestak. Yes, sir.
    General Pace [continuing]. To determine whether or not we 
had sufficient resources to address those as examples of the 
kinds of things we might----
    Mr. Sestak. Yes, sir. Sir, and also as you did this you had 
dynamic commitment, and you looked at scores of countries, 
probably most of the ones you mentioned as you headed off your 
remarks. Correct?
    General Pace. Sir, we did. And what we said to ourselves 
was that if we were ready to do one of the three large ones, 
then the other things that were probably more likely--because 
we didn't plan for Afghanistan, we planned for the other three 
large ones, and we responded to Afghanistan--that if we were 
ready for the three large ones, that we would be ready then for 
something that we did not foresee.
    Mr. Sestak. Sir, what changed since last year's testimony 
on the QDR to this year where there are several different 
recommendations, such as the 92,000 increase in troops, as just 
one example, from that analytical work? What analytically 
changed in that year?
    General Pace. I can tell you what changed for me 
personally. And that is that the beginning of 2006 I believed 
that we would be down to around 10 or 12, at most, brigades in 
Iraq, not at the 20 that we are going to. And that because of 
that change and the fact that we now would have 25 brigades--20 
in Iraq, three in Afghanistan, one in Kosovo and one in Korea--
those 25, at least for the foreseeable future, for planning 
purposes----
    Mr. Sestak. Absent Iraq, would you have asked for the 
92,000?
    General Pace. I would not have, based on the ability then 
for the country to reconstitute its forces and have sufficient 
force.
    But as I look forward, and having been wrong two years ago 
on where I thought we would be now, looking forward for the 
next two years, as a military professional, in looking at the 
potential needs for the Nation, I cannot sit here and not 
recommend an increase so we can have the ability to do what we 
are being asked to do now and be prepared to take on future 
threat.
    Mr. Sestak. Sir, you mentioned China and Korea in your 
testimony here. We have drawn down our five Army pre-positioned 
sets, built them back up with some of the modular designs in 
them, and then draw down upon them again. And you stated in 
your last testimony you were uncomfortable with our readiness 
to respond.
    In view of the timelines you saw in the QDR and other 
things, how would you judge the strategic risks with those two? 
With North Korea 30 miles from Seoul and with China not far 
from what is of some interest to her, how is the timing in our 
strategic risk affected by Iraq in responding to those?
    General Pace. Sir, I will give you, off-line, a very direct 
answer to your question. I would also commend to the committee 
to read the classified assessment that I am required to provide 
to Congress with the budget, which I did. But if I may, sir, 
not answer that in public.
    Mr. Sestak. Yes, sir.
    One last question then: The President said our support is 
not open-ended for the Iraqis. And so, then, one must prepare 
to handle consequences. Even though one might not want to, the 
military has to, at times, plan for that.
    Can you envision and plan for a redeployment out of Iraq, 
remaining in the region, that could mean a fairly stable 
region?
    General Pace. I cannot, sir. Not without reaching our goals 
first.
    Mr. Sestak. Even with the President's comment?
    General Pace. I am sorry, sir?
    Mr. Sestak. Even with the President's comment that our 
commitment is not open-ended?
    General Pace. You were asking me a question about----
    Mr. Sestak. My time is up, sorry.
    The Chairman. Thank you very much.
    Before I call on Dr. Gingrey, the gentleman from Georgia, 
it is interesting, General Pace, that you would not have 
recommended such a troop increase absent Iraq. Is that correct?
    General Pace. That is correct, sir.
    The Chairman. Despite the fact that in 1995 General Ted 
Stroup, head of the Army personnel, advocated an increase of 
some 40,000 troops then. And I have been sounding like a broken 
record ever since. And at long last, it is coming to pass.
    We can get into this discussion later. But I think even 
without Iraq, in my humble opinion, General, we could very well 
use the additional troops which are now being formally 
recommended.
    Dr. Gingrey from Georgia.
    Dr. Gingrey. Mr. Chairman, thank you.
    And I want to thank our witnesses for being with us today. 
I want to thank them for their dedicated service to our 
country, both Secretary Gates and General Pace. And I also feel 
the same way, Mr. Chairman, about their immediate predecessors.
    I think you have given a very forthright testimony here 
today. And I wanted to ask two specific questions. The first 
one I will direct to General Pace.
    General Pace, I noticed in the fiscal 2008 baseline budget, 
that there is a decreased funding for the missile defense 
system. I think we are talking about $560 million less than 
what was in the fiscal year 2007.
    Considering the uncertain path of--I think Mr. Sestak just 
mentioned about other areas like China and Russia, and us 
really not knowing--China is increasing their budget, as we 
know, and of course the obvious situation in North Korea and 
Iran's nuclear ambitions, do you have concern about that cut?
    And if you would address that, General Pace, and then I 
will ask my second question of Secretary Gates.
    General Pace. I do not have a concern about it, sir, 
because it is a cut from about $10 billion to about $9.5 
billion. I asked Lieutenant General Obering, the man who was in 
charge of our Missile Defense Agency, whether or not he could 
continue to provide, on the timelines that we provided to him, 
the missile defense for the Nation, to include buying the 
additional missiles, getting the radars in place, doing all we 
need to do. He assured me he could. And based on his analysis, 
I was okay with the----
    Dr. Gingrey. General, would you--and I thank you for that 
response--would you be concerned in further cuts as Congress 
goes forward and works its will in regard to what our budget 
actually looks like ultimately?
    General Pace. Sir, I would like to do my homework on that. 
I don't know how big the cut would be and what the impact would 
be, so I would have to see the numbers and what it would mean--
--
    Dr. Gingrey. Well, thank you, General. And my time is 
limited, so I will go ahead and address my question to 
Secretary Gates.
    Secretary, this situation of the manpower increase of the 
21,000, I have heard--and, in fact, I think some of this is 
coming from CBO--that maybe that that is a low estimate by a 
factor of 1:4. I have even heard some say that because of the 
need for support troops of about 1:4 for each boot on the 
ground, combat troops, that we will maybe need 48,000.
    Could you address that and try to make it clear to this 
committee what the actual facts are in regard to that?
    Secretary Gates. As I understand it--first of all, when the 
original announcement was made about the 21,500, I think it 
included some reference to there could be some modest additions 
for combat support.
    As General Pace has said in other forums, first of all, 
these troops are going into an area where there is already a 
very large combat support apparatus. Second, each of these 
brigades has its own combat support capability.
    So what we are looking at is the 21,500 perhaps augmented 
by 10 to 15 percent more. So perhaps another couple of thousand 
in combat support.
    So it is a very different number than some of the CBO 
assumptions. And I think that they base--I don't know what 
their assumptions were, but it looks like they took a straight-
line projection from the original deployments and didn't take 
into account the existing infrastructure.
    Second, their cost figures are significantly higher than 
ours because they budget for this through the end of fiscal 
year 2009. And, in fact, we only budget for it through the end 
of fiscal year 2007, or as of the 30th of September.
    So that helps explain, I hope, the two differences in the 
estimates.
    Dr. Gingrey. And, Mr. Secretary, also I would expect that 
some of the support troops that are actually in place, as you 
point out, in areas that are not as hot a spot as Baghdad and 
Al Anbar province, some of those support troops could be 
realigned if that were necessary.
    Ms. Jonas, did you want to comment on that as well?
    Ms. Jonas. I think the secretary has covered it and I think 
General Pace covered the missile defense piece. We did--the 
actual totals in the budget, about $9.4 billion last year, down 
to $8.9 billion for the Missile Defense Agency.
    Dr. Gingrey. Thank you.
    And, Mr. Chairman, I yield back my time. Thank you.
    The Chairman. The gentleman yields back.
    The gentlelady from Arizona, Gabrielle Giffords.
    Ms. Giffords. Thank you, Mr. Chairman.
    Thank you, Secretary Gates and also General Pace.
    We heard the chairman mention in his opening remarks that 
readiness is the job of this committee. And we have heard a lot 
of questions about readiness. But I want to address one in 
particular and that is the readiness in terms of the mental 
health of our soldiers.
    I am very concerned that we are asking more and more and 
more of these young men and women and I don't believe that our 
government is stepping up to our responsibilities to make sure 
that they are receiving the care that they need.
    I am curious what the Department of Defense is proactively 
doing to monitor the mental health conditions of our troops as 
they return home and before they are asked to be sent back into 
combat.
    Secretary Gates. Yes, ma'am. I am told that 100 percent of 
our troops are screened after their deployment. Approximately 
22 percent test positive. That doesn't necessarily mean that 
they have post-traumatic stress disorder.
    The troops are reassessed again three to six months after 
the deployment and then screened again during the redeployment. 
And after they return, care is available for both the active 
and the reserve force for a period of time.
    Ms. Giffords. Mr. Gates, I recently met with an Army 
officer who is responsible for the pre-redeployment screening. 
He told me that 70 percent of the soldiers that he has seen, he 
is advising to seek immediate counseling--70 percent. And the 
majority of those soldiers are not receiving the counseling.
    Could you please address that?
    Secretary Gates. I will have to take that for the record. 
That is simply not consistent with the information I have been 
given. I will go back and check.
    [The information referred to can be found in the Appendix 
beginning on page 133.]
    Ms. Giffords. General Pace----
    Audience Member. It is the truth, sir.
    The Chairman. We will have order in the hearing room, 
please.
    Ms. Giffords. First of all, I want to commend the Army. I 
know that there is a disproportionate burden placed on the Army 
right now, particularly the guard and reserve, the Marine Corps 
as well. But it is really the Army that is stepping up right 
now and bearing the large cost of this war in terms of the 
people that are serving.
    And I would like to hear from you what you think about how 
we are caring for our soldiers and making sure that they have 
everything that they need to continue to protect and to fight 
for our country.
    General Pace. Well, first of all, I agree with you that the 
United States Army is performing magnificently and is doing 
everything we have asked them to do, and in fact is going 
beyond what we have asked them to do.
    I think the burden is equally shared by the Marines, who 
are on the same kind of X number of months over Y number of 
months back. So the burden is shared equally between the 
services.
    However, the Army being the United States Army, it is 
carrying the bulk of the load of the Nation, that is for sure.
    I think, first of all, with regard to your first question, 
about mental health, we do need to pay very close attention to 
that, and we should allocate the resources necessary not only 
for the sake of the servicemembers, but their families as well. 
There is stress on the families that we need to be attentive to 
as well.
    I believe that in the budget, that the quality of life that 
is fundamental is how we prepare our troops to be deployed, how 
well they are trained, how well they are equipped, the force 
protection means that they have, and that this budget continues 
to allocate the right amount of resources to ensure that the 
technology that we have available to our troops is the best in 
the world and that, as it is developed, that we field it as 
quickly as possible.
    Ms. Giffords. And, General, I do see that we are 
allocating--obviously, as Secretary Gates mentioned, there are 
a lot of assessments, but if the counseling isn't there and the 
resources aren't there for the families--I participated in a 
Returning Warriors weekend program, funded by the Veterans of 
Foreign Wars (VFW), a program for returning soldiers as they 
come back from Iraq and Afghanistan, that integrate the family, 
that integrates the kids, to make sure that the support is 
there. And for members that have participated in the program, 
they say, ``If I would have had this, my marriage probably 
would still be intact.''
    Is funding available in this budget for programs like that? 
Or why are we looking for the VFW to be funding programs for 
soldiers that are going to be redeployed? I mean, these are 
necessary services, really important, really critical for 
families.
    General Pace. I don't know if Ms. Jonas has the exact 
numbers, but I certainly agree with the philosophy, that we 
need to make sure that we pay attention to the needs of our 
families before they deploy, while they are deployed, and then 
when they return, and we should fund that properly.
    Secretary Gates. And we will have somebody get in touch 
with you and talk further about this, because it is a concern 
to us.
    Ms. Giffords. Thank you.
    The Chairman. The gentleman from the state of Missouri, Mr. 
Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    A couple of quick questions here. First of all, I note you 
have got $3.7 billion for the continued development of Future 
Combat Systems.
    General Pace, do you see that that is very important for 
the future Army? Obviously, that money is, kind of, competing 
for the reset and all; just a comment on your commitment to 
that program, sir.
    General Pace. Sir, it is important. And the way that the 
Army has structured the program, it allows us, as we develop 
new capacities, to field that, so spin it off, so to speak, 
into the existing Army.
    So as the Army builds its new capacities to get to what 
they call the objective force, they are also able to use what 
they are learning with the force that we have today.
    Mr. Akin. I understand that was the philosophy of about a 
year or two ago. And I think that makes a lot of sense, too, 
because then the people are getting trained in the new systems 
as well.
    The second question I had, it seems like there is a little 
bit of a difference of opinion on this C-17 question. You know, 
those of us here keep taking a look at the C-17. We are using 
it to land on hot, short runways and things that we are not 
having to unpack, pack into C-130's and make double hops. It 
seems like the C-17 has been used; it is performing very well. 
And yet it seems that the budget is saying, ``Yes, we are done 
with those; we are going to get rid of the supplier base.''
    I think there is a little concern that maybe the Air 
Force's primary mission, which is air superiority, may be 
taking more priority over the capacity to provide that airlift.
    Would you comment on that?
    General Pace. From where I sit, sir, that is not what is 
happening inside the Air Force.
    As you know, about two years ago, I think it was, maybe 
three, and there was a mobility study that said we needed to 
have 180 C-17s and about 95, I think it was, C-5s in the 
inventory.
    As a result of usage of those airplanes at greater hours 
per month than expected, we are looking to keep the C-17 line 
open to be able to replace those that are being consumed 
quicker than we thought we were. But that is to maintain the 
overall need of C-17s and C-5s.
    If we were to get some relief on the C-5 side of the house 
and be allowed to retire the older C-5s, that would probably 
impact the amount of C-17s needed. But since we are required to 
keep a number of C-5s, the balance, the total lift capacity is 
right----
    Mr. Akin. But you feel that that overall lift capacity is 
pretty much where we need to be?
    General Pace. Yes, sir.
    Mr. Akin. Even with more troops and everything else?
    General Pace. I do. Yes, sir.
    Mr. Akin. Thank you.
    Last question, and that would be: My understanding is that 
a number of dollars that we are spending for training Iraqi and 
Afghan forces has dropped significantly, more than 50 percent.
    What is your sense on that, that we have about gone as far 
as we can go on that? Or I think it was $12.9 billion in 2007, 
and 2008 is dropping to $4.9 billion. So from $12.9 billion to 
$4.9 billion, any word or thought on that?
    General Pace. Sir, most of the delta is, with regard to 
equipment. And by December of 2006, we were supposed to have 
328,000 Iraqi army and police trained. We did. And we had 98 
percent of their equipment bought by the end of December.
    There is, however, an increase--even though the overall 
numbers come down, the numbers come down significantly in Iraq 
because we are almost there in Iraq and it has gone up 
significantly in Afghanistan so we can fast-forward the 
training of the Afghan army.
    So you will see that number--I think it is about----
    Secretary Gates. It is $3.8 billion for Iraq and $5.9 
billion for Afghanistan.
    Mr. Akin. My understanding, just talking to some people in 
the field, was that the Iraqis--sometimes equipment we give 
them, they just sell it on the black market. Is that something 
we have to deal with? Just a quick comment. I think we are 
almost out of time.
    General Pace. Sir, we need to keep track of our equipment. 
We need to make sure that how our embedded teams know what is 
supposed to be there and report back on it. As well as we need 
to develop, inside the Iraqi army, the kind of accountability 
systems that we have inside of our own.
    Mr. Akin. Thank you. And thank you for the great work you 
are all doing.
    General Pace. Thank you, sir.
    Secretary Gates. I might mention, sir, that in 2008, in the 
global war on terror, the amount for training for Iraq goes 
down to $2 billion and for Afghanistan training and equipping 
goes down to $2.7 billion. So it is the trend line the general 
was talking about.
    The Chairman. I thank the gentleman.
    The gentlelady from Florida, Kathy Castor.
    Ms. Castor. Thank you, Mr. Chairman.
    And thank you for being here today.
    Two weeks ago, the committee heard General James Conway 
from the Marine Corps and Army Chief of Staff General Peter 
Schoomaker testify that America will run a strategic risk by 
staying on the same course in Iraq and implementing the 
escalation.
    The generals confirmed that if our personnel and equipment 
are tied up in Iraq, then our ability to handle future 
contingencies is reduced. Deploying extra units will force the 
Army and Marines to draw more equipment from units not in 
combat. This will further reduce the ability of these units to 
remain ready for missions elsewhere.
    In my state of Florida, the National Guard does not have 
all of the equipment it needs to train soldiers. They are only 
28 percent equipped.
    This is the case even though the defense budget, the 
proposal is simply staggering: the proposed fiscal year 2008 
base budget of $481 billion; you add to that fiscal year 2007 
for the war in Iraq of $93.4 billion; then for fiscal year 2008 
for the war, $141.7 billion.
    Those two, put together, $235 billion. I mean, that is 
about half of the entire base budget for the DOD. And the base 
budget also includes war costs.
    And I think President Bush, in proposing his overall 
budget, made a very predictable political statement in cutting 
health care for the most vulnerable in the United States, 
children and seniors, fuel oil for seniors, while maintaining 
tax cuts for millionaires.
    But for the DOD budget itself, I think that he also makes a 
very troubling statement. The war in Iraq is beginning to 
swallow the entire base budget for DOD. It is creating a 
strategic risk that will take years to build back and be able 
to adequately defend our country. He has refused to target 
sufficient political and economic solutions for Iraq, and it is 
eating into our readiness.
    How much longer will the President continue to ignore 
investments in political and economic solutions in Iraq, in the 
Middle East?
    [Applause.]
    And how much longer will the Ppresident allow the war in 
Iraq to eat into the readiness in our ability to address all 
global threats?
    Secretary Gates. Well, I can only answer the first of those 
questions. And it is that I think that the commitments that 
have been made by the Iraqis to spend $10 billion on their own 
economic projects relating to the Baghdad security plan really 
represent a--as we have transitioned to Iraqi leadership in the 
military phase of the Baghdad security plan, so, too, do we 
transition to Iraqis using principally their own money in terms 
of economic development and investment.
    Ms. Castor. Do you know the Department of State budget 
request by the President?
    Secretary Gates. No.
    Ms. Castor. Is it about $63 billion?
    Secretary Gates. I just don't know.
    Ms. Castor. The DOD budget and the war supplemental simply 
dwarf our diplomatic and economic investment in this area.
    I would also like to spend my remaining time thanking my 
colleague from Arizona for raising the mental health issue of 
our soldiers.
    And what was explained to me, visiting soldiers at Bay 
Pines in St. Petersburg, Florida, some vets that had come back, 
the screening simply consisted of a questionnaire that was 
given to them to fill out and no direct interaction, no direct 
screening. And they were in such a rush to get out, get home to 
see their families, they fill it out and they turn it in, and 
there is no concrete screening.
    So I hope the same analysis and visits that you provide to 
Congresswoman Giffords you will provide to my office as well.
    Secretary Gates. Yes, ma'am.
    Ms. Castor. Thank you very much.
    The Chairman. I thank the gentlelady.
    Before we proceed to the gentleman from South Carolina, let 
me again mention there shall be decorum in this room for the 
witnesses to testify and for the questions to be asked.
    The gentleman from South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, General Pace, for being here.
    And, Secretary Gates, thank you for your service.
    I am very grateful that I have four sons who are serving in 
the military of the United States under your leadership. As a 
veteran of 31 years with the Army National Guard, I have never 
been prouder of the American military and the difference that 
they have made of enabling people and nations to be free with 
the greatest extent of democracy and freedom in the history of 
the world.
    I have a concern that has been expressed over and over, and 
you have addressed it largely, in regard to readiness for units 
that are not deployed, and that there are measures to address 
the shortfalls of readiness for the Army and Marine Corps.
    Specifically, what is being done for the National Guard, 
for the reserves that are not being deployed?
    Secretary Gates. Well, sir, for reset for the Army Guard 
and Reserve, there is in the 2007 supplemental and in the 2008 
global war on terror a total allocation of about $8.8 billion 
for reset that is allocated specifically to the National Guard.
    There also is a program in place between fiscal year 2005 
and fiscal year 2013 to invest a total of $36 billion in the 
National Guard itself. So there has been an effort to try and 
deal with this.
    And I have a number on the Air Force reset and 
reconstitution. That number is--for the 2007 enacted, is $2.6 
billion, for the supplemental is $2.7 billion, and for the 
global war on terror 2008, $7.3 billion. So a total of $12.6 
billion in the three categories.
    And for the same three categories, it is about $8.7 billion 
for the Navy.
    General Pace. Sir, another encouraging aspect of that is 
that with the new policy goal of one year deployed and five 
years at home for the guard before they are eligible to go 
again, that cycle will automatically mean that if the Army and 
Air Force are looking out two to three years, the units that 
are about to come into that window of potential deployment, 
they will receive the personnel attention, the equipment 
attention that will ensure that, at least on a cyclical basis, 
they get a good hard look every five years.
    Mr. Wilson. And in our state of South Carolina we have been 
very grateful, the National Guard has been so helpful in 
preparation for hurricanes, recovery from hurricanes, 
tornadoes, ice storms. And so the equipment is just so crucial.
    In the past, prior to 1997, there was a specific National 
Guard and reserve equipment appropriation. Specifically, there 
was a fund for new equipment for the reserve components. But 
after 1997 that specific fund was folded into the budget 
itself.
    Do you believe that the equipment appropriation account 
should be re-established for the reserve components?
    Secretary Gates. Let me take that question, sir, have 
people look into it. I just don't know the answer.
    [The information referred to can be found in the Appendix 
beginning on page 133.]
    Mr. Wilson. And another question I have: The budget request 
for military construction funding shows a $5.361 billion 
increase over the forecasts for fiscal year 2008 and 2007. What 
accounts for this significant increase in the estimate?
    Ms. Jonas. There are two things. Primarily, it is the 
increasing infrastructure we need for the permanent force that 
we talked about, the 92,000, and the implementation of BRAC. 
And as the secretary has suggested, we will have to work with 
the Congress pending the outcome of the joint funding 
resolution.
    Mr. Wilson. And again, I appreciate your service, all of 
you.
    And, Mr. Chairman, again I am just grateful that we have 
got people of such quality who want to serve our Nation. Thank 
you very much.
    General Pace. Thank you, sir.
    Mr. Wilson. I yield the balance of my time.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Secretary, prepositioned stocks of equipment are an 
integral part of our war plans and allows us to deploy our 
military quickly to an emerging crisis.
    Over the past two years, there have been some problems with 
and changes to prepositioned equipment that perhaps indicate a 
change to the department's priority and strategy.
    In a recent appearance before this committee, General 
Schoomaker indicated that the Army would continue to draw down 
prepositioned stocks to support equipment shortfalls and the 
increase of units in Iraq. These changes are significant and 
disturbing.
    What strategic risk is being accepted by drawing down 
prepositioned stocks? And how is the Department going to 
mitigate the reduced flexibility and increased deployment times 
that will result from these drawdowns?
    You know, sometimes it looks like, when General Pace 
mentioned that 40 percent of the equipment that is in Iraq, it 
looks like we are just replacing the equipment that is being 
damaged or it is being sent back to the depots to be reset. We 
don't have any equipment in stock to replace, because it takes 
sometimes three or four years to build that equipment.
    So how is that going to affect us, you know, when the 
equipment is there in Iraq and then we have got shortfalls in 
the National Guard that was mentioned before? Maybe you can 
address a little bit on that.
    Secretary Gates. With your permission, Mr. Ortiz, since it 
involves a matter of readiness, I would like to ask General 
Pace to respond to the question.
    Mr. Ortiz. That is fine. Thank you.
    General Pace. Sir, the budget itself does include money to 
rebuild the stocks that have been used. The Marine Corps's 
prepositioned stocks are full-up now, thanks to money that you 
all have allocated in past years.
    The Army is, as General Schoomaker pointed out--to make 
sure that the soldiers who are deploying in these five brigades 
that are being added to our troops in Iraq, to ensure that they 
have the proper equipment, they are using some of the 
prepositioned equipment that was on the ground in-theater, plus 
some of the sea-based equipment. That will need to be replaced.
    There is additional risk, then, involved with using that 
equipment and not having it available elsewhere.
    But when you take the totality of what we have available to 
the nation, the 2.4 million men and women in active, guard and 
reserve, just over 200,000 deployed right now; you take the 
strength of the Air Force and the Navy which are available to 
the Nation; when you look at the potential threats on the 
horizon; we have enormous capacity left to deal with threats 
should they arise.
    But we must pay attention to--and are in this budget--the 
very real need to replenish the stocks that we have been using 
for current operations.
    Mr. Ortiz. Now, to replenish that stock, have you included 
that in your budget, to be sure that we replace that stock?
    General Pace. Sir, I will get a sanity check from Ms. 
Jonas. But I believe that, in fact, the Army's needs for 
replenishment have been identified in their budget.
    Ms. Jonas. Mr. Ortiz, we have been doing that for several 
years. I understand the concerns of the Army.
    Just in the base budget alone, we have increased the Army 
$20 billion over all, but we have added a lot to readiness. We 
have $11 billion in the budget for depot maintenance. We also 
have additional depot maintenance in the supplemental and the 
global war on terror fiscal year 2008 request.
    Mr. Ortiz. Are the depots up to capacity, or do we have 
enough room, you know, to increase the workload and the working 
people there to do the work?
    Ms. Jonas. Mr. Ortiz, my understanding is that the depots 
are about 64 percent capacity for the Army, and they believe 
that there is additional capacity there.
    Mr. Ortiz. Thank you so much for being with us today. Thank 
you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Ortiz.
    The gentleman from Arizona, Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you.
    You know, I heard a quote some years ago that said, ``For 
those who defend it, freedom has a flavor that the protected 
will never know.''
    And I never want to miss an opportunity to express to you 
how grateful I am to all of you who wear the uniform and for 
those who are on the front line of freedom to their working to 
protect human dignity and human freedom across the world. 
Because I know that no one of you is more against war than 
those of you that have had to be so well-acquainted with its 
horrors and tragedies.
    I believe with all of my heart that you would do away with 
all war if only those who are committed to the destruction of 
human freedom at the expense of human lives would embrace the 
same concept.
    So let me start out with that.
    With that, General Pace, I am wondering, sir--this question 
has been dealt with in a number of different ways here, but 
sometimes the foundation of statesmanship is to re-emphasize 
the obvious.
    If, as you have surveyed the President's new approach in 
Iraq--I would just ask you a quick series of question and then 
you can answer them in total.
    Number one, can we prevail? Is it your opinion that this 
gives us a better chance of prevailing?
    Number two, what are the implications of the United States 
withdrawing too early in Iraq in terms of, not only our 
credibility to deter aggression and terrorism throughout the 
world, but also its ultimate cost in innocent human life if we 
should leave there and allow terrorists to take that nation 
over and turn it into a base of terrorist outreach throughout 
the world?
    General Pace. Sir, we can prevail, but not by military 
might alone.
    This is a three-legged stool. It requires the strength of 
the military to be able to provide security, it requires the 
strength of the political leaders in Iraq to provide the 
leadership, to provide the balanced approach to their citizens, 
to provide the kinds of opportunities for their citizens that 
would make their citizens want to live in that country and 
support that government. And it requires an economy that 
provides jobs to those citizens so they can do something 
besides build bombs for a hundred dollars.
    So, yes, we can prevail. But not primarily militarily. They 
are certainly a very important part to the military.
    With regard to withdrawal, it would have immediate impact, 
I believe, in additional death in Iraq, as the insurgents--
correction--as the sectarian violence spiked.
    I believe that if you read al Qaeda's global plan, just 
like during World War II, Hitler posted ``Mein Kampf,'' and we 
ignored it to our peril, that if we read what al Qaeda is 
saying they want to do globally, we ignore that to our peril. I 
do believe that the lessons that are learned by al Qaeda in 
Iraq will be translated to Afghanistan, for good or bad, and 
that if we were to have the same kind of an outcome in 
Afghanistan, they would follow us home.
    So this should be an away game, so to speak, if I could use 
that analogy. But we need to be smart in our application of 
power and we need to encourage other countries to help us, 
especially on the governance and economic piece.
    Mr. Franks. Well, thank you, General. And again, I 
reiterate my earlier comments.
    Secretary Gates, in your written testimony, you expressed, 
related to our missile defense and our space defense 
capability, that not only are we protecting our own homeland 
here potentially, but that we are an umbrella for other nations 
throughout the world, and that our credibility with them and 
our ability to deter enemies of freedom that might employ some 
type of missile strike on one of their neighbors--all of those 
things are at stake.
    And I think your request there is that between the missile 
defense and the space-based defense capabilities, about $16 
billion combined.
    Number one, do you think that that will be forthcoming from 
this Congress?
    And number two, what do you think the implications are, 
long-term, if somehow that is diminished, as it has been over 
the years now, the overall missile defense capability--at least 
the spending, not the capability, but the spending on that 
capability? There has been a lot of cuts and I would like for 
you to try to address that, sir, what its implications are for 
freedom in general?
    Secretary Gates. I took part in an exercise a week ago 
Monday at Strategic Command (STRATCOM) with the launch of a 
North Korean missile. And it became clear that having a robust 
ballistic missile defense is very important for the security of 
the United States and our friends.
    The Chairman. Before I call Mr. Meehan, General, without 
asking you to repeat it, it seemed to me that in your previous 
answer you were speaking about two different subjects in the 
same answer. And I will not go into it, but you were speaking 
of al Qaeda on the one hand and sectarian violence in the other 
when they appear to be, at least on the surface, separate and 
distinct.
    So I would point that out. And if we have a little bit of 
time later, when others have testified, I may ask you about 
that.
    Mr. Meehan.
    Mr. Meehan. Thank you.
    And I am tempted to ask about that too, because if the 
dialogue goes on and it is almost as if we entered Iraq to get 
Osama bin Laden and al Qaeda out of Iraq rather than 
Afghanistan.
    But I would rather go to a separate subject. But it seems 
we have been going down this road for far too long: that we are 
in Iraq to get al Qaeda, who wasn't there until we got there 
and we said, ``Come on in,'' and then they came.
    But in any event, Secretary Gates, I am sure that you are 
aware--I sent a letter, with Mr. Skelton and Mr. Spratt, to the 
CBO regarding the costs of the escalation in Iraq. And I was, 
frankly, surprised and shocked at CBO's response: relative to 
the costs of the surge in troops anywhere, depending upon the 
length of deployment from $9 billion to $13 billion for a 4-
month deployment, from $20 billion to $27 billion for a 12-
month deployment.
    But also CBO had estimates relative to additional support 
troops that would be needed. And the number of support troops, 
according to the CBO's estimate, could be anywhere, but could 
be up to 28,000 more troops in addition to the 21,000 troops.
    Now, I know that you have initially said that that is not 
true; that we are only going to have a few thousand. But I just 
want to go through.
    The CBO--I got a briefing this morning--they use 
standardized methodology to determine their answers. In other 
words, they looked at surges throughout the course of this war 
and they basically have categories. And they say that for every 
brigade over a period of this war, there is, on average, 9,481 
support troops.
    There have been other times during the course of this war, 
specifically in December of 2004, January of 2005, when the 
elections were held, when we were up to 189,000 troops. And it 
appears, at least from the statistical analysis from CBO, that 
their estimates--I am interested why for the first time in the 
history of the war we wouldn't need as many support troops as 
were needed.
    The CBO can't guess at the Department's true intentions, 
but they use logic to examine them.
    And I look at this report and I can't imagine why we 
wouldn't need more than--you have been quoted as saying 3,000 
support troops, I think I saw more recently. Why would we only 
need 3,000 support troops?
    And isn't it true that the commanders who are on the 
ground, they will be requesting more support troops? So we 
don't really know what they are going to request, do we?
    Secretary Gates. We have identified--let me make a comment 
and then invite General Pace, because he has more continuity of 
experience with this than I do.
    But what I have been told is that these forces are going 
into an area where there is already a substantial support 
infrastructure. The brigades themselves have an inherent combat 
support capability.
    And between the two, they have anticipated there would be 
some additional increase--the estimate, frankly, we haven't 
been given a firm estimate, but it has been categorized to us 
that it would be 10 to 15 percent of the force, so 10 to 15 
percent of 21,500.
    Now, that is the way it has been characterized to me. But 
let me ask General Pace to comment.
    General Pace. Sir, the only thing I would add to that is 
that what we have so far from the field is a request for about 
1,800 of those 10 to 15 percent. And we are expecting a little 
bit more than that, but not a lot more, based on what the 
commanders in the field have done in their troop-to-task 
analysis; in other words, what they need to do and how many 
troops they need to do it.
    Mr. Meehan. According to my calculations if, in fact, we 
only needed, let's say, 3,000 support troops and we had a surge 
of 21,000 troops, that would, it seems to me, mean that we have 
33 percent more support already in Iraq, when General Casey and 
nearly everyone else has said we don't have more people than we 
have needed in terms of support in Iraq.
    So if the statistics from CBO--and you have got to 
understand, this is where we try to get our data and 
information so we can provide constitutional oversight that, 
frankly, we haven't provided enough of--does that mean that we 
have 33 percent more support than we have needed before the 
surge?
    General Pace. No, sir. What it means is that, for the 
relatively brief period of time that we expect this plus-up to 
last, that there is enough elasticity in the folks who are 
already on the ground to be able to pick up some of that slack, 
and that what is going to be deploying with the brigades inside 
the 21,000 is an additional capacity and then an additional 10 
to 15 percent.
    The CBO is based on going out through 2009. If in fact this 
number of additional brigades was staying two and a half years, 
then we would need more long-term combat support, combat 
service support.
    Mr. Meehan. I know my time is up, Mr. Chairman. But there 
are different case scenarios that CBO gives. And I would like 
to, if I could, provide the statistical analysis from CBO that 
I got in my briefing this morning--submit it for the record.
    [The information referred to can be found in the Appendix 
on page 106.]
    The Chairman. Thank you.
    The gentleman from Ohio, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to thank each of you for your service and for your 
dedication.
    And, Mr. Secretary, I wanted to tell you personally that I 
think so many times that you are not thanked enough not just 
for what you are doing, but for the fact that you have stepped 
into this position when you were incredibly needed. And you 
have done it with great diplomacy and great accuracy and 
professionalism.
    And that has been very enjoyable to watch because we have 
needed your attention and your service.
    I want to turn back to BRAC. I know it has been emphasized 
several times--the underfunding or defunding, if you will, of 
BRAC to the tune of $3 billion in 2007.
    The need to replace those funds is obviously a case that 
has been made. And you have given a description of the impact 
on the families and the specific projects that are to be funded 
by BRAC.
    But one thing that I have not heard that perhaps you could 
just give a slight overview, because I do have two other 
questions, is that we are basically talking about 2007 dollars 
that ought to be in your hands already.
    So in addition to the impact of what will not occur or be 
pushed back, there are processes that you have already put in 
place, there are projects that you have commenced work on. In 
order for you to expend those monies that you were expecting in 
2007, you have already expended a significant amount of 
intellectual capital and preparation to do that.
    Could you speak for just a moment about how the lack of 
those funds will also make that process difficult?
    Ms. Jonas. Well, as you may know, Mr. Turner, the BRAC 
process had extensive business plans for each of the 
realignments. And many people think of it as closure only, but 
it is quite a bit of consolidation and realignment.
    And I have not spoken this morning with Phil Grone, who is 
responsible for that, but this would create an enormous 
disruption, if we are unable to get the funds very quickly.
    We have already spoken to many of the issues related to a 
lot of the bases, many in Texas. And the secretary has spoken 
also about the impact to the families, of the no out-of-pocket 
costs--this would actually take money out of their pocket.
    So we are very concerned about this, but it creates an 
enormous disruption to particularly the Army, as they also 
consolidate bases and bring their folks home from Europe.
    Mr. Turner. Mr. Secretary, in looking at the overall tasks 
in front of you--recapitalization, and certainly the 
recapitalization of the Air Force is the one that I have 
concern--the path that the Air Force is undertaking for 
recapitalization has a tremendous impact on personnel.
    The projections in personnel reductions, I am very 
concerned about, being post-9/11, having an impact on our 
overall ability to function.
    I know that you know that it is not just an ability to 
execute a task that results in decrease in personnel, but it 
also significantly impacts ingenuity and the overall 
contribution that personnel can make to solutions for the 
future.
    When we have a reduction, it is not just what can we not do 
now, it is what did that reduction cost us in what we might be 
able to even do several years forward.
    And I would ask you to take a look at the assessment of 
what the impact will be on the Air Force of its process of 
recapitalization in its personnel and also if you had any 
thoughts presently.
    Secretary Gates. Well, in terms of personnel, the Air 
Force, as you well know, has a program to reduce, by about 
40,000 people, over a period of time, and to use the savings as 
part of the recapitalization and modernization program. And my 
understanding is, so far that has yielded about $11 billion 
that has been able to be transferred.
    I will tell you that concomitant with the increase in the 
end-strength of the Army and the Marine Corps, the Air Force is 
now going to have to go back and look at that program and see 
if an increase in the end-strength of the Army and the Marines 
is going to require them to change some of the assumptions that 
they had made about the number of people they need to fulfill 
their mission.
    So in terms of the personnel recapitalization, that is an 
issue that they are going to have to address.
    Mr. Turner. Research and development: Wright-Patterson Air 
Force Base being in my district, is certainly an important 
issue for our look at how we can perform on the battlefields of 
tomorrow.
    I noticed in the budget that we continue to, in science and 
technology, take a hit. I hope that you will continue to look 
at ways in which we can find funds because, as we went into 
Iraq, we saw a tremendous difference between Gulf War I and 
Gulf War II and what our capabilities were.
    Then as we are in Iraq we see different challenges that we 
are having to adapt to. Our ability to adapt in the future is 
based upon that science and technology and research. So I would 
appreciate your continued look at that also.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And, Mr. Secretary, welcome back. You have got a few more 
weeks under your belt from the first time you were here before 
the committee.
    And it is always good to see you, General Pace. Thanks for 
all your work.
    I think, although you weren't here, Mr. Secretary, in the 
last days of the 109th Congress--because I know there have been 
a number of comments made about the military construction part 
of the appropriations.
    I just wanted you to know and the record to reflect that we 
worked very hard with our Republican colleagues, urging them to 
please pass the appropriations for military construction, 
because kicking it into the 110th, we were very concerned about 
a continuing resolution. And that is where we are today.
    But I am also confident that we are going to be able to 
fully fund the MILCON part of the process. Especially because, 
a couple of weekends ago, I was, along with the chairman, part 
of the delegation that went with Speaker Pelosi, where we 
actually met with some of the troops. And part of those troops 
were the 1st Cavalry.
    And I made mention to the delegation, these are the 
soldiers that are not going to have a place to go back to if we 
don't pass the military construction part.
    So I know everybody is very, very focused on that. And I 
believe that we will.
    Secretary Gates. Can I just say very quickly, Mr. Reyes----
    Mr. Reyes. Yes.
    Secretary Gates [continuing]. That I had the opportunity, 
during courtesy calls on both the Democratic and Republican 
leadership of the Senate last week, to raise this issue? And I 
found that they all took it seriously and are all looking for a 
solution.
    Mr. Reyes. Absolutely. It is vitally important, from my 
perspective.
    I was going to ask each of you to comment in a couple of 
different areas.
    First of all, you have now had a few weeks to see, after 
the President's plan has been implemented, as the ranking 
member made mention--and so I would like your assessment, Mr. 
Secretary: How is al-Maliki doing, from your perspective, to 
date?
    And then, General Pace, we worry about our troops in 
Afghanistan because they have always been concerned that they 
have been forgotten. And that is vitally important. If you 
could address Afghanistan this morning, I would appreciate it.
    So, Mr. Secretary.
    Secretary Gates. Sorry, just give me a key word again.
    Mr. Reyes. Just how is Maliki doing?
    Secretary Gates. Oh, how is it going? I have got a report, 
first of all, that the Baghdad security plan--that the 
implementation was supposed to begin, actually, on the 5th of 
February. My guess is it is going to be a rolling 
implementation; not, sort of, all at once.
    According to the report I received the day before yesterday 
from General Casey, the brigade that was supposed to show up at 
a certain time did show up.
    I was concerned, and said so in a press conference last 
Friday, that it was only at 55 to 60 percent of strength. But 
he said in his report that 25 percent of that brigade actually 
was on formal leave to take their pay home. So he thought that 
the turnout actually had been better than expected: about 85 
percent of the manpower, as far as he could tell.
    The Iraqis, so far, have fulfilled the commitments they 
made in terms of appointing a military governor of Baghdad. And 
the initial reports on him are positive. He seems to be serious 
and professional and authorizing attacks or operations in all 
parts of the city. He has been balanced in terms of going after 
the different sectarian areas where there is a lot of 
lawlessness. The two commanders, the Iraqi commanders on either 
side of the river, have been appointed.
    So I think his short hand would be, so far, so good.
    But I have indicated we are putting together some 
checklists and matrices, and we have agreed with the chairman 
to brief the committees. And we think that, you know, we are 
all in this together and we want to share with you our 
evaluation as this thing rolls out in terms of how these guys 
are doing.
    I might just say, in terms of Afghanistan, that I was just 
there a couple of weeks ago, and that was one of the reasons 
for the decision to extend the 10th Mountain Division as the 
82nd is still coming in, to have a plus-up.
    One of my concerns coming into this job was, in fact, that 
Afghanistan might have been neglected somewhat.
    General Pace. Sir, Afghanistan: Our troops are serving 
extremely well. There are about 50,000 troops all total from 
all nations. About half of that, about 25,000, are U.S.
    As the secretary said, as we get ready for what is the 
annual spring offensive, we have increased the number of troops 
that are available for the foreseeable future.
    We had two combat brigades. We now will have there combat 
brigades to see our way through what we expect to be a surge in 
events probably beginning about the end of March.
    The Chairman. I thank the gentleman.
    The ranking member, the gentleman from California, Mr. 
Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And, gentlemen and Ms. Jonas, thank you for your endurance. 
This has been a healthy hearing.
    Let me make a comment or two about comments that have been 
made about the mental health of the soldiers and Marines that 
are returning.
    I think in the context of a concern about their health, it 
is important to be reminded that the best and brightest of our 
young people, in fact, do go into the military.
    And generally, typically, they have a number of 
requirements. Among those is to be absolutely drug-free, which 
is a very difficult requirement to meet now with employers on 
the civilian side with respect to new accessions.
    I am reminded when I was in Balad with the gentleman from 
Texas, Mr. Reyes, and we had a couple of mortars come in just 
as we arrived and the general made us get inside the building 
very quickly. It was a movie theater.
    We walked in and there were 400 G.I.s with their battle 
gear at their feet, having a Baptist church session. It was 
Sunday.
    And they had, I think, a choir of about a hundred folks on 
the stage.
    First time, I think, in history, where Congressman were 
forced under gunfire to go to church and to stay.
    And we got to sit through the sermon, which was how you 
keep your family together while you are in the military.
    And I was impressed with the normalcy, the even-temper, the 
deliberate confidence of our people in uniform, and I was 
reminded as I listened to my colleagues talk about their 
concern for the mental health of our soldiers and Marines that 
the people that I have known in this country who have been the 
coolest, the calmest, the most effective in civilian life, long 
after they leave the military were interestingly people who had 
been in fairly intense combat.
    And I have seen a lot of the great people whose character 
has been improved by service in the U.S. military, and that has 
occurred to the benefit of our country.
    Second point. It is in our interest to extend freedom. It 
is certainly in our interest to have an ally--for example, 
Japan, we stood up and defended and gave a new government after 
World War II so that we would have a democratic ally with a 
strong economy on that side of the Pacific.
    It is in our interest to have an El Salvador that is a 
friend and ally in Central America, that we shield it from the 
National Liberation Party (FMLN), from the Marxist guerrillas, 
stood up a free government there.
    It will be strongly in our interests to have a free Iraq 
that is capable of protecting itself and being an ally of the 
United States, not an adversary, and not be a state sponsor of 
terrorism in the decades to come.
    We are on what I would call a second phase of the three-
phrase blueprint that we have used for 60 years in extending 
freedom around the world. One, you stand up a free government. 
Number two, you stand up a military capable of protecting that 
free government. Number three, the Americans leave.
    And we are now on the second phase, which is most 
difficult. That is, standing up a military that is going to be 
capable of protecting this free government.
    The Iraqi army is comprised of 129 battalions at this time. 
Well, I understand up a few additional battalions every several 
months.
    A number of the battalions, I am led to understand, about 
50 percent of the battalions have been rotated into combat 
operations. In some cases that is a function of where they are 
stood up, where they are assigned. If they are in the Sunni 
triangle or Baghdad or Al Anbar province they are going to have 
more action than the guys in the other areas.
    I would think that the one thing that we can require, that 
we can demand, aside from these general goals and metrics of 
conciliation and de-Baathification and oil distribution, one 
metric which is precisely attainable and determinable is 
whether or not these battalions, these 129 battalions, have 
been given a combat rotation in a contentious zone.
    Because, as we all know, and as General Pace knows 
especially, nothing matures a fighting force more quickly, more 
effectively than actual operational experience.
    So, Mr. Secretary, I would hope you could provide for the 
committee a description of the 129 battalions, Iraqi 
battalions, with one or two sentences that describes their 
operational experiences.
    Have they been in heavy combat, for example, in Baghdad or 
the Sunni triangle? Have they been essentially in a benign 
province in a garrison-type situation? What is their 
experience?
    And what is the demand on the Iraqi Ministry of Defense to 
rotate all 129 battalions over the next year or so into a 3- or 
4-month combat operational rotation, so at the end you have an 
experienced Iraqi military which has come when called, which 
has exercised its chain of command, and which has shown some 
modicum of combat effectiveness?
    That is one thing that we can demand, that is 
ascertainable, and I think is the key to completing this second 
phase, which is standing up a military that can protect the 
government.
    Last, on the question of embedded troops, I would think 
that Iraq's neighbors--and I am thinking of neighbors that have 
helped us to some degree in terms of training schools and 
things, like Jordan, could start supplying some embedded troops 
in what I would call the benign disciplines--that is, combat 
medical capability.
    Could Jordan, for example, or Saudi Arabia or others 
provide some combat medic teams that could be embedded with 
Iraqi troops in place of American embeds after a while?
    Maybe some in the areas of communications, transportation, 
logistics and other areas, that would seem to me to be an 
embedded--a species of embedded forces that would not be a 
threat to the Iraq sovereignty or to the leadership of the 
Iraqi military.
    Could you speak to that?
    Secretary Gates. It certainly is an idea worth pursuing. 
And General Pace and I will pass it back to General Petraeus. 
And we will also pursue it with our own government. And we will 
do our best to give you the report on the 129 battalions.
    [The information referred to can be found in the Appendix 
beginning on page 125.]
    Mr. Hunter. If you could speak, are there any plans right 
now to effect this operational rotation schedule, to have one 
in effect where all of the Iraqi battalions are rotated in, 
moved in to a combat area for a three- or four-month tour?
    General Pace. Sir, your letter that you sent, along with 
several of your colleagues, to the President--you were kind 
enough to give me a copy. I got that out to General Abizaid and 
General Casey. General Casey liked the idea. He is working it 
with his Iraqi counterparts.
    Some of the units that are rotating into Baghdad right now 
from the Iraqi side to reinforce are from that list that you 
all had identified.
    A couple of points to remember--and I know you do, sir--of 
the ten Iraqi divisions, five were recruited from hometown and 
the five were recruited nationally. So you haven an 
expectation, at least in those five divisions, that they are 
for homeland defense, so to speak, and not for deployment.
    Mr. Hunter. So we would have to work with the Iraqi 
government to ensure that as they recruit in the future, that 
they recruit their entire army to be used throughout the 
country, as opposed to some of it having been recruited to be 
homeland defense.
    But, General, would that preclude them from even doing a 
three-month tour in a hot zone, so to speak? If you gave them 
combat pay and if we--I mean, if you are not going to have a 
national army, unless you have a national army that will 
respond nationally.
    General Pace. I take your point, sir.
    They are doing what you have suggested, which is providing 
to each of the soldiers that are deploying a stipend of $150 
per month. They get their first month's pay in advance. They 
get the subsequent pay when they rotate back out of Baghdad. So 
they are taking on some of those ideas.
    And we are working with the sovereign government of Iraq on 
how best to employ their armed forces.
    The Chairman. I thank the gentleman very much.
    And it does look like we are going to make it before your 
1:30 deadline.
    Dr. Snyder from Arkansas.
    Dr. Snyder. Thank you, Mr. Chairman.
    Mr. Chairman, we are three and a half hours into this. We 
appreciate you being here, because a lot of members have 
questions and concerns.
    I want to just make two or three quick comments and a 
couple of questions.
    I know when the President made his decision on this new 
plan, there was a lot of discussion about levels of troops. And 
you had a variety of suggestions, from probably no increase to 
substantially more than the 21,500 that was settled on.
    One of the concerns I have had is that while if you are one 
of those 21,000 troops it is a huge impact on you and your 
family, but in terms of the percent increase--and given the 
size of our military and the size of the number of troops we 
have in Iraq and what has occurred before, it is a fairly small 
percentage.
    But I appreciate, General Pace, in your opening statement, 
you focusing on some of the things that this committee hasn't 
focused on, that Congress hasn't focused on, that you have been 
asked about several times, this interagency cooperation.
    There was discussion about some kind of Goldwater-Nichols 
act to deal with this kind of stuff. We don't have several 
years to do that.
    My fear is that we will make these kinds of statements, and 
then it get lost again and we will be dealing with these same 
kinds of issues we have had these last several years of how to 
deal with other issues in terms of the economic development, 
the redevelopment, the diplomacy which has not been there in 
the view of a lot of people to support the work that the troops 
have done.
    With regard to Defense health care, the issues that Mr. 
McHugh mentioned about three hours ago, this line from the 
Defense health program as part of the budget, ``In fiscal year 
2008, this budget includes $1.862 million in proposed assumed 
savings, which assumes enactment of a $719 million legislative 
proposal and additional regulatory modification, requiring 
further study and a recommendation to be made by the Department 
of Defense task force on the future of military health care.''
    I have met with the leadership of that health task force. 
Their final report is not even due until December of this year. 
They have no expectation that their job is to find a 
recommendation on which you all can base savings in the health 
care budget.
    So we need to be sure that we understand what their 
legislative or statutory mission is, and it was not 
specifically to find savings for this year's defense budget.
    The specific question I want to ask about the budget, 
following up on what Mr. Ellsworth was talking about--he has 
the Crane Naval Warfare Center in his district in Indiana, 
which does research.
    And I passed on to Ms. Jonas there, page 53 from the 
analytical perspective--talks about the science and technology 
(S&T) budget--and it shows for defense that basic research is a 
proposed cut of 9 percent, and applied research shows a 
proposed cut of 18 percent.
    I don't understand, as we think that our edge, militarily, 
is technology, and our ability to stay ahead of competitors out 
there, why we would propose a cut at this magnitude and they 
are both basic and applied research budget and the defense 
budget.
    Ms. Jonas. Thank you, sir.
    As you pointed out, we have got about $10.8 billion 
associated with our S&T program and we have--that is down 
slightly from the enacted--the projected enacted level last 
year.
    These accounts are somewhat thrown off by the fact that, 
particularly in the Army area, a lot of the member requests and 
ads are put into those accounts. It is all important, I 
understand.
    But it is down. We had----
    Dr. Snyder. I will run out of time. I hope that is 
something you will look at----
    General Pace. Yes, sir.
    Dr. Snyder. Because technology research budgets tend to 
have a higher inflation rate than other aspects of American 
life and so that can be a significant cutback in actual people 
doing work.
    Secretary Gates. Mr. Snyder, I might just say very quickly 
that as the former President of a large research university, 
this is a subject of great interest to me and I will look at it 
personally.
    [The information referred to can be found in the Appendix 
beginning on page 126.]
    Dr. Snyder. Revisit that issue if you would. That would be 
great.
    The issue has come up on procurement. Again, General Pace, 
you mentioned that in your opening statement, your written 
statement. One very specific issue I want to ask. It came out 
of Goldwater-Nichols. It was considered a reform for the 
service fees to be removed from the chain of command when it 
came to procurement projects.
    So your chief of naval operations plays no role in 
overseeing the construction of a vessel, despite cost overruns 
or whatever is going on.
    Is it time, General Pace, to revisit that issue of the 
service chiefs being in the chain of command when it comes to 
procurement?
    General Pace. It is time, sir.
    Dr. Snyder. Is there a way to do that in a way that we can 
take off a bite-sized morsel of that, perhaps in this year's 
defense bill, without screwing up the whole rest of the 
picture? Or do we have to sit back and say we have got to 
revisit the whole procurement system before we can look at that 
issue?
    General Pace. Sir, I think you should simply remove the 
prohibition on the service chiefs being involved in the 
process.
    When things go off-track, you hold them accountable, but 
you don't give them any way to be able to exercise any 
authority over that process.
    Dr. Snyder. Mr. Secretary, if you all have any suggested 
language on how to deal with that, I think that is something 
that we ought to look at.
    This came about--you know, Goldwater-Nichols revisited Mr. 
Hamre's commission from a year or two ago.
    Secretary Gates. We will come back to the committee on 
that.
    [The information referred to can be found in the Appendix 
beginning on page 126.]
    Dr. Snyder. That would be great.
    Mr. Secretary, with regard to the end-strength, we had a 
hearing before the Subcommittee on Personnel a week ago on how 
we came up with the 92,000 number.
    Now, at this current point, 28,000 of those 92,000 are in 
uniform today, because of the temporary increase. So what we 
are talking about is an actual additional number of about 
64,000 of additional troops that you would have at the end of a 
5-year period. It is a fairly modest increase on an annualized 
basis.
    We had trouble, on the committee, determining how that 
number was arrived at and in terms of scenarios and 
assumptions. And Mr. Kline had an excellent question, which 
was: What assumption is made with regard to the level of 
deployment of reserve component troops?
    My question is--this is the broad one: Are you satisfied 
with the process of evaluation that arrived at--granted that 
there were different processes for the Marine Corps and the 
Army--are you satisfied with the processes that arrived at the 
number 92,000?
    Secretary Gates. Yes, sir, for this reason: The number that 
came to me was really a general agreement that we needed to 
increase the end-strength of the force. Everybody agreed that 
the best way to do that was first to make the 30,000-person 
increase, temporary increase that you all had authorized, 
permanent, and then, over a 5-year period, to add 7,000 a year 
to the Army and 5,000 a year to the Marine Corps.
    The reason they came up with those numbers was, as I 
understand it, was that was the number they thought they could 
recruit while sustaining the quality of the force and in 
connection with direction to them to minimize the use of stop-
loss.
    So those are how the numbers were come up with. It is not 
as high as the original number put forward by General 
Schoomaker, but the idea was that there could be off ramps or 
on ramps, depending on what international circumstances were.
    The Chairman. I thank the gentleman.
    The gentlelady from California, Ms. Tauscher.
    Ms. Tauscher. Thank you, General Pace----
    The Chairman. May I interrupt just a moment, Ms. Tauscher?
    I am going to call on those that have not yet asked 
questions, and I will not be going back and forth, if that is 
agreeable with the minority.
    Ms. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    General Pace, Mr. Secretary, Ms. Jonas, thank you for 
appearing before us. I have two sets of questions. One is 
regarding C-17s and the other is the cost of war. I am proud to 
represent Travis Air Force Base, the home of the Air Mobility 
Command.
    And, you know, at a time when we have somewhat of an 
airlift crisis and the need to project forces--and, obviously, 
our military operations not abating, there are no funds in the 
budget request to purchase any additional C-17s.
    So I would like you to address that if you could.
    And regarding the cost of the war, the President's budget 
included three major requests, as you know. The main baseline 
budget request for $481.4 billion in discretionary spending. 
Then there was the additional $93.4 in fiscal year 2007 
supplemental funding to cover the remaining unfunded war costs. 
And then there is the additional bridge fund. Which puts the 
war, I guess, about $163.4 billion in fiscal year 2007.
    Then we have got the $141.7 billion to cover the war costs 
anticipated in fiscal year 2008. That brings the total budget 
request to $716.5 billion, with $235.1 billion just for war 
costs.
    I just want to know how do I separate out the cost of the 
surge. Do you have a cost for the surge? And what do you expect 
our force levels in Iraq to be at the end of December of 2007?
    General Pace. C-17 is a great aircraft. And as you know, 
ma'am, the analysis was that we needed 180 of them, plus the C-
5 fleet that we have.
    We have been using the lifespan of the aircraft faster than 
we had intended, flying more hours per year than were 
programmed.
    Based on that, as you know, we asked for money last year in 
the supplemental to buy, I think it was an additional two or 
three. Congress gave us ten. And our estimate is that with that 
amount given to us already and the need to maintain 180, that 
for now the pot is about right on the air fleet when you add in 
the C-17s, the C-5s, some of which we are not allowed to 
decommission, and the availability of civilian aircraft.
    Secretary Gates. There is $5.6 billion in the budget for 
the surge. We have no money in the fiscal year 2008 war on 
terror addition.
    Our estimate for the force costs in the global war on 
terror for the size of the force in Iraq is premised on 140,000 
troops in Iraq and 20,000 in Afghanistan. And what we have 
provided is essentially a straight-line projection from today's 
costs.
    And so it is caveated with the fact that obviously what 
happens on the ground is going to make a big difference either 
up or down.
    Ms. Tauscher. If I can just comment on the C-17 piece of 
it. We know we are going to need more C-17s. I take 
responsibility with a couple of my other colleagues for goosing 
up the number up to ten in last year's budget because the cost 
to the American people for C-17s that we may not admit we need 
now but we will eventually authorize and appropriate is going 
to be much higher than it would be if we ordered them today or 
prepared to order them today because the company building the 
C-17s is going to make the line cold.
    Ms. Jonas. And what our attempt was to do was to kind of 
feed demand to keep the line warm so that the average price in 
the future for the American people is more reasonable than it 
would be if we didn't have any future appropriations.
    So I would ask for some consideration of the fact that it 
is going to cost us some money to keep this line warm. We 
certainly know our NATO allies are looking at acquiring four C-
17s, which is great for interoperability and for many other 
reasons.
    So I hope that we will continue to look at keeping that 
line warm.
    Ms. Tauscher. I appreciate it. Thank you.
    The Chairman. I thank the gentlelady.
    I might ask the witnesses--we may rub a few minutes past 
the 1:30 deadline, but I think we are going to make it. But 
there are only four questioners left, and I hope that you would 
bear with us in case we do go over just a few moments.
    Secretary Gates. Four will be just fine, Mr. Chairman.
    The Chairman. Mr. Andrews, New Jersey.
    Mr. Andrews. Thank you, Mr. Chairman.
    I thank the panel for their indulgence and endurance this 
afternoon.
    Mr. Secretary, in fiscal 2007, which we are now in, and 
fiscal 2008, the money actually outlaid and proposed for 
training and equipping of troops and police in Afghanistan and 
Iraq adds up to $17.6 billion.
    Your testimony indicates that we have more than 300,000 
soldiers and police trained and equipped in Iraq. And I believe 
the number in Afghanistan was now up to 88,000.
    How many people in Iraq, how many police and security 
forces in Iraq, will be trained in fiscal 2007 and in fiscal 
2008?
    Secretary Gates. In terms of the actual numbers, I will 
have to get that for you, sir. I don't know off the top of my 
head.
    [The information referred to can be found in the Appendix 
beginning on page 127.]
    Mr. Andrews. Let me ask you if you could just give us an 
estimate. Of the 300,000 Iraqi police and security forces that 
will be deployed in fiscal 2008, do you have an estimate of how 
many were--would be trained in fiscal 2007 and 2008?
    General Pace. Sir, the delta between the current strength 
of 328,000 and 362,000 will be trained in 2007. And then you 
have the normal cycling out of individuals who completed their 
term and new recruits coming in who will be on a recurring 
basis trained like we do our own Army. I will have to get the 
exact numbers. I don't know what those are, sir.
    Mr. Andrews. Ball park, is it a third of them be trained in 
2007 and 2008?
    General Pace. Sir, I don't know. I don't want to guess.
    Mr. Andrews. Here is my concern. If you assume that Iraq is 
absorbing about 70 percent of the training costs, because it is 
about 70 percent of the personnel, and if you assume that every 
single one of those police and security forces were trained and 
equipped in fiscal 2007 and 2008, it costs $42,000 per trainee.
    Now, I assume that is not the case that some fraction of 
the 300,000, if it is half of them, it is costing us $84,000 
per trainee. If it is a third, it is costing us $132,000 per 
trainee.
    Do we know how much it costs to train and equip an Iraqi 
Security Force member per trainee?
    Ms. Jonas. We don't have a per capita calculation. We can 
get that for you, sir, for the record.
    Mr. Andrews. I don't mean to be combative in the question. 
I am a little disquieted that we have spent, I guess, $50 
billion of taxpayers' money and we don't readily have an answer 
to the question how much we are spending per trainee.
    If I asked the chief of police in my home district how much 
he or she is spending per trainee, I would expect them to have 
that answer pretty quickly.
    Do you have an estimate how much it is?
    Secretary Gates. I don't, sir, no.
    Mr. Andrews. Understand that part of the problem here is 
this growing skepticism of the members of the public and of the 
committee about whether this training is effective at all.
    And here is the devil's advocate proposition I would make 
to you: There are people who believe that the reason the 
effectiveness of the Iraqi security forces has been erratic at 
best--others would characterize it as very poor--is that the 
problem really is not the training; the problem is the 
loyalties of the troops--to whom they are loyal; that their 
principal loyalties are to their tribe or their sect or their 
warlord as opposed to the Iraqi government.
    One of the ways that I think you could dispel that argument 
would be to say that, you know, that we are effectively 
training people. But it is hard to dispel the argument if you 
don't have some specific information on the cost.
    What does it cost to train an American soldier, a G.I. in 
the U.S. Army? What does it cost to train and equip him or her?
    Ms. Jonas. We can get that for the record, sir. The----
    Mr. Andrews. You don't know that either?
    Ms. Jonas. The cost for salaries is about $120,000. There 
are substantial costs associated with equipping----
    Mr. Andrews. But the salary costs are not included in the 
Iraq and Afghanistan. That is training and equipped.
    Ms. Jonas. That is right.
    Mr. Andrews. What does it cost to train and equip a U.S. 
soldier?
    Ms. Jonas. We can get that total for the record. But a fair 
amount of that, probably half of that, is to equip.
    Mr. Andrews. In our case?
    Ms. Jonas. Yes.
    Mr. Andrews. Yes. Okay.
    The other question I would ask you, just for the record to 
submit, is a detailed year-by-year breakdown, in both Iraq and 
Afghanistan, of the number of persons who have entered 
training, the number of persons who have successfully completed 
training, the number of persons who have taken the off-ramp for 
whatever reason, and how much on a per capita basis we have 
spent in both Iraq and Afghanistan, in both the security forces 
and the police.
    Thank you very much.
    [The information referred to can be found in the Appendix 
beginning on page 127.]
    The Chairman. You know, I find it rather interesting that 
you don't know the answer to those questions. That is bottom 
line. But it concerns me a great deal, that that is a very 
elementary question that Mr. Andrews put.
    The next gentleman, Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    The Chairman. Excuse me, Mr. Larsen.
    Ms. Davis, Mr. Taylor and then Mr. Abercrombie, and we are 
going to squeeze you all in.
    Go ahead.
    Mr. Larsen. Mr. Chairman, I have actually submitted some 
questions for the record. So I am not going to take anywhere 
near my five minutes.
    I just want to highlight for the secretary, there is a set 
of questions about China and the anti-satellite tests, the 
impact on some of the decisions that were made in the budget.
    And so, those are for the record, and I look forward to the 
responses.
    And for the chairman, in your testimony, you discuss on 
pages 8 through 10 some of the interagency coordination ideas, 
including expansion and extension of Sections 1206, 1207 and 
1208, as well as a national security initiative fund. And I 
have questions for the record, as well, on those.
    And I would look forward to getting some information back. 
Once I get those back, perhaps I can do some follow-up.
    But rather than have you--rather than break your stride on 
Iraq, I will just leave those questions for the record and look 
forward to your responses.
    Thank you, Mr. Chairman, and yield back.
    The Chairman. I thank the gentleman.
    I might mention to our witnesses that we would hope that 
responses can be very timely, as in the past some have been 
very, very, very slow getting back. And I would appreciate that 
very much, getting back to us on that.
    The Chairman. Ms. Davis of California.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    Thank you to both of you, really all of you, three of you, 
for being here.
    I wanted to go back, perhaps, my colleague who was saying 
he is going to leave on the table on the interagency 
collaboration ideas and what you have laid out. But I wanted to 
go back to that for a second, because I know that, Secretary 
Gates, you said earlier in the testimony that probably no one 
has more experience with the National Security Administration 
and the other agencies to have an overview of this and what you 
would like to see it achieve.
    And I wonder, going into the budget, you may not have 
intimate knowledge, but are we really funding that in a way 
that is appropriate, number one.
    And number two, do we have the expertise to really call on 
people? The whole effort in Iraq, as I understand it, is going 
to be dependent on the provisional response teams there and 
what they are able to bring to the table. We know from many 
articles, journalists, that we obviously did not have that 
ability in the Green Zone or out in the communities. We used 
people who had great desire, I think, to be part of the 
process, to make a contribution, but unfortunately didn't have 
the expertise to do it.
    Where are we going to get those people? How are we going to 
fund them? Are we giving them additional bonuses to do that? 
What is that going to mean in terms of our overall effort? Do 
you have some funding levels to share with us and are you 
satisfied with them?
    Secretary Gates. I think that the State Department has come 
in with a request for funding for ten or so additional 
provisional reconstruction teams. The initial request, because 
we want to stand them up quickly, is that the Department of 
Defense provide from the National Guard and elsewhere people 
who have the engineering expertise, the legal expertise and so 
on. And we will try to be as helpful as we can in that because 
we think it is important.
    But the reality is that I think that in terms of the 
government's ability to respond, that we need to work with the 
Congress to figure out if there is a way to bring greater 
flexibility, first of all in terms of being able for us perhaps 
to transfer money to another department of government, to be 
able to pay for or help with the expenses of somebody who is 
being dispatched to a war zone from the Department of 
Agriculture or something.
    One of your colleagues has suggested in another forum the 
possibility of legislation that would create expeditionary 
positions in some of these departments where they would get 
military-like pay and benefits so their families would be taken 
care of.
    If a 40-year-old man with a family in the Department of 
Agriculture is willing to volunteer to go to Afghanistan to 
help out, then how do we compensate him in a way that is 
different than somebody that rides a desk here in Washington, 
D.C.?
    So there are several ideas on the table that I think we are 
just going to have work----
    Ms. Davis of California. Could you share with me, Secretary 
Gates--because I think what is so frustrating is these are--we 
all see that this is an important thing to do.
    And perhaps, General Pace, you can answer this better.
    Did we not think about that? Did we not know that we are 
going to need people who could bring that kind of expertise to 
the effort?
    I know that as a military commander, surely, you share with 
others that the fall--burden of this has fallen, really, on the 
military.
    Where did we miss this?
    General Pace. Ma'am, A, we have thought about it. This is 
not the first time I have had the opportunity to address it in 
my testimony to this committee and other committees.
    It boils down to taking a look at the laws of the land and 
seeing what the impediments are to being able to deploy so that 
when we have somebody--when we have someone from Treasury or 
from wherever else in our government, that that individual is 
able to be deployed, that the job description includes being 
deployed, that the compensation includes that, that the 
education includes it, that the health care and the benefits to 
his family.
    In other words, all the things--in the time I have, two 
quick ideas.
    One, take what we do for our military and see how those 
benefits, as we deploy, might apply to civilians in the rest of 
our government.
    Two, take the Goldwater-Nichols Act and see how each of the 
elements of Goldwater-Nichols might apply to the interagency 
process in our government. That requires a collaborative effort 
amongst the departments in the government and the Congress to 
determine what the best way ahead is.
    We do need this, not just for this conflict, but for the 
next 10, 20 years as a government to be able to do these things 
for our Nation.
    Ms. Davis of California. It is long-term----
    General Pace. I would just put in a pitch. The State 
Department needs significant additional funding.
    Ms. Davis of California. Thank you.
    The Chairman. I thank the gentlelady.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Secretary and General, for 
sticking around so long.
    And, Mr. Secretary, I do want to thank you for taking on a 
very difficult job. But, going back to your very eloquent 
statement about us making mistakes in short-term funding that 
have long-term implications, I see you repeating it. Your 
budget proposal for shipbuilding is pathetic. You count on 
seven vessels. I will combine that with the trend in the Navy 
to retire ships at about 20 years. That means the legacy of the 
Bush Administration will be a 140-ship Navy. That is crazy.
    And, you know, I wish I could say that, well, we are doing 
things short term to make up for the fact that we are not doing 
things long term. But then I look at an inspector general 
report that came out just yesterday covering the DOD from 
February to October that said the units deployed in Afghanistan 
and Iraq are experiencing shortages in up-armored vehicles, 
electronic countermeasures devices, crew-served equipment such 
as .50 caliber machine guns and communications equipment.
    Servicemembers driving off base in Afghanistan in SUVs and 
Ford Ranger trucks were using unarmored wreckers to recover 
vehicles, wrapping the drivers in Kevlar blankets to afford 
them some level of protection.
    So we got horrible problems at the top, we have horrible 
problems on day-to-day operations. Your LCS program, which is 
three of these seven ships, is so screwed up that you ought to 
be hiring Michael Brown as its spokesman because, quite 
frankly, he is as screwed up as that program is.
    And, no, I am dead serious. So what I am going to ask of 
you--I realize you inherited this budget. This budget was 
written before you became secretary of defense.
    What I am going to ask of you, as someone who really does 
want to see this Nation build some ships and restore our 
maritime might, is that a reasonable request to give you 60 
days to look at this request and to come back with something 
that really does meet our Nation's long-term needs, because 
this doesn't.
    Is that a reasonable request?
    Secretary Gates. All right, sir. I would tell you that the 
two figures that stick in my mind, though, were--at the level 
where I was looking at this--was the fact that we had $177 
billion in the budget for modernization: $101 billion of that 
is for procurement; $76 billion for research and development.
    I know, on the LCS, that we have put a stop-action order on 
the third ship because of the problems in the program, to 
evaluate and see where we go from here.
    I also know that, on shipbuilding, we went from a little 
over $11 billion last year to over $14 billion this year. So 
those trend lines seem in the right direction to me, at the 
macro level.
    But I will certainly take a look at what you request.
    Mr. Taylor [continuing]. You do have a stop order on the 
LCS but you are counting on them for three vessels--so that is 
not accurate. You have them budgeted at about $300 million a 
piece. Well, heck, the first one is running better than $500 
million by itself.
    And so, you know, I know you are new on the job and I know 
you inherited this, but none of us are going to get anything 
done if we are not honest with each other. And we are certainly 
not going to reverse the horrible trend in shipbuilding where 
the fleet is about 60 ships smaller than when George Bush took 
office if we don't start trying to turn around.
    Again, you are walking into this, but the experience has 
been, ``Well, we are going to shortchange it this year, but we 
will get well next year.'' They have been saying that for seven 
years now. And, I mean, it is time to turn that around.
    The second thing I would ask: I am absolutely convinced, 
since you did want to talk long term in your budget, that the 
Achilles' heel of the American military is fuel. And what I 
don't see in your budget is a serious attempt to lessen our 
dependence on foreign oil.
    One of the ways we could do that is with the next 
generation of cruisers. Why aren't we looking at a nuclear-
powered cruiser? They did it in the past. All the reasons that 
made sense when Admiral Rickover came before this Congress in 
the 1960's still make sense today, except that we are importing 
more oil now than then.
    It reduces your heat signature from a heat-seeking missile. 
You do not have to refuel. But above all, if the future of 
naval weapons is energy-directed weapons, why not build a ship 
that has enough power on it for not only this year and next 
year, but for the next 30 years, so that we are not retiring 
those ships 15 years from now because they didn't have adequate 
power to take care of the radars, the telecommunications 
equipment and the energy-directed weapons that we know are 
going to be coming down the pike?
    Secretary Gates. Fair question.
    Last question?
    Mr. Taylor. What would be your--I am very much in favor, 
based on what I saw happen in Mississippi after Hurricane 
Katrina and the great job the National Guard did in responding 
to that, and knowing that if there is an attack on the 
homeland, it is going to look a lot like that. I think the 
proper response to that is to elevate the chief of the National 
Guard Bureau, who we are going to be counting on to respond to 
something like that, to a four-star status and having him a 
member of your Joint Chiefs of Staff.
    What would be your reaction to this bill that has already 
been introduced by a number of senators and a number of 
congressmen?
    Secretary Gates. I have a problem with elevating the head 
of the Guard Bureau to the Joint Chiefs of Staff because of 
unity of command issues, but I am very open to the possibility 
of a fourth star for the head of the National Guard Bureau. I 
think, looking at the responsibilities--and I have asked the 
Joints--we have the commission that is under way right now, 
looking at the National Guard.
    I have asked the Joint Staff to look at this and make their 
recommendations to me. But my inclination is in the direction 
of a four-star.
    Mr. Taylor. Thank you.
    The Chairman. I thank the gentleman.
    The gentleman from Hawaii, Mr. Abercrombie.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Just to follow up, Mr. Gates, on that last point, you might 
want to consider getting rid of the Northern Command in the 
process.
    Right now, the Northern Commander, which was jerryrigged to 
begin with and pulled out of all the other commands, in terms 
of personnel, also wears another hat. The National Guard is 
supposed to take care of that. So when you take up that 
question, I hope you will take up getting rid of that useless 
command.
    Now, following up on Mr. Andrews' approach, I can tell you 
that the budget put forward for Iraq in the next year and a 
half, with the supplemental and the 2008 budget, is $800 for 
every man, woman and child in the United States--$800 for every 
man, woman and child in the United States.
    And the people who are trained or not trained or trained to 
whatever degree they are, are now going to be involved in this 
activity in Baghdad.
    Now even somebody who supported this surge, General Keane, 
former Army vice chief, indicated, and I am going to quote 
here: ``It actually risks the success of the operation, 
speaking of the ad hoc command arrangements that are there.''
    General Pace, can you tell me who is in charge of making 
decisions and giving orders in Baghdad today with the plan for 
this as it unfolds for this surge, which started, I believe on 
the 5th?
    General Pace. On the Iraq side is Lieutenant General Abboud 
and on the U.S. side is General Casey, sir.
    Mr. Abercrombie. That is not what I am speaking of. Who is 
in charge at the ground level, right down there in the police 
stations, when the decision has to be made?
    General Pace. If at the police station, where the Iraqis 
have the lead, the Iraqis are making the decisions, but that 
will not impact what U.S. forces do or don't do. U.S. forces 
will be under U.S. command.
    Mr. Abercrombie. How can it not? We are talking about the 
decisions made in the field right now. The Mahdi checkpoints 
have been withdrawn. They are the ones that kept the peace 
there in the area. They are the ones who checked the people 
coming in and out. They have been withdrawn. Who is in charge? 
Who makes the decision?
    General Pace. Sir, the Iraqis are in the lead and we are in 
support. And our U.S. commanders will make decisions about what 
U.S. troops will do.
    Mr. Abercrombie. So if an Iraqi sergeant says, ``This is 
where we are going,'' the Americans follow. Is that correct?
    General Pace. No, sir, that is not correct.
    Mr. Abercrombie. Then how is it going to work?
    General Pace. Sir, it is going to work this way: The Iraqi 
commander will decide what he wants to do. He will go do it 
with Iraqi troops. If they need support, he will ask his 
embedded U.S. support team for that support. The American 
commander will decide whether or not that support is 
appropriate and he will decide whether or not it is available.
    Mr. Abercrombie. You say an ``American commander,'' is it 
an American sergeant talking to an Iraqi sergeant----
    General Pace. No, sir----
    Mr. Abercrombie [continuing]. In the field going door to 
door?
    General Pace. Sir, there will not be that kind of teams 
going door to door. There will be Iraqis going door to door 
under Iraqi command. If they get in trouble, the U.S. Army or 
U.S. Marine captain who has his company available to support 
will be requested by the U.S. embedded team to provide that 
support. And then they will decide whether or not that support 
is appropriate and if it is, whether or not they can provide 
it.
    Mr. Abercrombie. When you say ``support,'' will they be 
back at the police station waiting?
    General Pace. They will be either at the police station 
waiting, sir, or in other assembly areas in the area.
    Mr. Abercrombie. Well, that gets us to the point of 
equipment. Then are we sharing equipment as in American 
equipment with the Iraqis? And is that accounted for in the 
budget that is proposed?
    General Pace. The Iraqis have 98 percent of their equipment 
already, sir, provided through December of last year--98 
percent. There are a few vehicles that are not yet delivered to 
the Iraqi army.
    Mr. Abercrombie. Does that include the radio 
communications?
    General Pace. It does, sir.
    Mr. Abercrombie. So everybody has an interpreter?
    General Pace. Oh, no, sir. No, sir. Physical radios, yes. 
Interpreters--we do not have enough interpreters.
    Mr. Abercrombie. Then how are they going to communicate?
    General Pace. The embedded teams that are with them have 
interpreters, sir, but not every single Iraqi patrol or U.S. 
patrol is going to have embedded. The teams that are co-located 
have interpreters, sir.
    Mr. Abercrombie. But how is it going to work in the 
operational level in the squads where they are going to be most 
at risk to be shot or to have to make decisions about shooting 
if you can't talk with one another?
    General Pace. U.S. squads will be inside of U.S. platoons, 
will be commanded by U.S. company commanders.
    Mr. Abercrombie. And you really think this is going to 
work----
    General Pace. Sir, it is not clean. It is not easy. It is 
not pure. And there are going to be difficulties, and there are 
not enough interpreters. But it is an Iraqi lead, and we are 
trying to support. There are not enough interpreters.
    Mr. Abercrombie. Is it fair to say you have parallel lines 
of authority?
    General Pace. Yes, it is, sir.
    Mr. Abercrombie. Okay.
    Audience Member. You could try a cease-fire.
    Mr. Abercrombie. How long do you expect that this will 
work? I mean, how long will it take to know whether you are 
accomplished your mission in these nine different areas?
    General Pace. We should start seeing results in March-April 
timeframe, sir, to know how well the operations are going.
    As you recall, I have said many times and will continue to 
say that the military piece of this is one leg of a three-
legged stool. And no matter how well or how bad military 
operations go, they will not be successful without the 
political and economic pieces of the stool.
    Mr. Abercrombie. I understand. But what kind of a 
timeline--can I finish that?
    The Chairman. Answer the question, please.
    Mr. Abercrombie. What kind of timeline are you giving for 
this operation to transition to what you just mentioned about 
political and economic?
    General Pace. Sir, we expect the military piece to be 
providing results in months.
    Mr. Abercrombie. Before the start of the fiscal year?
    General Pace. If I can talk to you--I will be happy to have 
a very direct conversation with you, sir. I do not want to be 
telling our enemy publicly when it is we are going to stop or 
not stop operations. I would be happy to tell you face to face.
    Mr. Abercrombie. Thank you.
    The Chairman. I thank the gentleman.
    It is interesting to note that Prime Minister Maliki, 
basing his comment--and I think he proceeded by saying 
something to the effect, without political risk--and he told 
our group this, a large group this--that should he get all the 
necessary equipment, training and the like, we could begin 
allowing our troops to leave in three to six months, which was 
the first time he had said that in a forum.
    Mr. Secretary, before we let you go, bottom-line question: 
I don't like to use the word ``surge,'' but it has been used so 
much by the media and by other folks, but it is really a troop 
increase. And it is based, also, upon the Iraqi government 
living up to certain commitments.
    What if this doesn't work? What are the alternatives for 
this country?
    Secretary Gates. I have said, Mr. Chairman, that I don't 
think this is the so-called last chance. I think that I would--
as I said, we hope this will work, we are funding it to work, 
we are resourcing it to work, we are sending the troops 
forward.
    But I would be irresponsible if I did not have people 
looking at contingencies in the event this does not work and 
if, in two months or so--the three months or whatever period of 
time--people turn to me and say, ``Okay, now what do we do?''
    So we are working on those. And I would be happy to discuss 
those with you in person.
    The Chairman. Let me thank each of you for being with us 
today. We stretched your 1:30 deadline by a few minutes. But 
thank you for your answers, your direct answers and your 
comprehensive answers. We do appreciate it, and we look forward 
to seeing you again soon.
    Thank you very much.
    Secretary Gates. Thank you, Mr. Chairman.
    General Pace. Thank you, Mr. Chairman.
    Ms. Jonas. Thank you.
    [Whereupon, at 1:45 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            February 7, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 7, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8136.001
    
    [GRAPHIC] [TIFF OMITTED] T8136.002
    
    [GRAPHIC] [TIFF OMITTED] T8136.003
    
    [GRAPHIC] [TIFF OMITTED] T8136.004
    
    [GRAPHIC] [TIFF OMITTED] T8136.005
    
    [GRAPHIC] [TIFF OMITTED] T8136.006
    
    [GRAPHIC] [TIFF OMITTED] T8136.007
    
    [GRAPHIC] [TIFF OMITTED] T8136.008
    
    [GRAPHIC] [TIFF OMITTED] T8136.009
    
    [GRAPHIC] [TIFF OMITTED] T8136.010
    
    [GRAPHIC] [TIFF OMITTED] T8136.011
    
    [GRAPHIC] [TIFF OMITTED] T8136.012
    
    [GRAPHIC] [TIFF OMITTED] T8136.013
    
    [GRAPHIC] [TIFF OMITTED] T8136.014
    
    [GRAPHIC] [TIFF OMITTED] T8136.015
    
    [GRAPHIC] [TIFF OMITTED] T8136.016
    
    [GRAPHIC] [TIFF OMITTED] T8136.017
    
    [GRAPHIC] [TIFF OMITTED] T8136.018
    
    [GRAPHIC] [TIFF OMITTED] T8136.019
    
    [GRAPHIC] [TIFF OMITTED] T8136.020
    
    [GRAPHIC] [TIFF OMITTED] T8136.021
    
    [GRAPHIC] [TIFF OMITTED] T8136.022
    
    [GRAPHIC] [TIFF OMITTED] T8136.023
    
    [GRAPHIC] [TIFF OMITTED] T8136.024
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            February 7, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8136.025
    
    [GRAPHIC] [TIFF OMITTED] T8136.026
    
    [GRAPHIC] [TIFF OMITTED] T8136.027
    
    [GRAPHIC] [TIFF OMITTED] T8136.028
    
    [GRAPHIC] [TIFF OMITTED] T8136.029
    
    [GRAPHIC] [TIFF OMITTED] T8136.030
    
    [GRAPHIC] [TIFF OMITTED] T8136.031
    
    [GRAPHIC] [TIFF OMITTED] T8136.032
    
    [GRAPHIC] [TIFF OMITTED] T8136.033
    
    [GRAPHIC] [TIFF OMITTED] T8136.034
    
    [GRAPHIC] [TIFF OMITTED] T8136.035
    
    [GRAPHIC] [TIFF OMITTED] T8136.036
    
    [GRAPHIC] [TIFF OMITTED] T8136.037
    
    [GRAPHIC] [TIFF OMITTED] T8136.038
    
    [GRAPHIC] [TIFF OMITTED] T8136.039
    
    [GRAPHIC] [TIFF OMITTED] T8136.040
    
    [GRAPHIC] [TIFF OMITTED] T8136.041
    
    [GRAPHIC] [TIFF OMITTED] T8136.042
    
    [GRAPHIC] [TIFF OMITTED] T8136.043
    
    [GRAPHIC] [TIFF OMITTED] T8136.044
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            February 7, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. HUNTER

    Mr. Hunter. On the question of embedded troops, I would think that 
Iraq's neighbors--and I am thinking of neighbors that have helped us to 
some degree in terms of training schools and things, like Jordan, could 
start supplying some embedded troops in what I would call the benign 
disciplines--that is, combat medical capability.
    Could Jordan, for example, or Saudi Arabia or others provide some 
combat medic teams that could be embedded with Iraqi troops in place of 
American embeds after a while?
    Maybe some in the areas of communications, transportation, 
logistics and other areas, that would seem to me to be an embedded--a 
species of embedded forces that would not be a threat to the Iraq 
sovereignty or to the leadership of the Iraqi military.
    Could you speak to that?
    Secretary Gates. The attached spreadsheet provides a description 
and the operational experience for the Iraqi Security Forces, as 
requested.
    [The spreadsheet referred to can be found in the Appendix on page 
111.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MCHUGH

    Mr. McHugh. The FY 2008 President's budget has reduced the Defense 
Health program for fiscal year 2008 by at least $2.1 billion based on 
the assumption that by May of this year the Defense Task Force on the 
Future of Military Health Care will provide recommendations to achieve 
that level of program cut. This reduction includes $1.862 billion of 
assumed savings that are to be generated based on benefit reforms and 
another $298 million of undefined initiatives.
    I note neither of your formal statements today addresses this 
reduction when last year achieving TRICARE savings formed a major 
element of the written DOD posture testimonies.
    I also understand that the Task Force was unaware until yesterday 
that DOD expected them to develop recommendations that achieved such 
savings. Why do you think that the Task Force can develop program and 
benefit changes to achieve such a significant one-year reduction? In 
other words, how realistic is this objective?
    Secretary Gates. We believe that a one-year reduction of at least 
$1.9 billion is possible. The Administration has proposed an option 
that would increase enrollment fees for non-Medicare eligible retirees 
only to a level that would still be attractive relative to cost-shares 
paid by beneficiaries of other programs and private employer-provided 
insurance. We believe that any examination of the cost structure of 
this program cannot help but find that maintaining the status quo is 
infeasible and indefensible. Realignments in the cost-sharing structure 
are essential.
    The National Defense Authorization Act for FY 2007 directed the 
Department to establish a Task Force on the Future of Military Health 
Care. Among the areas required to be reviewed is ``the beneficiary and 
government cost sharing structure.'' The Task Force has begun its 
deliberations. The Task Force is to complete its work in December 2007. 
However, this issue of cost structure must be addressed in the Task 
Force's interim report, due by May 31, 2007.
    Mr. McHugh. Did DOD or OMB provide guidance to the Task Force on 
how these reductions might be achieved? Will the savings be generated 
by TRICARE fee increases alone?
    Secretary Gates. No, DOD did not provide any guidance on how these 
reductions might be achieved. The savings generated were originally 
calculated based on three factors: (1) increase in revenue from fees 
that would be increased; (2) reduced utilization by users of the 
military health care system due to increased co-payments; and, (3) 
reduced number of users for those who have other health insurance and 
would choose not to enroll in TRICARE or to drop their TRICARE 
enrollment in preference to their other health insurance.
    Mr. McHugh. What is the Department's course of action if the Task 
Force does not develop recommendations to achieve the full savings? 
Does DOD have a plan for making the Defense Health Program whole in 
fiscal year 2008, or will the assumed program reductions take place 
regardless of what the task force recommends?
    Secretary Gates. The FY 2008 President's Budget Request assumes a 
placeholder for $1.9 billion in savings from changes to the health 
benefit and changes in pharmacy incentives. The National Defense 
Authorization Act for FY 2007 directed the Department to establish a 
Task Force on the Future of Military Health Care. Among the areas 
required to be reviewed is ``the beneficiary and government cost 
sharing structure.'' The Task Force has begun its deliberations. The 
Task Force is to complete its work in December 2007. However, this 
issue of cost structure must be addressed in the Task Force's interim 
report, due by May 31, 2007. The Department will use the Task Force's 
findings to work with the Congress to achieve the planned savings. The 
Department has not addressed how it might pay for these assumed savings 
because our focus is on supporting the Task Force and then working with 
Congress to determine how best to structure costs in order to sustain 
our military's superb health care benefit.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MEEHAN

    Mr. Meehan. As this Committee begins to consider the DOD's budget 
proposal, I would like to ask you what is the Army proposing to do to 
address the growing small arms and sniper threat in Iraq? More 
specifically, how does the Supplemental Appropriations proposal before 
us address this threat? Is this an area where the Army or the 
Department expects Congress to appropriate additional funds?
    Secretary Gates. In FY07, the supplement funded critical counter 
sniper programs such as Vanguard, Boomerang, Ghost and the QUICKCAM 
systems. The Army expects that FY08 supplemental funds will be needed 
to fund these and other emerging solutions. The Army Asymmetric Warfare 
Office is actively coordinating near-term training solutions with the 
Asymmetric Warfare Group (AWG); material solution efforts through the 
Rapid Equipping Force (REF); and the far-term doctrine, organizations, 
training, materiel, leadership and education, personnel, and facilities 
(DOTMLPF) solutions with the U.S. Army Training and Doctrine Command's 
Army Capabilities and Integration Center. The AWG and the REF are on 
the ground, in theater, continuously accessing war fighter 
requirements. It is too early in the assessment cycle of the current 
solutions to identify any additional requests for funding. The Army 
will provide detailed funding requests as a result of changing threat 
and assessments, validation, and subsequent fielding and training 
requirements of new material solution.
    Mr. Meehan. We just received the FY07 Supplemental along with the 
FY08 budget. My understanding is that the Department approved the 
Army's request to include funds in the Supplemental for upgrading the 
remainder of the Patriot fleet to Configuration 3, thereby making every 
Patriot launcher in the U.S. Army capable of firing our most advanced 
missile, the PAC-3.Unfortunately, the Administration (OMB) denied this 
request and removed Patriot upgrade funds from the Supplemental. The 
President even mentioned in his speech to the nation on January 10, 
2007 that he ordered more Patriots to the Middle East to reassure our 
friends and allies. I further understand that the Army did not request 
funding for these upgrades in the FY08 budget. What are the 
Department's and the Army's plans to fund the remaining upgrades to 
make all of the Patriots Configuration 3?
    Secretary Gates. The Army will address the PAC-3 upgrades through 
the normal budget process since the supplemental request was not 
supported. A two to three year delay in fielding the PAC-3 capability 
is the result.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Technology research budgets tend to have a higher 
inflation rate than other aspects of American life and so that can be a 
significant cutback in actual people doing work. Revisit that issue if 
you would.
    Secretary Gates. The level of S&T funding in the Fiscal Year (FY) 
2008 President's Budget Request (PBR) is 2.1 percent lower than the 
adjusted FY 2007 request, in constant dollars. However the Department's 
request for S&T is still very high in historical terms. The seven 
highest requests for S&T, in constant dollars, have occurred in the 
last seven years. Within the FY08 PBR we have looked hard at all DOD 
investments, and had to fund the priorities within the Department.
    S&T is important to me and in my most recent position as the 
President of Texas A&M University, I was privileged to lead an 
organization proficient in S&T research. Taking account of that 
experience, future DOD budgets will reflect strong continued commitment 
to S&T.
    Dr. Snyder. You mentioned that in your opening statement, your 
written statement. One very specific issue I want to ask. It came out 
of Goldwater-Nichols. It was considered a reform for the service fees 
to be removed from the chain of command when it came to procurement 
projects.
    So your chief of naval operations plays no role in overseeing the 
construction of a vessel, despite cost overruns or whatever is going 
on.
    Is it time, General Pace, to revisit that issue of the service 
chiefs being in the chain of command when it comes to procurement?
    Secretary Gates. We recognize and value the importance of Service 
Chiefs participation and influence in the Department's requirements, 
budgeting and acquisition processes and are taking steps not only to 
strengthen existing means available for that participation, but 
creating new ones as well.
    Central to this is the recently created Tri-Chaired Committee which 
is intended to better integrate processes that define needed 
capabilities, identify solutions, and allocate resources to acquire 
them, enabling corporate decision-making that cuts across traditional 
stovepipes. The Tri-Chaired Committee conducts Concept Decision Reviews 
with the Component Acquisition Executives, Service Vice Chiefs/VCNO/
Deputy Commandant and OSD principals. The goal of the Concept Decision 
Review is to ensure that, as early as possible, DOD makes affordable 
corporate choices that balance operational needs and programmatic 
risks. These reviews are conducted in an open and transparent manner.
    The Service Chiefs are also directly engaged in the existing means 
by which requirements and budgeting issues are reviewed and approved. 
With concern to requirements, Service Vice Chiefs are sitting members 
of the Joint Requirements Oversight Council. On budget and program 
issues the Service Chiefs sit on the senior-level review groups that 
oversea the Service Program Objective Memorandums and Budget 
submissions. Additionally, with respect to the acquisition decision 
process, the Vice Chiefs serve with the Service Acquisition Executives 
as co-chairs of their respective major acquisition decision review 
councils.
    Also, Senior Leadership meetings are held throughout the year at 
junctures aligned with the budget and acquisition process and provide 
Service Chiefs similar opportunities to participate directly in 
formulating programs and budgets.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ANDREWS

    Mr. Andrews. How many police and security forces in Iraq will be 
trained in fiscal 2007 and in fiscal 2008?
    I would ask, that you submit a detailed year by year breakdown, in 
both Iraq and Afghanistan, of the number of persons who have entered 
training, the number of persons who have successfully completed 
training, the number of persons who have taken the off-ramp for 
whatever reason, and how much on a per capita basis we have spent in 
both Iraq and Afghanistan, in both the security forces and the police.
    Ms. Jonas. Between February 2007 and January 2008, we expect 41,000 
Iraqi security force personnel to be trained and equipped. See chart 
below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Afghanistan

    As of January 2007, 31,300 soldiers and 56,635 police have been 
successfully trained, equipped and assigned in Afghanistan. The 
attached chart shows the actual and projected security forces increases 
since July 2005 when the ASFF funds were first available. The total 
reflected, breaks down to an increase of about 7,150 soldiers and 
31,562 police since July 2005.
    The attrition rate for soldiers could be due to their service 
contracts ending; retirement; death or unauthorized leave (AWOL). A 
lack of communications and banking infrastructure in Afghanistan 
sometimes prompts soldiers to leave their units in order to deliver 
their salaries to their families. Combined Security Transition Command-
Afghanistan (CSTC-A) estimates that the attrition rate at about 1.8 
percent per month from the fielded soldiers and about 10 percent from 
trainees.
    The per capita cost of a successfully trained, equipped and 
assigned national police officer will run about $60,500 and for an 
Afghan soldier it is about $144,000. This figure includes the FY 2007 
and FY 2008 requests for funds and the projected number for the Afghan 
National Police and Army units at the end of FY 2008.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Iraq

    <bullet>  As of February 2007, 136,400 soldiers and 192,300 police 
have been successfully trained, equipped and assigned in Iraq. The 
attached chart shows the actual and projected security forces increases 
through January 2008.
    <bullet>  As is true in Afghanistan, the attrition rate is due to a 
number of factors. The Coalition estimates that the attrition rate for 
Police forces is around 20% per year and for Defense forces around 12% 
per year.
    <bullet>  The per capita cost of a trained, equipped and assigned 
police officer is about $42,000 and for a soldier is about $150,000. 
This figure includes the FY 2007 and FY 2008 requests for funds and the 
projected number of Iraq Defense and Police forces.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN

    Mr. Larsen. How might the recent Chinese anti-satellite test change 
the Department's National Space Program investment priorities? Are 
there any programs that are likely to receive additional emphasis?
    Secretary Gates. Space capabilities are vital to U.S. national 
interests and to the effectiveness of our military operations. Our 
space capabilities face a wide range of threats including radio 
frequency jamming, laser blinding, and anti-satellite systems. A broad 
range of diplomatic and military options will be required to counter 
these threats. The maturation of these threats, to include China's 
anti-satellite capability, is carefully factored into planning for our 
system architectures and our resulting investment priorities. Our space 
control planning and budgeting efforts will continue to emphasize a 
strong foundation of space situational awareness, protection of U.S. 
space systems from the broad spectrum of space threats and protection 
our terrestrial forces from threats posed by adversary use of space.
    Mr. Larsen. What has been the official response of the Department 
of Defense to the Chinese ASAT test? How does the Department 
characterize this particular test? How does the Department characterize 
the test program and what are the implications for relevant parts of 
the DOD budget?
    Secretary Gates. China is modernizing its military forces across 
the board and at an accelerated rate. As part of this broad effort, 
China is developing area denial capabilities, including counterspace 
capabilities that could have strategic implications for regional 
stability. China's recent anti-satellite test is one example, but is 
particularly disturbing given the inconsistency we see between this 
test and the spirit of cooperation outlined by President Bush and 
President Hu Jintao, including in the area of civil space cooperation. 
Chinese military modernization lacks transparency and has the potential 
to lead to crisis, instability and miscalculation of intent.
    National Space Policy requires the Department to develop 
capabilities, plans and options to assure our freedom of action in 
space and to achieve our national security objectives. Our investment 
strategy for space and space-related activities is a balanced approach 
to achieving these capabilities. Our space control efforts, for 
example, continue to balance the need for situational awareness, 
protection of our space capabilities and protection of our terrestrial 
forces from threats posed by adversary use of space.
    Mr. Larsen. This committee seems to be seeing a huge budget 
increase in satellite programs. Given the recent Chinese ASAT test and 
given statements out of StratComm that space situational awareness is 
critical, is the committee going to see appropriate investments into 
space situational awareness assets?
    Secretary Gates. Space capabilities are vital to U.S. national 
interest and the effectiveness of our worldwide defense operations. 
China's emerging ASAT capability is just one of the many threats our 
space systems face. Space situational awareness (SSA) is a foundational 
element for space operations and key enabler for our space control 
mission. Our investment strategy for space situational awareness 
continues to balance the need to: sustain existing capabilities; avoid 
gaps in current operations; develop the SSA network by adding new 
sensor capabilities and data sources to meet the challenges of emerging 
space threats; and integrate new and existing multi-source data 
utilizing new, value added processing capabilities to provide real-
time, actionable SSA for rapid decision making.
    Mr. Larsen. Will the Department provide a report to this committee 
before the FY 2008 defense authorization markup describing this test, 
how this test fits into the Chinese military space program, what U.S. 
assets are threatened by this capability, what U.S. assets we currently 
have to counter this capability, and what U.S. assets we are developing 
or plan to develop to counter this capability?
    Secretary Gates. We believe China's ASAT test must be taken in the 
context of their broader counter space and overall military 
modernization efforts. We, along with the intelligence community and 
the State Department briefed the HASC on 19 Jan. 2007 on the test 
event, risks to U.S. space systems, diplomatic actions and policy 
implications of the event. The Department also submitted to Congress 
its Space Control Review and Assessment on 28 July 2006 per the 
National Defense Authorization Act for FY 2006, Section 911. This 
report provides an overview of DOD requirements for space control, an 
assessment of current programs to meet these requirements and plans for 
future space control mission. The Department plans to submit our annual 
Report on Military Power of the Peoples Republic of China to Congress 
per Section 1202 of the National Defense Authorization Act for FY 2000, 
Public Law 106-65 as soon as possible. We believe these briefings and 
reports respond to these questions and frame China's ASAT test in the 
context of their broader military modernization and space control 
efforts. We would be pleased to brief you on any issues which require 
further clarification or amplification.
    Mr. Larsen. In the wake of the successful Chinese ASAT test in 
January, General Cartwright advised members of our Subcommittee on 
Strategic Forces that the most important response should be to improve 
U.S. space situational awareness. I see that the President's 2008 
budget request increased National Security Space funding by $1.2 
billion over 2007, not including funding for Space Radar, which is now 
classified. How much funding is included in the President's budget 
request for Space Situational Awareness? How large an increase is this 
funding from the FY 2007 level? In addition, would you provide the 
committee with details about the systems and associated budgets related 
to Space Situational Awareness?
    Secretary Gates. The FY 2008 funding for Space Situational 
Awareness is $187.8 million, an increase of $66.1 million from the FY 
2007 level.
    Space Situational Awareness takes advantage of capabilities from 
existing collection systems through integration and processing of their 
data. It is knowledge of all aspects of space related to operations and 
is the foundation for space control. It encompasses intelligence on 
adversary space operations; surveillance of all space objects and 
activities; detailed reconnaissance of specific space assets; 
monitoring space environmental conditions, and conducting integrated 
command, control, communications, processing, analysis, dissemination, 
and archiving activities. The budget details for Space Situational 
Awareness provided in the table below reflects the costs associated 
with the integration, processing, and distribution of Space Situational 
Awareness. The budget for the existing systems are contained in their 
individual budget lines and represent the funding for those systems 
which support a much broader set of requirements.
    Space Situational Awareness (SSA) Systems funding for RDT&E, AF 
(Millions):


------------------------------------------------------------------------
   FY07       FY08       FY09       FY10      FY11      FY12      FY13
------------------------------------------------------------------------
  121.7      187.8      160.5      313.3     379.9     351.7     264.3
------------------------------------------------------------------------

    Mr. Larsen. In the Secretary's testimony, he outlines in broad 
strokes the elements of the 2007 supplemental and the 2008 
supplemental. A quick look at these numbers shows that they do not add 
up to the total of each supplemental. The descriptions of elements in 
the 2007 supplemental falls 20 billion dollars short of the total and 
the descriptions of elements 2008 supplemental falls 12.4 billion 
dollars short of the total. What elements make up these shortfalls?
    Secretary Gates. The data in Secretary Gates's testimony purposely 
included only the largest elements in the two bills, not every element. 
The table below, similar to the one from the Department of Defense 
Press Release, shows all the elements in the FY 2007 Supplemental and 
the FY 2008 Global War on Terror Request.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Larsen. In the Chairman's testimony, he argues on pp. 8-10 the 
importance of three elements of what he terms transformation. First, he 
calls for extending and expanding Sections 1206, 1207, and 1208 
authorities. Will the Chairman provide a specific description of the 
implementation of these authorities and specific plans for the future 
use of these authorities? Has the Building Global Partnerships Act been 
introduced or do you envision its inclusion in the defense 
authorization bill?
    General Pace. Section 1206 allows the Secretary of Defense with 
concurrence from Secretary of State to train and equip foreign military 
forces for counterterrorism or in stabilization efforts where U.S. 
forces are operating.
    In FY06 this authority was limited to $200M. The Department 
exercised the authority in the following countries: Pakistan (improving 
counterterrorism strike capabilities); Indonesia (securing strategic 
sea lanes); Sri Lanka (reducing ungoverned maritime spaces); Gulf of 
Guinea (reducing ungoverned maritime spaces); Yemen (countering cross-
border activity); Caribbean Basin (forward defense of homeland); 
Lebanon (reducing Hezbollah operational space); and Morocco, Algeria, 
Tunisia, Chad, and Senegal (securing the region against terrorism).
    In FY07 the authority limitation was raised to $300M. We have 
prioritized a number of important projects and are currently sourcing 
the funding which is scarce. Section 1206 is an authority without an 
appropriation. All funding must come from existing resources.
    The foreign and security assistance process takes 2 to 4 years from 
concept to execution. Section 1206 allows us to respond in a matter of 
months to urgent and emergent threats and opportunities when they 
become extent. Annually, the number of urgent and emergent threats and 
opportunities vastly exceeds the current $300M authority.
    Plans for the future: The Department has requested expansion of 
this authority to include non-military security forces, to make the 
authority permanent, and to increase the cap to $750M. This would 
enable us to build partner capacity when and where needed. The 
Department has also requested a $500M appropriation for 1206 in FY08 in 
addition to the expanded authority. All combatant commanders have cited 
1206 as the most important authority they have to get ahead of threats 
in the War on Terrorism. We would appreciate the opportunity to sit 
down with your staff and review this program in detail.
    Section 1207 allows the Secretary of Defense to provide services 
to, and transfer defense articles and funds to the Secretary of State 
for purposes of reconstruction, security, or stabilization assistance 
to a foreign country. This authority was enacted in January 2006 and 
expires 30 September 2007.
    In FY06, we used this authority to bolster host nation, U.S. 
government, and international efforts to clear unexploded ordnance in 
Lebanon that pose an immediate hazard to noncombatants, impede 
reconstruction efforts, and breed resentments exploited by local 
militias like Hezbollah. It also funded efforts to train and equip 
additional Lebanese internal security forces to perform police 
functions. This task was especially critical because Lebanese Army 
forces previously performing police duties in areas such as the Bekaa 
Valley had been deployed south of the Litani River to enforce the 
current cease-fire, hampering the Lebanese government's ability to 
enforce law and order in areas vacated by the army. Training police 
forces helped reduce gaps in government services that could be 
exploited by Hezbollah and permit the Lebanese government to maintain 
army forces in the southern part of Lebanon.
    For FY07 we have notified Congress of our intent to transfer 
funding for the Department of State for an integrated program to 
address gang control of Cite Soleil, Haiti. This is the country's most 
populous slum and longstanding source of instability, unrest, and 
violence. The plan is to tackle the security challenge by intensively 
focusing on policing interventions, local government support, judicial 
rehabilitation, service delivery, and economic development to improve 
stability.
    Plans for the future: The Department supports the requested budget 
for State's reconstruction office (S/CRS) to enable them to be more 
responsive to stabilization needs in foreign countries.
    Section 1208 gives the Secretary of Defense authority to expend up 
to $25,000,000 in a fiscal year to provide support to foreign forces, 
irregular forces, groups, or individuals engaged in supporting or 
facilitating ongoing military operations by U.S. special operations 
forces to combat terrorism. This authority was enacted October 2004 and 
expires on 30 September 2007.
    Over the past 2 years, this authority has been used when needed and 
only as approved by the Secretary of Defense and with appropriate 
notifications made to Congress.
    Plans for the future: The Department would like to see this 
authority made permanent and to revise the notification requirements. 
The use of this authority has proven an essential tool in executing the 
global war on terror. We would appreciate the opportunity to sit down 
with your staff and provide a classified briefing on the uses of this 
important tool.
    We hope the Building Global Partnerships Act will be included in 
the Defense Authorization Bill. We would appreciate the opportunity to 
sit down with your staff and go over the 16 new authorities we are 
proposing in detail.
    Mr. Larsen. He argues for an interagency National Security 
Initiative Fund to better invest in countering testimony with other 
countries where required. How does the Chairman envision congressional 
oversight for this Fund and the activities it will fund? Can the 
Chairman provide specific examples of what this fund will finance? How 
would these activities differ from past examples of U.S. Government 
funding of other countries' internal security activities that have 
resulted in recipient countries' repression of its citizens? How many 
taxpayer dollars does the Chairman envision will be needed for this 
fund? How will it differ from the Building Global Partnerships Act 
(sections 1206, 1207, and 1208)?
    General Pace. I envision a notification to Congress not later than 
15 days following the determination to transfer funds or if an agency 
is directed to provide assistance. This notification would include a 
description of the assistance, the purposes and anticipated cost of the 
assistance, and the justification for providing the assistance.
    The purpose of this fund would be to enable response to unforeseen, 
emergency situations arising in foreign countries, as well as those 
that threaten the security or stability of a country or region which 
could tend to foster, create, or enlarge ungoverned areas or safe 
havens, and that pose significant threats to the nation security 
interests of the United States. These situations could include 
responding to natural disasters such as the Indonesian tsunami; 
immediate action in post-conflict scenarios such as Lebanon, or 
preventative strategies such as helping to establish rule of law and 
good governance in Haiti. My staff and I would appreciate the 
opportunity to sit down with your staff and discuss the requirements 
for such a fund in detail.
    The fund would be executed in full compliance with existing U.S. 
laws to include the Foreign Assistance Act and the Arms Export Control 
Act of 1961. I see this fund as providing opportunities to better 
ensure our national security by executing the fund in an environment 
that fosters the growth of our national values and ultimately counters 
ideological support to terrorism. The partnership between the State 
Department and Defense Department, combined with a whole-of-government 
approach to addressing crisis areas will help us institute a system of 
checks and balances to ensure that U.S. investments are well and 
thoughtfully planned to achieve the best strategic affect.
    As Chairman, I defer to the Secretary of Defense and the President 
on specific budget requests. I believe, however, we could easily 
identify over $1 billion in annual requirements to build the capacity 
of foreign partners in critical regions and countries and that this is 
of national strategic importance to the United States.
    I envision using the National Security Initiative Fund for 
activities beyond the Building Global Partnerships Act to include 
funding civilian capabilities such as those in the State Department, 
USAID, Department of Justice, Department of Agriculture and Department 
of Energy.
    I understand that the Administration does not yet have a cleared 
position on establishment of a National Security Initiative Fund or 
other similar contingency account, but is reviewing the full range of 
needs that could be met with such a contingency fund and exploring 
alternatives to finance such an account.
    Mr. Larsen. I am encouraged by the Chairman's testimony in support 
of an improved interagency process based on the Goldwater-Nichols model 
that extends to all elements of the federal government in order to 
better ``forestall and address crises.'' As you know, several members 
of this committee have investigated this matter closely. Do you have a 
legislative proposal on this issue now? If not, would you be willing to 
work with this committee to develop legislation?
    General Pace. To my knowledge, the Department does not have a 
comprehensive proposal that is comparable to the Goldwater-Nichols Act. 
However, the Quadrennial Defense Review directed the Department to 
support and enable our partnerships with other USG agencies in order to 
improve policy formulation, planning, and execution of national and 
homeland security missions. I am attaching a copy of DOD's Building 
Partnership Capacity Roadmap, which describes numerous ongoing 
initiatives that are related to this goal.
    Additionally, the Defense Department, in collaboration with the 
State Department and often with a much broader team of federal 
departments and agencies, has developed several concepts for achieving 
better unity of effort in Washington and for conducting more unified 
civil-military operations abroad. The creation of a new United States 
Africa Command should provide a vehicle to test and refine these 
concepts.
    The Joint Chiefs of Staff, in coordination with our OSD 
counterparts, are very willing to cooperate with the Congress as they 
develop legislation that enables unity of effort in Washington and 
unified civil-military operations abroad. We also would like to work 
with you and the Department of State on development of legislation that 
would support creation of a civilian stabilization and reconstruction 
corps. We would like to open informal discussions with your staff on 
all of these issues.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. Do you believe that the equipment appropriation account 
should be re-established for the reserve components?
    Secretary Gates. I completely support full visibility and total 
accountability of all equipment required for our National Guard and 
reserve. We are currently developing a new reserve component equipping 
and resourcing strategy as an integral component of the emerging 
operational reserve construct. At the moment, it would be premature to 
consider creation of new budget appropriations, or to resurrect Cold 
War era budget structures. I am not confident that the establishment of 
separate appropriations would serve the guard and reserve, and might 
inhibit essential flexibilities needed to support our warfighters. The 
Services are currently working hard to ensure all components are 
appropriately equipped and resourced. If changes are needed to support 
the operational reserve, the Department will request your legislative 
support.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MS. SHEA-PORTER

    Ms. Shea-Porter. What percentage would you say is al Qaeda in Iraq 
and in Baghdad?
    Secretary Gates. The exact percentage of violence al Qaeda in Iraq 
causes is undetermined. Al Qaeda in Iraq's effectiveness is not 
measured solely by its rate of operations. Probably more important are 
the qualitative value of individual attacks and the ability of the 
group to conduct attacks. The type of attacks the group conducts--such 
as large-scale suicide bombings, attacks against prominent Shia 
targets, etc.--contribute to the group's disproportionate impact on the 
security environment.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. COURTNEY

    Mr. Courtney. Does the Navy have a plan in future years to ask for 
more than one sub?
    General Pace. The Navy plans to increase procurement of VIRGINIA 
Class attack submarines in fiscal year 2012 to two submarines per year, 
as detailed in the Navy's Report to Congress on Annual Long-Range Plan 
for Construction of Naval Vessels for FY 2008.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS

    Ms. Giffords. Mr. Gates, I recently met with an Army officer who is 
responsible for the pre-redeployment screening. He told me that 70 
percent of the soldiers that he has seen, he is advising to seek 
immediate counseling--70 percent. And the majority of those soldiers 
are not receiving the counseling.
    Could you please address that?
    Secretary Gates. Since January 1, 2003, over one million Service 
members have completed pre-deployment processing at least once. The 
reviewing health care providers found 95% of these Service members 
medically fit to deploy; 4-5% of the Service members were offered a 
referral of any type, which would include counseling of any kind, 
including mental health care.
    Following deployment, over one million Service members have, 
likewise, completed post-deployment health assessment processing. Of 
those, approximately 20% received a referral of any kind, with about 5% 
being referred specifically for mental health or family concerns. Of 
those referred for any reason, approximately 90% were seen for a health 
care visit in the military health system within the six months 
following referral.
    Ms. Giffords. I'm concerned that as we grow the force and increase 
our operational tempo for the President's surge of troops in Iraq, that 
we not mortgage our future by ignoring or reducing the training budget 
for important functions like intelligence analysis. Can you comment on 
the overall level of training funding as well as what you are doing to 
ensure that we do not sacrifice training to get combat-ready units to 
Iraq or Afghanistan?
    General Pace. We are committed to preserving and building future 
capability in the Armed Forces. Service training funds and joint 
training funds, including the Joint Exercise Program and new Combatant 
Command Exercise Engagement and Training Transformation Defense-wide 
fund, provide the resources necessary to execute Service and Combatant 
Command annual training plans to prepare forces to accomplish their 
assigned missions.
    Service and Joint training programs are adequately funded. Specific 
areas where we desire to reduce risk are augmented by supplemental 
funding requests. Training activities and associated funding have not 
been reduced to support the President's surge of troops. While the 
surge has created some challenges by reducing training timelines, we 
are adapting our processes to keep pace. All Services, as well as U.S. 
Joint Forces Command (USJFCOM) in its role as the Joint Force Trainer, 
report that we have not and do not forecast sacrificing training to get 
combat-ready units to Iraq or Afghanistan. For example, USJFCOM, 
working closely with the U.S. Army's Battle Command Training Program, 
continue to conduct an intensive mission rehearsal exercise for all 
forces deploying to U.S. Central Command.
    Intelligence analysis training funding has increased to achieve the 
desired capability within the Department. In fact, training throughput 
has been maintained or expanded in several key courses to meet the 
growing demand for trained personnel and ensure the required level of 
fidelity for the warfighters. Finally, the Services have developed new 
exportable training capabilities to reach more of the Reserve Component 
to build and strengthen our intelligence analysis capability.
    Ms. Giffords. The development of small, tactical UAVs for Army 
battlefield use has provided important new tools for soldiers. Are you 
satisfied that the Army has currently met its requirement for these 
platforms? If not, can procurement be accelerated given the industrial 
base and the evolving technology?
    Secretary Gates. The Army is in the process of meeting its 
requirement for small and tactical Unmanned Aerial Systems (UAS). 
Procurement of these small systems such as the hand-thrown Raven at 4.5 
lbs., and the 350 lb. Shadow can be accelerated given additional 
funding.
    Beginning in 2001, there was a rapid request from combat units for 
small UAS to provide tactical coverage integrated with their 
operations. Our Raven Small UAS (SUAS) program was initiated out of a 
one of these urgent needs statements from both Army and Special 
Operations Forces. The Army alone currently has 271 Systems in 
Operation Iraqi Freedom (OIF) and 43 Systems in Operation Enduring 
Freedom (OEF). Over the course of the GWOT, and working thru the Joint 
Capabilities Integration and Documentation System (JCIDS) and Federal 
Acquisition Regulation (FAR) the Army has upgraded this system by 
increasing the endurance from 60 to 90 minutes; reducing the weight 
soldiers must carry by 25%; adding tunable (frequency) channels; 
significantly improving the video resolution and stability; adding a 
laser illuminator all while reducing per unit cost by over 20% since 
our original procurement. From inception, the Shadow Tactical UAS 
(TUAS) was initiated using JCIDS/FAR program of record standards for 
integrated tactical support to Brigade Combat Teams (BCT). First 
fielded in 2001, the Army currently has 19 Shadow TUAS in OIF and 2 
systems in OEF. In OIF 1, we only had 2 Shadow Systems and none in OEF. 
In addition, the Army is rapidly procuring Shadow systems for the USMC 
to replace their aging Pioneer UAS. Shadow TUAS has also received 
significant product improvements in its' short lifespan: Increased 
endurance from slightly over four hours to almost six hours, Improved 
electro-optical and infra-red video sensor that includes a laser 
illuminator that will be upgraded to a coded laser designator in 
approximately 18 months. The Army is actively working with industry to 
develop a small heavy fuel engine (HFE) for this class of air vehicle 
that to date does not have a wide requirement in the civilian sector. 
Additionally, the Army is rapidly developing a tactical common data 
link (TCDL) to transition our UAS (Shadow, ER/MP) to a common digital 
datalink. Finally, in concert with our Future Force modernization and 
to answer a capability gap that provides the ability for hovering, 
vertical take-off and lift (VTOL) UAS, the Army (along with DARPA) 
developed a Class I UAS for squad and platoon operations. The Future 
Combat Systems is transitioning support of the prototypes being 
exercised by 25th Infantry Division along with developing a HFE and 
network connectivity and control of the Class I. The Army continues to 
assess the ability to accelerate the Class I UAS as part of FCS Spin-
Out plan.
    Ms. Giffords. Recently at Naval Air Station Oceana the Navy lost a 
court case and had to pay significant sums to local residents to settle 
noise complaints and charges. As the military continues to consolidate 
missions in fewer installations, I am concerned about the future of 
bases in urban areas, where they may run into this issue again. What is 
the Department doing with regard to urban installations to ensure we 
don't have situations like that again?
    Secrertary Gates. The situation at NAS Oceana provides an 
illustrative, although perhaps extreme, example of the serious effects 
unchecked encroachment can have on military readiness. The Department 
recognizes the problem and has instituted a more comprehensive approach 
to ensure our installations and ranges remain viable. The Department 
has a number of tools at its disposal that have proven effective in 
combating encroachment. The Air Installations Compatible Use Zones 
(AICUZ) Program has been effective in helping local communities 
understand noise and safety issues associated with air operations and 
to enact land use controls to foster compatible development around 
airfields. Additionally, the Joint Land Use Study (JLUS) Program 
managed by the Office of Economic Adjustment has funded numerous JLUS 
efforts to assist local communities develop a comprehensive land use 
plan for their community and provide technical assistance so they can 
better understand the Military Service concerns with incompatible 
development. As part of the FY03 NDAA, the Congress enacted legislation 
enabling the Services to enter into partnerships with State and local 
governments as well as conservation organizations to protect lands 
around our installations and operating areas and establish buffers and 
preclude incompatible development or loss of habitat. For example, the 
Navy has partnered with Escambia County in Florida to protect land 
adjoining the Pensacola Naval Air Station's boundary from being turned 
into a subdivision. The land, which is less than a mile from the base's 
runways and control tower, is now being used for a community park. 
These are just a few of the approaches being used to better engage 
state, local, and regional partners in the challenging job of planning 
for more compatible land use that better suits the long-term goals of 
interested parties. DOD and the Services are fully aware that success 
lies in working with communities and other stakeholders to ensure 
actions reflect the Department's desire to be a welcome part of the 
larger community, and conversely, that the actions of our neighbors do 
not threaten the military mission.

                                  <all>

</pre></body></html>
